<html>
<title> - THE TRANSPORTATION SECURITY ADMINISTRATION'S AIRLINE PASSENGER AND BAGGAGE SCREENING</title>
<body><pre>[Senate Hearing 109-1104]
[From the U.S. Government Printing Office]





                                                       S. Hrg. 109-1104

                      THE TRANSPORTATION SECURITY
                   ADMINISTRATION'S AIRLINE PASSENGER
                         AND BAGGAGE SCREENING

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 4, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                      U.S. GOVERNMENT PRINTING OFFICE
  63-551 PDF               WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c5a2b5aa85a6b0b6b1ada0a9b5eba6aaa8eb">[email&#160;protected]</a>  









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director










                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 4, 2006....................................     1
Statement of Senator Ensign......................................     2
Statement of Senator Inouye......................................    34
Statement of Senator Lautenberg..................................    43
Statement of Senator Pryor.......................................    47
Statement of Senator Stevens.....................................     1
    Prepared statement...........................................     2

                               Witnesses

Berrick, Cathleen A., Director, Homeland Security and Justice 
  Issues, U.S. Government Accountability Office..................     8
    Prepared statement...........................................     9
Hawley, Hon. Edmond ``Kip,'' Assistant Secretary, Transportation 
  Security Administration........................................     3
    Prepared statement...........................................     4
Principato, Gregory O., President, Airports Council 
  International--North America (ACI-NA); on behalf of the 
  American Association of Airport Executives (AAAE)..............    26
    Prepared statement...........................................    28

                                Appendix

Report (2005), entitled, ``Luggage Security--More Safety, Less 
  Hassle for American Travelers: a Private Sector Solution,'' by 
  Richard A. Altomare, Coalition for Luggage Security............    55
Hawley, Hon. Edmund ``Kip'':
    Written questions submitted by Hon. Daniel K. Inouye.........    72
    Supplementary information....................................    72
Miller, Hasbrouck B., Vice President of Government Affairs, 
  Smiths Detection, prepared statement...........................    68
Ripp, Thomas, President, Security and Detection Systems Division, 
  L-3 Communications, Inc., prepared statement...................    66
Sparapani, Timothy D., Legislative Counsel, American Civil 
  Liberties Union, Washington Legislative Office, prepared 
  statement......................................................    61

 
                      THE TRANSPORTATION SECURITY
                   ADMINISTRATION'S AIRLINE PASSENGER
                         AND BAGGAGE SCREENING

                              ----------                              


                         TUESDAY, APRIL 4, 2006

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                     Washington DC.
    The Committee met, pursuant to notice, at 10:19 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Let me welcome you to the Committee hearing 
today. We appreciate your willingness to participate in our 
review of TSA. This is the second in the series of hearings 
held by this committee on aviation security. The first was 
conducted on February 9, when the Committee examined two of 
TSA's airline passenger non-physical prescreening programs, the 
secured flight and registered traveler systems. That hearing 
focused on the policy and management issues that have prevented 
TSA from launching those programs and using intelligence in a 
more integrated fashion.
    The purpose of today's hearing will be to evaluate TSA's 
physical screening of airline passengers and their baggage. The 
hearing will focus generally on TSA's security checkpoint 
screening processes, the agency's deployment of new screening 
technologies, screener workforce issues, and TSA's procurement 
processes.
    It has been more than 4 years since Congress created TSA to 
ensure, in part, the viability of commercial aviation as a 
secure means of travel within the United States.
    Well, I commend you, Mr. Hawley, for your tireless work 
over the past year. We believe TSA has made significant strides 
toward fulfilling a security mission. The agency is still 
experiencing its share of growing pains. The agency has been 
criticized for inconsistent screening policies, privacy 
invasions at the checkpoint and search of baggage, 
ineffectiveness in detection of explosives, and changes to its 
carry-on prevented items list and excessive no-bid contracts.
    Our committee wants to seek some information today from you 
as witnesses regarding ways to make passenger screening 
checkpoints more efficient, effective, without compromising 
privacy. We want to seek TSA's vision for the checkpoint of the 
future and review whether existing technologies can be 
integrated to a single more effective portal that can be 
applied in the short term.
    This hearing will also focus on ways to reduce the 
attrition and injury rate among the TSA screener force, 
something that surprised me to hear about. But we look forward 
to constructive dialogue with you today and I do hope the other 
Senators will be here soon. Senator, do you have an opening 
statement?
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    We welcome each of the witnesses who appear before the Committee 
today, and thank you for your willingness to participate in this 
hearing.
    Today represents the second in a series of hearings held by the 
Committee on aviation security. The first hearing was conducted on 
February 9, when the Committee examined two of TSA's airline passenger 
non-physical pre-screening programs, Secure Flight and Registered 
Traveler. That hearing focused on the policy and management issues that 
have prevented TSA from launching those programs and using intelligence 
in a more integrated fashion.
    The purpose of today's hearing will be to evaluate TSA's physical 
screening of airline passengers and their baggage. The hearing will 
focus generally on TSA's security checkpoint screening processes, the 
agency's deployment of new screening technologies, screener workforce 
issues, and TSA's procurement processes.
    It has been more than 4 years since Congress created TSA to ensure 
in part the viability of commercial aviation as a secure means of 
travel in the United States. While I commend Mr. Hawley for his 
tireless work over the past year, and the significant strides TSA has 
made toward fulfilling its security mission, the agency has experienced 
its share of growing pains. The agency has been criticized for 
inconsistent screening policies, privacy invasions at the checkpoint 
and in the search of baggage, ineffectiveness in the detection of 
explosives, changes to its carry-on prohibited items list, and 
excessive no-bid contracts.
    The Committee will seek answers today from the witnesses regarding 
ways to make passenger screening checkpoints more efficient and 
effective without compromising privacy. The Committee will seek TSA's 
vision for the checkpoint of the future, and review whether existing 
technologies can be integrated into a single, more effective, portal 
that can be deployed in the short term. The hearing also will focus on 
ways to reduce the attrition and injury rate among the TSA screener 
force.
    I look forward to a constructive dialogue with the witnesses.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. I'll just make a 30 second statement, Mr. 
Chairman. There are a lot of good TSA employees around the 
country, we all deal with them. Often the unfortunate part of 
the whole system is that the terrorists are winning simply 
because of the amount of time that we all spend in airports. 
With all the extra time spent in line, we have to design better 
systems. The current system works the vast majority of the time 
and is a reasonable inconvenience, which I think most people 
are willing to put up with.
    But then there are the peak times when the wait is half an 
hour or 45 minutes or even an hour. Most of us travel through 
Dulles periodically and we see it there, but other airports 
around the country experience this as well. In Las Vegas, 
McCarran Airport can really get backed up and when you spend 
that amount of time in line, that just hurts the country. It 
hurts the country and the overall economy. I think we have to 
continue to work to make this whole process better. Not just by 
improving screening technologies and performance, but by also 
doing it in a much more efficient fashion.
    The Chairman. Our first witness is Edmund ``Kip'' Hawley, 
Assistant Secretary for the Transportation Security 
Administration. Let me say to all of you that your statements 
will be printed in full in the record. We are not going to put 
a time limit on you now, so give us as much as you think we 
should hear of the statements, please.

 STATEMENT OF HON. EDMUND ``KIP'' HAWLEY, ASSISTANT SECRETARY, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Hawley. Thank you Mr. Chairman and good morning and 
Senator Ensign and other members.
    Thank you for the opportunity to comment on aviation 
security and the physical screening of airline passengers and 
baggage. I'm pleased also to appear with two of our key 
partners at TSA, Cathy Berrick of GAO and Greg Principato of 
ACI. I look forward to hearing their insights.
    In my prepared remarks I outlined the many layers of 
security that are in place to protect airline passengers. Each 
of them, and I listed 15, is formidable. Each one of them by 
itself is capable of stopping a terrorist attack. Together, as 
one system, they have tremendous resilience against expected 
and unexpected attack scenarios. Not only does each of the 15 
security layers add to security, their combination multiplies 
their security value, creating a much stronger system. Truly 
the whole is greater than the sum of the parts and together 
they are formidable.
    TSA is now in transition as the Chairman and Senator Ensign 
mentioned at the beginning. We're moving from a startup mode, 
when large scale acquisitions and hiring were needed to quickly 
stand up the agency. We're becoming more nimble and flexible 
and our needs are becoming more targeted. We face an ever-
changing threat and TSA must now adapt while we constantly 
improve. TSA is approaching the challenge in three ways: one, 
strengthen each individual layer; two, increase the number of 
layers; and three, add additional flexibility and 
unpredictability to the equation.
    First, what are we doing to strengthen the most visible 
layer, TSA passenger checkpoints? Increased and enhanced 
security training for our TSO's, our front line security 
officers, aimed at detecting IED components. Finding IED's at 
the checkpoint is our number one goal and well-trained, 
motivated TSO's significantly improve the effectiveness of the 
system. The best technology we have is the human mind, and our 
security process and training should be based at taking 
advantage of the combined thinking power of everyone at every 
level of TSA. Continued challenging training is the way to do 
that.
    Retain our core TSO's, who's experience and judgment 
represent both our biggest investment and biggest payback. As 
we increase TSO capability by training, it is even more 
important to keep the excellent TSO's we have by creating a 
stable, positive work environment. We are rolling out this week 
some initial steps based on recommendations from TSOs that are 
aimed at increasing retention of our critical front line 
officers.
    Give our Federal Security Directors more flexibility, both 
in hiring and in designing the best security system for each 
airport's unique environment. Having completed the massive 
startup hiring needed to get TSA off the ground, we are giving 
our airport FSD's the authority and the tools to hire locally. 
This will help us with quality and improve retention as well.
    Technology is a critical part of today's system and holds 
the promise to make dramatic improvements over time. We're in 
the process of testing new technologies, some of which are in 
airports today. In order to get the big benefits we seek in 
effectiveness and efficiency, in order to take our system up to 
the next level, more needs to be done on detection, throughput, 
and on the economic model itself.
    What more can we do with layers? Deploy a new layer of 
security, behavior observation, using existing resources and 
budget. We've already tested this capability and it adds 
considerable additional security while protecting our 
constitutional guarantees. Improve identity verification 
throughout the airport for passengers and workers. We are 
working on using biometric ID's for all workers who have access 
to secure parts of the airport, and we are working for improved 
identity verification for passengers as well. I know that this 
committee is well aware of the value of biometrics in security 
work, and it has already given strong direction to TSA 
regarding biometrics in ATSA, as well as regarding Registered 
Traveler and TWIC.
    Focus on explosives expertise as a core competence again, 
with our existing resources. We've used professional Bomb 
Appraisal Officers to train our TSO's, now we'd like to make 
these BAO's available at checkpoints on a regular basis.
    The addition of flexibility and unpredictability into our 
security system is the most important new requirement for TSA. 
This doesn't cost more money, but it does require a willingness 
to change. It has been 4 years since we constructed the ATSA 
required security system. I believe its biggest vulnerability 
has been its predictability. Just as we can't depend on the 
idea that terrorists would plan and train for 4 years to run 
exactly the same attacks as they've done in the past, we can't 
allow them the luxury of being able to make their plans knowing 
exactly what defense they will face. We cannot sit back as a 
good security system loses its effectiveness by becoming 
static, rigid, and ultimately defeatable.
    By refreshing our layers of security, building 
unpredictability into our operations, deploying new technology 
as it becomes ready, and getting the most out of our excellent 
people, we can keep our security system flexible, dynamic, 
unpredictable, and effective against attacks that we prepare 
for or may not expect.
    Thank you Mr. Chairman. I'd be happy to answer questions.
    [The prepared statement of Mr. Hawley follows:]

Prepared Statement of Hon. Edmond ``Kip'' Hawley, Assistant Secretary, 
                 Transportation Security Administration
    Good morning Chairman Stevens, Co-Chairman Inouye, and 
distinguished members of the Committee. Thank you for this opportunity 
to speak with you about aviation security and to continue our dialogue 
regarding improvements to physical screening of airline passengers and 
baggage.
    Created in the aftermath of the 9/11 terrorist attacks, the 
Transportation Security Administration continues to pursue its vital 
mission of protecting our Nation's transportation systems. With ATSA as 
its statutory foundation, TSA has worked with the airlines, airports, 
shipping industry, flight crews, law enforcement, and passengers to 
take aviation security orders of magnitude beyond where it stood on 9/
11. Today, our challenge is to keep it fresh, to make our security 
regime as flexible, dynamic, adaptable, and unpredictable as the enemy 
we face.
    When I appeared in December before this committee, I noted the 
numerous independent layers of security that reinforce each other. The 
recent classified GAO test demonstrated that an individual security 
layer can probably be beaten; but, together, the layers of the security 
network are formidable. Physical screening at the airport is only one 
of these layers.
    Aviation security begins well before a passenger arrives at the 
airport.

        1. U.S. Government agencies work with others around the globe 
        to identify and disrupt terrorist activities at their source.

        2. Customs and Border Protection activities further identify 
        potential terrorists and bar their entry into the United 
        States.

        3. Federal, state, and local law enforcement work together with 
        the FBI in Joint Terrorism Task Forces across the United States 
        to identify and disrupt terrorist activities within the U.S.

        4. A No-Fly system is used to prevent anyone known to an agency 
        of the U.S. Government to be a threat to commit a terrorist act 
        from flying into or in the United States.

        5. Airline flight crews and airport employees who have access 
        to an aircraft are subject to an even stricter vetting standard 
        than the No-Fly analysis.

    These first five security elements mean that anybody known to U.S. 
intelligence or law enforcement agencies as a terrorist or a close 
terrorist associate never gets close to an airplane. But there is much 
more.

        6. An additional, risk-based computer-assisted pre-screening of 
        passengers is conducted before a boarding pass is issued.

        7. Hundreds of canine teams and local law enforcement officers 
        are working at airports across the country to identify 
        suspicious articles or people.

        8. Surveillance activities take place in and around the airport 
        environment on a daily basis.

    All of this happens before a passenger even shows up at a TSA 
checkpoint.

        9. At the checkpoint, a professional, well-trained, experienced 
        team of Transportation Security Officers (TSO), assisted by 
        multiple technologies, screens passengers and their carry-on 
        bags for weapons and explosives.

        10. In the baggage area, similarly well-trained, experienced 
        Transportation Security Officers use a variety of technologies 
        to screen baggage, and, when necessary, they physically search 
        baggage to resolve anomalies.

    Then, on the aircraft:

        11. Thousands of Federal Air Marshals fly undercover on a very 
        significant number of flights, both domestic and international.

        12. Thousands of pilots who undergo special training and become 
        Federal Flight Deck Officers are authorized and ready to 
        protect the cockpit with firearms.

        13. Other local, state, and Federal law enforcement officers 
        travel armed as part of their normal duties and are prepared to 
        intervene.

        14. Hardened cockpit doors prevent unauthorized access to the 
        flight deck.

        15. And sitting on every airplane are passengers who remember 
        the courage and commitment of the men and women on United 
        Flight 93, and who are prepared to act, if necessary.

    Each and every one of these 15 security layers is important.
Important Principles of Passenger Screening
    Two important principles drive our decisions about the physical 
screening of passengers. First, we are focusing our investments in both 
people and technology on the highest risks. As we discussed at the 
hearing last December, this means that we are placing less emphasis on, 
and spending less time finding items that do not pose a threat of 
taking over an airplane. For example, taking small scissors and certain 
small tools off the prohibited items list has allowed us to spend TSO 
time on training to find the more serious threat of improvised 
explosive devices. Since last November, more than 20,000 TSOs have 
received instructor-led training in enhanced explosives detection. 
Additionally, over 20,500 TSOs have taken on-line training that 
includes simulated image detection instruction. Within the next several 
months, we anticipate that all checkpoint screeners will have completed 
both on-line training and instructor-led hands-on training in 
explosives detection.
    Second, we seek to avoid giving terrorists an advantage based on 
our predictability. We know that terrorists will look for ways to 
defeat our security measures, and that they will adapt to changes in 
our security measures. If we follow exactly the same procedures 
everywhere, every time, we make it easier for terrorists to break the 
security code. If, on the other hand, we build a measure of 
unpredictability into our operations, terrorists cannot use our 
consistency to their advantage in planning an attack. Our approach, 
therefore, must be based upon flexibility and unpredictability.
    Our current screening process, however, is overly rigid, static and 
predictable. Terrorists can more easily ``engineer around'' these 
highly structured defenses. Therefore, we need to build more 
flexibility and more layers of security into our current checkpoint 
screening process, so that terrorists conducting pre-operational 
surveillance will not be able to plan based on what they observe.
    Starting last December, TSA piloted new protocols to implement 
unpredictable screening procedures at ten airports. In these pilots, a 
customized schedule of enhanced screening procedures was created for 
each new TSO shift. The schedule dictated the type and frequency of 
property and/or passenger searches to be conducted. Each of the 
enhanced screening procedures was designed to specifically address the 
threat of explosives, and the procedures were carried out regardless of 
whether a passenger cleared the walk-through metal detector or a carry-
on bag successfully passed through the x-ray machine. None of the 
airports reported any significant impact on passenger wait times, and 
for any individual passenger, the extra time required to undergo a 
particular screening procedure was very short. More importantly, 
however, no passenger--and, therefore, no terrorist--could predict 
exactly what screening procedure he or she would be subject to. Based 
on this successful pilot, we intend to incorporate similar 
unpredictable additional screening into our standard operating 
procedures.
    In addition, TSA has begun developing a plan to train TSOs in 
behavior pattern recognition and to begin deploying trained individuals 
at high-risk airports. Last December, TSA piloted the use of behavior 
pattern recognition techniques at some ticket checker positions in ten 
airports (including Logan Airport in Boston, which began utilizing 
trained TSOs at ticket checker positions in September 2005). Each 
airport in the pilot utilized five to eight TSOs from that airport who 
had received classroom and on-the-job training in behavior pattern 
recognition techniques. If a passenger was identified as exhibiting 
behaviors indicative of fear, stress and/or deception, they were either 
referred for additional screening, or referred for selectee screening 
and an evaluation interview with a law enforcement officer. Under the 
program now being developed, trained TSOs can be deployed in 
conjunction with a variety of functions, including checkpoint 
screening, passenger verification (ticket checking), gate screening, or 
as part of specific threat mitigation efforts. This capability will add 
further unpredictability to passenger screening at the airport.
A Professional, Highly Motivated Workforce
    Since returning to TSA almost 9 months ago, I have been reminded 
daily that TSA is full of Americans who serve their country with 
dignity and diligence. Our Transportation Security Officers are at the 
front-line. They have difficult, complex jobs. They must evaluate the 
behavior of every passenger who seeks to board a commercial airliner; 
identify and find weapons and explosive devices that may have been 
hidden in luggage or clothing; perform hand searches of personal 
belongings, some of which may contain dangerous articles or weapons; 
pat down individuals who set off alarms or are selected for secondary 
screening; operate sophisticated equipment used to detect explosives or 
other dangerous weapons; and be able to control people who seek to do 
harm, while expediting the passage of law-abiding customers and 
workers.
    TSOs have frequent and recurrent contact with airline passengers 
and employees, airport employees and vendors, and law enforcement 
personnel, all of whom must follow strict security requirements before 
gaining access to secure areas of airports. On a daily basis, they 
interact with people of different nationalities, cultures and 
backgrounds, and who have varying degrees of experience with the 
security laws, regulations, and procedures which TSOs must implement 
and enforce. In this environment, TSOs encounter fear, cynicism and 
stress among the traveling public. They must be able to deliver 
business-like directions to guide travelers through security 
procedures, and must remain professional, even when travelers become 
aggravated or angry by procedures.
    As you know, when TSA was created in 2002, a centralized hiring and 
human resources infrastructure was created to support the rapid stand-
up of the federalized screening workforce. Now that the agency is 
essentially hiring to maintain an employee base of 43,000 TSO FTEs, 
that centralized model is no longer cost-effective. We have begun, 
therefore, to develop a local hiring and training system in order to 
achieve efficiencies and better meet our current and expected hiring 
requirements. These requirements include an increase in the proportion 
of our screening workforce that is part-time, to better match the daily 
peak-load workflow at airports.
    In addition, we recognize that high employee turnover rates drive 
up hiring and training costs, and lower the overall experience level of 
our workforce. Yet our screening workforce has few upward mobility 
opportunities within their profession, and TSA has not fully utilized 
performance incentives. Therefore, we have reclassified the agency's 
43,000 screeners as Transportation Security Officers (TSOs). This new 
classification acknowledges the judgment and skills required and the 
standards to which we hold our workforce. It also gives TSOs an 
opportunity to step onto a career ladder and apply for DHS law 
enforcement positions. In addition, in order to encourage top 
performance, we are deploying a pay-for-performance system and have 
requested an additional $10 million in Fiscal Year 2007 to support 
pilot programs to improve recruitment and retention.
    TSA has also taken steps to reduce TSO injury rates, which are a 
significant drain on our workforce. Based on the recommendations of our 
Screener Injury Task Force, we have implemented a TSA-wide nurse case 
management program to assist TSOs in getting the medical attention they 
need to return to work as soon as possible. In addition, we are sending 
teams of industrial engineers to evaluate the 25 airports with the 
worst injury rates and make recommendations for improvements, including 
simple configuration changes and small equipment purchases (like roller 
tables and floor mats) that could have significant impacts on injury 
rates.
Technology
    Technology plays a critical role at TSA, now and in the future. We 
deploy sophisticated and effective technology in all phases of our 
security process. We invest in new technology that holds the promise 
for better security, more efficiently delivered. I believe that we are 
in a period where we have deployed the best, most reliable, and 
operationally effective technology available. There are many promising 
new technologies, such as Explosives Trace Portals (ETPs) Automated 
Carry-On Bag Explosives Detection Systems (EDS), and Whole Body Imaging 
Technology (backscatter). However, until that technology is available, 
we are best served by a focus on getting the most out of what we have 
deployed today--in terms of both people and equipment. When the 
technology is available, it should be ready for widespread economical 
deployment, as part of an integrated screening process that includes 
behavior pattern recognition, document checking, and other security 
measures.
Closing
    TSA's mission is to protect the Nation's transportation systems 
while facilitating the movement of people and commerce. We recognize 
the importance of physical screening to the security of our aviation 
network, and our risk-based strategy includes innovations and 
investments in training, workforce deployment, and technology. At the 
same time, we are committed to a strategy that goes far beyond physical 
screening. It begins with intelligence gathered by multiple U.S. 
agencies that is analyzed, shared, and applied. It includes checking 
every passenger manifest against terror watch lists and observing 
behaviors and activities in the airport environment. And, finally, it 
includes a law enforcement presence in airports and on aircraft, and a 
partnership with airlines, airports, pilots, flight crew members, and 
the traveling public--all of whom are committed to stopping terrorists 
in their tracks.
    Mr. Chairman, thank you again for the opportunity to testify today. 
I am happy to respond to the Committee's questions.

    The Chairman. Our next witness is Cathleen Berrick, who is 
a Director of Homeland Security and Justice for the U.S. 
Government Accountability Office.
    Ms. Berrick. Correct.
    The Chairman. Ms. Berrick?

          STATEMENT OF CATHLEEN A. BERRICK, DIRECTOR,

             HOMELAND SECURITY AND JUSTICE ISSUES,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Berrick. Thank you Mr. Chairman and Senator Ensign for 
inviting me to discuss the physical screening of passengers and 
checked baggage at the Nation's airports.
    My testimony today focuses on the progress TSA has made and 
the challenges it faces related to three key components of the 
screening system, the deployment, management, and training of 
the Transportation Security Officer workforce, or TSOs, 
screening procedures used to screen passengers and their 
baggage and TSA's efforts to leverage and deploy needed 
screening technologies.
    Regarding TSA's efforts to deploy, manage and train the TSO 
workforce, TSA has made significant progress in these areas, 
but continues to face staffing and training challenges. For 
example, TSA has significantly increased the amount of training 
available to TSOs to include focusing on explosive detection 
and has made changes to training programs based on identified 
vulnerabilities.
    However, insufficient staffing has made it difficult for 
all TSOs to have the time needed to take required training. We 
found the Federal Security Directors at about half of the 263 
airports we surveyed reported that there was not sufficient 
time for TSOs to receive required training within regular work 
hours. In addition, a lack of high speed Internet capability at 
about half the Nation's airports has prevented many TSOs from 
fully utilizing TSA's online learning center.
    TSA has also developed a staffing allocation model to more 
effectively determine TSO allocations at airports. This model 
takes into account unique airport configurations and other 
important factors. However, TSA has had difficulty attracting 
and retaining a part-time TSO screener workforce needed to 
address staffing needs, and some screeners are used to perform 
administrative duties at airports due to a lack of 
administrative staff.
    Related to screening procedures, we found that TSA creates 
new or modifies existing procedures to improve the efficiency 
of the screening process or to enhance security. These changes 
are based on operational experience, stakeholder concerns, and 
risk-based factors, including available intelligence 
information. We are encouraged by TSA's consideration of risk-
based factors and the development and modification of screening 
procedures, which is consistent with previous GAO 
recommendations.
    Regarding screening technologies and, in particular, the 
ability to detect explosives on passengers, more work remains. 
TSA has taken action to address identified gaps and is 
investing in fielding technology for this purpose. However, 
more progress is needed to deploy these technologies on a large 
scale basis.
    TSA also has the potential to achieve significant 
efficiencies and enhanced security through integrating 
explosive detection systems in line with airport baggage 
conveyor systems to screen checked baggage. Limited analysis 
has shown that integrating this equipment in line, although 
requiring a significant up front investment, could result in 
savings of over $1 billion to the Federal Government over 7 
years for 9 airports that TSA reviewed. This estimated savings 
is due in large part to the significantly fewer number of 
screeners that will be required to operate the equipment in 
line.
    We recommended that TSA more systematically plan for the 
deployment of this equipment, including the installation of in-
line systems. TSA recently published a strategic framework for 
its checked baggage screening program and is exploring 
financing strategies to support the installation of in-line 
systems. However, these efforts are not yet complete.
    Regarding measuring effectiveness of its screening systems, 
TSA has made significant progress in testing its screening 
components, including establishing an annual recertification 
for TSOs. However, although TSA's TSOs generally perform well 
during annual recertification testing, covert testing has shown 
that weaknesses and vulnerabilities continue to exist in the 
screening system.
    In conclusion, TSA has made significant progress in 
ensuring the security of airline passengers and their baggage 
despite many obstacles and challenges, including hiring a 
workforce of over 40,000 TSOs and deploying explosive detection 
systems at over 400 airports. As TSA moves forward 
opportunities for further strengthening these screening systems 
exist.
    Mr. Chairman, this concludes my opening statement. I would 
be happy to respond to questions at the appropriate time.
    [The prepared statement of Ms. Berrick follows:]

Prepared Statement of Cathleen A. Berrick, Director, Homeland Security 
       and Justice Issues, U.S. Government Accountability Office
    Mr. Chairman and members of the Committee:
    I appreciate the opportunity to participate in today's hearing to 
discuss the progress made and challenges remaining in the physical 
screening of airline passengers and their checked baggage, and in the 
deployment of explosive detection technologies. Securing commercial 
aviation is a daunting task--with hundreds of airports, thousands of 
aircraft, and thousands of flights daily carrying millions of 
passengers and pieces of checked baggage. The Aviation and 
Transportation Security Act (ATSA), enacted on November 19, 2001, 
created the Transportation Security Administration (TSA) and mandated 
actions designed to strengthen aviation security, including requiring 
that TSA assume responsibility for conducting passenger and checked 
baggage screening at over 400 commercial airports in the United States 
by November 19, 2002. It has been over 3 years since TSA assumed this 
responsibility, and the agency has spent billions of dollars and 
implemented a wide range of initiatives to strengthen the key 
components of its passenger and checked baggage screening systems--
people, processes, and technology. These components are interconnected 
and are critical to the overall security of commercial aviation.
    My testimony today focuses on the progress TSA is making in 
strengthening airline passenger and checked baggage screening, and the 
challenges that remain. In particular, my testimony highlights four key 
areas, including TSA's efforts to (1) enhance the performance of the 
transportation security officer (TSO--formerly referred to as 
screeners) workforce and manage and deploy the TSO workforce; (2) 
strengthen procedures for screening passengers and checked baggage on 
passenger aircraft; (3) leverage and deploy screening technologies; and 
(4) measure the effectiveness of its passenger and checked baggage 
screening systems.
    My comments are based on issued GAO reports and testimonies 
addressing the security of the U.S. commercial aviation system and our 
preliminary observations from ongoing work on TSA's passenger 
checkpoint screening procedures and staffing standards for TSOs. We did 
our work in accordance with generally accepted government auditing 
standards. Appendix I contains a list of related GAO products released 
since September 11, 2001.
Summary
    TSA has taken steps to enhance the performance, management, and 
deployment of its TSO workforce, but it continues to face staffing and 
training challenges. Acknowledging imbalances in the screener 
workforce, TSA developed standards for determining TSO staffing for all 
airports at which Federal screening is required and developed a 
Screening Allocation Model (SAM) to determine airport staffing levels. 
In determining staffing allocations, the SAM takes into account not 
only flight and passenger data, but also data unique to each airport--
including flight schedules, load factors, passenger and baggage 
distribution curves, and TSA passenger and baggage screening 
configurations. However, in interviewing several Federal Security 
Directors (FSD)--the ranking authorities responsible for the leadership 
and coordination of TSA security activities at the Nation's commercial 
airports--we identified some preliminary concerns about the SAM. For 
example, one assumption of the SAM is that 20 percent of the TSO 
workforce at airports will be part-time. However, FSDs whom we spoke to 
said that it has been a challenge to attract, hire, and retain TSA's 
part-time TSO workforce, which has made this goal difficult to achieve. 
Further, several of the FSDs we interviewed stated that they had not 
been able to hire up to their authorized staffing levels, and that the 
SAM did not take into account that TSOs were also being routinely used 
to carry out non-screening and administrative duties. TSA has 
established the National Screening Force to provide screening support 
to all airports in times of special need, and implemented a number of 
initiatives to reduce attrition among its TSO workforce. In addition to 
having an adequate number of screeners, effective screening involves 
screeners being properly trained to do their job. TSA has taken 
numerous steps to expand training beyond the basic training requirement 
to include self-guided courses on its Online Learning Center; a 
recurrent training requirement of 3-hours per week, averaged over a 
quarter; and training on threat information, explosives detection, and 
new screening approaches. However, insufficient TSO staffing and a lack 
of high-speed Internet/intranet connectivity create impediments to the 
TSO workforce taking full advantage of training opportunities.
    TSA is proposing changes to its screening procedures to enhance 
detection capabilities, but could strengthen its evaluation of these 
procedures. Since April 2005, TSA has gathered proposals for passenger 
screening procedural changes from a variety of sources within the 
agency. Based on preliminary observations from our ongoing review, we 
found that most of these proposed changes for passenger screening were 
intended to improve efficiency or TSA's ability to detect prohibited 
items. Other security-related changes to passenger screening procedures 
are made based on several risk-based factors, including results of 
covert (undercover, unannounced) tests that are designed to reveal 
vulnerabilities in the screening system. TSA also recently piloted 
additional procedures that would incorporate unpredictability into the 
screening system and allow TSOs to determine the level of screening 
passengers should receive based on suspicious behavior. TSA vets 
proposed screening procedural changes through various TSA offices and 
tests significant proposed changes in an operational environment. 
However, our preliminary observations indicate that TSA's evaluation of 
procedural changes could be strengthened to include how the procedure 
would reduce vulnerability to a terrorist attack.
    TSA is supporting the development and deployment of technologies to 
strengthen commercial aviation security but faces management and 
funding challenges. Effective screening depends on having the right 
technology in place to detect threats, and TSA has taken steps to 
deploy and develop technologies to strengthen commercial aviation 
security. However, challenges in funding and planning created 
impediments to the technology's implementation. For example, to improve 
explosives detection at some passenger screening checkpoints, TSA has 
deployed explosives trace portal machines, which use puffs of air to 
help detect the presence of explosives on individuals. The Department 
of Homeland Security's (DHS) Fiscal Year 2007 budget request states 
that about 434 explosive trace portal machines will be in operation 
throughout the country during Fiscal Year 2007.
    However, limited progress has been made in fielding other 
explosives detection technology at passenger checkpoints. At baggage 
screening checkpoints, TSA has been effective in deploying explosive 
trace detection systems (in which TSOs collect samples by rubbing bags 
with swabs, which are chemically analyzed to identify any traces of 
explosive materials) and the more efficient explosive detection systems 
(in which probing radiation is used to examine objects inside baggage 
and identify characteristic signatures of threat explosives). Now that 
the initial deployment of this equipment has been completed, however, 
TSA must focus on deploying enhanced explosive detection systems, 
including larger or smaller models depending on the needs of a 
particular airport, and on incorporating explosive detection systems 
in-line with baggage conveyor systems, to further enhance efficiency 
and security. In looking to the future, DHS has agreed with our 
recommendations to improve its research and development (R&D) 
management and planning, including completing basic research, strategic 
planning, and risk assessment efforts; coordinating R&D efforts with 
transportation stakeholders; and assessing the costs and benefits of 
deploying explosive detection systems--either in-line or stand-alone at 
the Nation's airports. In February 2006, TSA took a positive step 
forward by completing a strategic framework for its checked baggage 
screening operations that will help ensure the efficient allocation of 
limited resources to maximize technology's effectiveness in detecting 
threats. However, additional work will be needed to determine funding 
and deployment strategies to support the implementation of in-line 
baggage screening systems.
    TSA has measures in place to assess the effectiveness of passenger 
and checked baggage screening systems. TSA headquarters has conducted 
covert testing of passenger and checked baggage screening by having 
inspectors attempt to pass threat objects through checkpoints in order 
to measure vulnerabilities and identify systematic problems affecting 
TSO performance in the areas of training, procedures, and technology. 
These tests have identified that, overall, weaknesses and 
vulnerabilities exist in the passenger and checked baggage screening 
systems. Implemented in September 2002, the testing protocols for 
passenger and checked baggage screening changed in September 2005 to 
implement a more risk-based approach and focus on catastrophic threats 
to aircraft. Additionally, in February 2004 and February 2005, for 
passengers and checked baggage, respectively, TSA issued protocols to 
help FSDs conduct covert testing of local airport screening activities. 
Other ways TSA tests the effectiveness of passenger and baggage 
screening include the use of the Threat Image Projection System, which 
projects threat images onto a screen as the bag is screened to test the 
screener's ability to positively identify the threat; annual screener 
recertification testing; and passenger and checked baggage performance 
indexes. These performance indexes reflect indicators of effectiveness, 
efficiency, and customer satisfaction. However, due to a lack of 
targets for each component of the index, TSA may have difficulty 
performing meaningful analyses of the parts of the index.
Background
    Following the terrorist attacks of September 11, the President 
signed the Aviation and Transportation Security Act into law on 
November 19, 2001, with the primary goal of strengthening the security 
of the Nation's aviation system. To this end, ATSA created TSA as an 
agency with responsibility for securing all modes of transportation, 
including aviation. \1\ As part of this responsibility, TSA oversees 
security operations at the Nation's more than 400 commercial airports, 
including passenger and checked baggage screening operations. Prior to 
the passage of ATSA, the screening of passengers and checked baggage 
had been performed by private screening companies under contract to the 
airlines. The Federal Aviation Administration (FAA) was responsible for 
ensuring compliance with screening regulations. Today, TSA security 
activities, including passenger and checked baggage screening at 
airports, are overseen by Federal Security Directors--the ranking 
authorities responsible for the leadership and coordination of TSA 
security activities at the Nation's commercial airports. Each FSD is 
responsible for overseeing security activities, including passenger and 
checked baggage screening, at one or more commercial airports.
    TSA reported that between October 2004 and September 2005, about 
735 million passengers were physically screened. In addition, 550 
million bags were screened using explosive detection systems with 
standard screening procedures.
Passenger and Checked Baggage Screening
    In addition to establishing TSA and giving it responsibility for 
passenger and checked baggage screening operations, ATSA set forth 
specific enhancements to screening operations for TSA to implement, 
with deadlines for completing many of them. These requirements 
included:

  <bullet> assuming responsibility for screeners and screening 
        operations at more than 400 commercial airports by November 19, 
        2002;

  <bullet> establishing a basic screener training program composed of a 
        minimum of 40 hours of classroom instruction and 60 hours of 
        on-the-job training;

  <bullet> conducting an annual proficiency review of all screeners;

  <bullet> conducting operational testing of screeners; \2\

  <bullet> requiring remedial training for any screener who fails an 
        operational test; and

  <bullet> screening all checked baggage for explosives using 
        explosives detection systems by December 31, 2002.\3\

    Passenger screening is a process by which authorized TSA personnel 
inspect individuals and property to deter and prevent the carriage of 
any unauthorized explosive, incendiary, weapon, or other dangerous item 
onboard an aircraft or into a sterile area.\4\ TSOs (formerly referred 
to as screeners) must inspect individuals for prohibited items at 
designated screening locations.\5\ The four passenger screening 
functions are: (1) X-ray screening of property, (2) walk-through metal 
detector screening of individuals, (3) hand-wand or pat-down screening 
of individuals, and (4) physical search of property and trace detection 
for explosives.
    Checked baggage screening is a process by which authorized security 
screening personnel inspect checked baggage to deter, detect, and 
prevent the carriage of any unauthorized explosive, incendiary, or 
weapon onboard an aircraft. Checked baggage screening is accomplished 
through the use of explosive detection systems \6\ (EDS) or explosive 
trace detection (ETD) systems,\7\ and through the use of other means, 
such as manual searches, canine teams, and positive passenger bag 
match,\8\ when EDS and ETD systems are unavailable.
    The conference report accompanying the Fiscal Year 2006 DHS 
appropriations act allocates about $3.6 billion to TSA for passenger 
and checked baggage screening operations, of which about $2.4 billion 
is for the TSO workforce and the remaining amount is for private sector 
TSOs,\9\ equipment purchase, installation and maintenance, and support 
functions associated with the TSO workforce, such as training and other 
human resource functions.\10\ The President's Fiscal Year 2007 budget 
request includes about $3.5 billion for passenger and checked baggage 
screening, of which about $2.5 billion would support the TSO workforce.
TSA Has Taken Steps to Strengthen the Management and Performance of Its 
        TSO Workforce, but Continues to Face Challenges
TSA Has Taken Steps to Better Manage Its TSO Workforce, but Faces 
        Challenges in Hiring, Deploying, and Retaining TSOs
    TSA has taken and has planned actions to strengthen its management 
and deployment of the TSO workforce, but it continues to face 
challenges in hiring and deploying passenger and checked baggage TSOs. 
To accomplish its security mission, TSA needs a sufficient number of 
passenger and checked baggage TSOs trained and certified in the latest 
screening procedures and technology. We reported in February 2004 that 
staffing shortages and TSA's hiring process had hindered the ability of 
some FSDs to provide sufficient resources to staff screening 
checkpoints and oversee screening operations at their checkpoints 
without using additional measures such as overtime.\11\ TSA has 
acknowledged that its initial staffing efforts created imbalances in 
the screener workforce and has since been taking steps to address these 
imbalances over the past 2 years.
    The Intelligence Reform and Terrorism Prevention Act of 2004 
required TSA to develop and submit to Congress standards for 
determining the aviation security staffing for all airports at which 
screening is required.\12\ The act also directed GAO to review these 
standards, which we are doing. These staffing standards are to provide 
for necessary levels of airport security, while also ensuring that 
security-related delays experienced by airline passengers are 
minimized. In June 2005, TSA submitted its report on aviation security 
staffing standards to Congress. Known as the Screening Allocation Model 
(SAM), these standards are intended to provide an objective measure for 
determining TSO airport staffing levels, while staying within the 
congressionally mandated limit of 45,000 full-time equivalents (FTE) 
screeners.\13\
    Whereas TSA's prior staffing model was demand-driven based on 
flight and passenger data, the SAM model analyzes not only demand data 
but also data on the flow of passenger and baggage through the airport 
and the availability of the workforce. In determining the appropriate 
TSO staffing levels, the SAM first considers the workload demands 
unique to each individual airport--including flight schedules, load 
factors and connecting flights, and number of passenger bags. These 
demand inputs are then processed against certain assumptions about the 
processing of passengers and baggage--including expected passenger and 
baggage processing rates, required staffing for passenger lanes and 
baggage equipment, and equipment alarm rates. Using these and various 
other data, the SAM determines the daily workforce requirements and 
calculates a work schedule for each airport. The schedule identifies a 
recommended mix of full-time and part-time staff and a total number of 
TSO FTE needed to staff the airport, consistent with a goal of 10 
minutes maximum wait time for processing passengers and baggage.
    For Fiscal Year 2006, the SAM model estimated a requirement of 
42,170 TSO FTEs for all airports nationwide. In order to stay within a 
43,000 TSO FTE budgetary limit for Fiscal Year 2006, TSA officials 
reduced the number of FTEs allocated to airports to 42,056, which 
allowed it to fund the 615 TSO FTEs in the National Screener Force--a 
force composed of TSOs who provide screening support to all airports--
and to maintain a contingency of 329 TSO FTEs in reserve to meet 
unanticipated demands, such as a new air carrier coming on line at an 
airport.\14\ As of January 2006, there were 37,501 full-time TSOs and 
5,782 part-time TSOs on board nationwide, representing an annualized 
rate of 41,085 TSO FTEs. According to TSA headquarters officials, the 
SAM can be adjusted to account for the uniqueness of particular airport 
security checkpoints and airline traffic patterns. Further, it is up to 
the FSDs to ensure that all of the data elements and assumptions are 
accurate for their airports, and to bring to TSA's attention any 
factors that should be reviewed to determine if changes to the SAM are 
appropriate. The President's Fiscal Year 2007 budget requests a total 
of 45,121 FTEs for TSO personnel compensation and benefits.
    As part of our ongoing review of the SAM model, we have identified 
several preliminary concerns about TSA's efforts to address its 
staffing imbalances and ensure appropriate coverage at airport 
passenger and checked baggage screening checkpoints, which we are 
continuing to assess. At the five airports we visited, FSD staff raised 
concerns about the SAM assumptions as they related to their particular 
airports.\15\ Among other things, they noted that the recommendation 
for 20 percent part-time TSO workforce--measured in terms of FTEs--
often could not be reached, the expected processing rates for passenger 
and baggage screening were not being realized, non-passenger screening 
at large airports was higher than assumed, and the number of TSO FTEs 
needed per checkpoint lane and per baggage screening machine was not 
sufficient for peak periods. Regarding the SAM assumption of a 20 
percent part-time TSO FTE level across all airports, FSD staff we 
visited stated that the 20 percent goal has been difficult to achieve 
because of, among other things, economic conditions leading to 
competition for part-time workers, remote airport locations coupled 
with a lack of mass transit, TSO base pay that has not changed since 
Fiscal Year 2002, and part-time workers' desire to convert to full-time 
status. According to TSA headquarters officials, while the nationwide 
annual TSO attrition rate is about 23 percent (compared to a rate of 14 
percent reported in February 2004), it is over 50 percent for part-time 
TSOs. TSA has struggled with hiring part-time TSOs since it began 
actively recruiting them in the summer of 2003. In February 2004, we 
reported that FSDs at several of the airports we visited stated that 
they experienced difficulty in attracting needed part-time screeners, 
which they believed to be due to many of the same factors, such as low 
pay and benefits, undesirable hours, the location of their airport, the 
lack of accessible and affordable parking or public transportation, and 
the high cost of living in the areas surrounding some airports.\16\ 
These FSDs stated that very few full-time screeners were interested in 
converting to part-time status--a condition that still exists--and TSA 
officials stated that attrition rates for part-time screeners were 
considerably higher than those for full-time screeners.
    At two of the five airports we visited as part of our ongoing 
review of the SAM model, FSD staff told us that they had not been able 
to hire up to their authorized staffing levels. In February 2004, we 
reported that many of the FSDs we interviewed expressed concern that 
TSA's hiring process was not responsive to their needs and hindered 
their ability to reach their authorized staffing levels and adequately 
staff screening checkpoints. Specifically, FSDs expressed concern with 
the lack of a continuous hiring process to backfill screeners lost 
through attrition, and their lack of authority to conduct hiring on an 
as-needed basis. We reported that TSA was taking steps to make the 
hiring process more responsive to FSDs' needs. Since then, TSA has 
provided FSDs with more input into the hiring process in an effort to 
streamline the process and enable FSDs to more quickly meet their 
staffing needs.
    During our five airport visits, some FSD staff also cited another 
limitation of the SAM--specifically, that the model does not account 
for screeners who are performing administrative or other duties. The 
officials also noted that, because they are not authorized to hire a 
sufficient number of mission support staff, TSOs are being routinely 
used--in some cases full time--to carry out non-screening and 
administrative duties, including supporting payroll, scheduling, 
uniform supplies, legal support, logistics, and operations center 
activities. At the five airports we visited in January and February 
2006, out of a total of 2,572 TSO FTEs on-board at those airports, 
roughly 136 FTEs (just over 5 percent) were being used for 
administrative duties. FSD staff stated that some of these TSOs are 
being used on a part-time basis, while others are used on a full-time 
basis. The use of TSOs in these support functions could adversely 
affect the ability of FSDs to adequately staff their screening 
checkpoints.
    To compensate for screener shortages and to enable operational 
flexibility to respond to changes in risk and threat, in October 2003, 
TSA established a National Transportation Security Officer (TSO) Force 
(formerly known as the Mobile Screening Force established in November 
2002) to provide screening support to all airports in times of 
emergency, seasonal demands, or under other special circumstances that 
require a greater number of screeners than regularly available to FSDs. 
In February 2004, we reported that the National Screening Force 
consisted of over 700 full-time passenger and baggage TSOs. TSA 
officials stated that while these screeners have a home airport to 
which they are assigned, they travel to airports in need of screening 
staff approximately 70 percent of the year.
    TSA budgeted for 615 FTEs for the National Screening Force in 
Fiscal Year 2006. The President's Fiscal Year 2007 budget request 
includes $35 million for operational expenses of the force (not 
including salaries and benefits of force members). According to the 
budget request, in Fiscal Year 2007, the National Screening Force will 
generally be deployed only to those airports experiencing significant 
staffing shortfalls associated with increased seasonal traffic or when 
a special event, such as a Super Bowl or a large national conference, 
occurs requiring an immediate influx of additional TSO support. At one 
category X airport we recently visited, the FSD stated that because of 
challenges in hiring and retaining TSOs for this airport, he currently 
had 59 members of the National Screening Force deployed to his airport, 
and had been relying on this force since 2004. The President's Fiscal 
Year 2007 budget request states that TSA will continue to review 
methods for reducing costs associated with this force, including 
ensuring that each airport has a sufficient staffing program in place 
to address short-term needs.
    In February 2006 in the President's Fiscal Year 2007 budget 
request, TSA identified a number of initiatives it has under way to 
address the management of the TSO workforce, including:

  <bullet> requesting $10 million to support TSO retention programs, 
        including utilizing workforce retention flexibilities to 
        potentially include pay for performance, performance bonuses, 
        retention allowances, college credit reimbursement, and 
        flexible staffing; and:

  <bullet> establishing retention incentives for part-time screeners.

    We will continue to examine these efforts as part of our ongoing 
work on TSA's aviation security staffing standards.
TSA Has Strengthened TSO Training but Faces Challenges in Delivering 
        the 
        Training
    Since we reported on TSO training in September 2003,\17\ TSA has 
taken a number of actions designed to strengthen training available to 
the TSO workforce as part of its efforts to enhance the performance of 
TSOs. Additionally, TSA's Office of Inspections (OI, formerly the 
Office of Internal Affairs and Program Review) makes recommendations to 
TSA leadership in its reports on covert (undercover, unannounced) 
testing results. These recommendations address deficiencies identified 
during testing and are intended to improve screening effectiveness. As 
of December 2005, OI had issued 29 reports to management on the results 
of its checkpoint and checked baggage covert testing. In total, the 
reports include 19 distinct recommendations related to passenger and 
checked baggage screening.\18\ Of these 19 recommendations, 11 relate 
to screener training.
    In September 2003, we reported that TSA had not fully developed or 
deployed a recurrent training program for passenger TSOs. At that time, 
little training was available to TSOs once they completed their basic 
TSO training. Since then, TSA has expanded training available to the 
TSO workforce, such as introducing an Online Learning Center that makes 
self-guided courses available over TSA's intranet and the Internet and 
expanding training available to supervisory TSOs. TSA also established 
a recurrent training requirement of 3 hours per week, averaged over a 
quarter, and provided FSDs with additional tools to facilitate and 
enhance TSO training, including at least one modular bomb set kit--
containing components of an improvised explosive device (IED)--and at 
least one weapons training kit. TSA has also instituted a program 
called ``Threat in the Spotlight'' that, based on intelligence TSA 
receives, provides screeners with the latest in threat information 
regarding terrorist attempts to get threat objects past screening 
checkpoints. Additionally, in December 2005, TSA reported completing 
enhanced explosives detection training for over 18,000 TSOs. This 
training included both classroom and hands-on experiences, and focused 
particularly on identifying X-ray images of IED component parts, not 
just a completely assembled bomb. TSA plans for the remaining TSO 
workforce to receive this training by June 2006 through the Online 
Learning Center or other delivery methods. TSA also has developed new 
training curricula to support new screening approaches. For example, 
TSA recently developed a training curriculum for TSOs in behavior 
observation and analysis at the checkpoint to identify passengers 
exhibiting behaviors indicative of stress, fear, or deception.
    However, as we reported in May 2005, insufficient TSO staffing and 
a lack of high-speed Internet/intranet connectivity to access the 
Online Learning Center have made it difficult for all TSOs at many 
airports to receive required training and has limited TSO access to TSA 
training tools.\19\ As previously discussed, TSA is taking steps to 
address the TSO staffing challenges. However, it is too soon to 
determine whether TSA's efforts will address TSA's ability to provide 
required training while maintaining adequate coverage for screening 
operations. In terms of access to the Online Learning Center, TSA plans 
to complete the deployment of high-speed Internet/intranet connectivity 
to airports during Fiscal Year 2007. TSA established its Online 
Learning Center to provide passenger and baggage screeners with online, 
high-speed access to training courses. However, effective use of the 
Online Learning Center requires high-speed Internet/intranet access, 
which TSA had not been able to provide to all airports. In May 2005, we 
reported that as of October 2004, about 45 percent of the TSO workforce 
did not have high speed Internet/intranet access to the Online Learning 
Center. The President's Fiscal Year 2007 budget request reports that 
approximately 220 of the more than 400 airport and field locations have 
full Information Technology (IT) infrastructure installation, to 
include high-speed network connectivity, while the rest of the airports 
operate with dial-up access to TSA systems. According to the budget 
request, TSA will use $120 million in Fiscal Year 2006 to deploy high-
speed connectivity to all category X and I airports and preliminary 
high-speed connectivity to all category II, III, and IV airports. The 
budget request includes a request for a total of $90 million to support 
this effort in Fiscal Year 2007, of which $54 million is needed to 
complete the deployment of high-speed connectivity at category II, III, 
and IV airports.\20\
TSA Is Making Changes to Its Passenger Screening Procedures to Enhance 
        Detection Capabilities Based on Risk and Other Factors, but 
        Could Strengthen Its Evaluation of Proposed Procedures
Proposed Passenger Checkpoint Screening Procedural Changes Are 
        Generally Based on Operational Experience and Risk-Based 
        Assessments
    Our preliminary analysis of TSA data indicates that since April 
2005, TSA has considered 70 proposed changes to passenger checkpoint 
screening procedures.\21\ Most of these proposed changes were generated 
by TSA airport officials and TSA's Security Operations division, which 
is responsible for developing and overseeing the implementation of 
checkpoint screening procedures. TSA headquarters also formally 
solicited input from TSA airport staff by initiating a field review of 
standard operating procedures (SOP), which involved representatives 
from airports across the Nation. This review resulted in 120 suggested 
revisions to the passenger checkpoint screening procedures. To a lesser 
extent, changes to checkpoint screening procedures are recommended by 
TSA senior leadership, such as the Assistant Administrator of Security 
Operations or the Assistant Secretary. Congress has also proposed and 
subsequently mandated changes to checkpoint screening procedures, such 
as adding lighters to the list of items prohibited on aircraft. 
According to a senior TSA official, recent suggestions for procedural 
changes, such as removing small scissors from the prohibited items list 
to allow TSOs to focus on higher risk items, were generated by a TSA 
task force focused on improving the agency's ability to detect 
explosives at the screening checkpoint.
    Based on our preliminary analysis, the majority of proposed SOP 
changes considered by TSA in April 2005, August 2005, September 2005, 
and December 2005 were not specifically designed to enhance the 
security of the screening process.\22\ Of the 70 proposed checkpoint 
screening SOP changes considered by TSA, 23 were intended to improve 
the efficiency of the screening process (e.g., passenger flow) such as 
modifying the HazMat reporting requirements to exclude torch lighters 
and pepper spray in quantities less than 4 ounces. Seven of the 70 
proposed changes considered by TSA during this period were intended to 
specify or clarify procedures for passengers requiring special 
consideration, such as law enforcement officers. Ten of the proposed 
changes were specifically intended to improve TSA's ability to detect 
prohibited items. Sixteen proposed changes were intended to enhance 
customer service or clarify the wording of the SOP. Fourteen of the 70 
proposed changes were not included in these categories.\23\
    According to TSA, security-related proposed changes to checkpoint 
screening procedures are based on risk-based factors, including 
previous terrorist incidents, threat information, vulnerabilities of 
the screening system, as well as operational experience and stakeholder 
concerns. For example, according to TSA officials, the initial change 
to the pat-down procedure in September 2004 was based on the attacks 
carried out on two Russian aircraft. According to TSA, the pat-down 
procedure was further revised in response to passenger concerns that 
the procedure was too invasive. TSA officials stated that the pat-down 
procedure was changed a third time based on additional threat 
information. TSA also informed us that reported threat information led 
them to further amend the pat-down procedure in December 2005.
    Recommended changes to passenger checkpoint screening procedures 
are also generated based on the results of covert testing conducting by 
TSA's Office of Inspections and the DHS Office of Inspector General 
(OIG). Covert tests are designed to assess vulnerabilities in the 
checkpoint screening system to specific threats, such as vulnerability 
to the various methods by which terrorists may try to conceal hand 
guns, knives, or IEDs. OI and the DHS OIG identified vulnerabilities in 
the checkpoint screening system, which existed, in part, due to 
deficiencies in screening procedures. To address these vulnerabilities, 
since March 2005, OI and the DHS OIG recommended four changes to the 
passenger checkpoint screening procedures.\24\ TSA has also made 
procedure changes in response to operational experience and stakeholder 
concerns. For example, TSA changed the SOP to specify the ``individual 
tester'' instead of ``supervisor'' to alleviate field confusion that 
supervisors were the only ones allowed to perform a particular task. 
Also, based on field input, TSA is changing the SOP to allow TSOs to 
instruct passengers with long hair to hold their hair during the 
explosives trace portal (ETP) screening process. TSA also made changes 
due to stakeholder concern, such as modifications to the pat-down 
procedure. After passengers expressed discomfort with the invasive 
nature of the procedure, TSA modified it to be less invasive while 
maintaining its security effectiveness.
TSA Could Strengthen Its Evaluation of Proposed Screening Procedural 
        Changes Based on our Preliminary Observations
    As previously mentioned, TSA airport staff and headquarters 
officials suggest changes to checkpoint screening procedures to 
generally improve the efficiency, effectiveness and clarity of 
screening procedures. These proposed procedural changes are 
periodically gathered and vetted through various TSA offices, and 
ultimately the Assistant Administrator of Security Operations, for 
approval. The offices involved in the review process for SOP changes 
include Security Operations, Office of Chief Counsel, and the Office of 
Training. As required, proposed procedural changes are also evaluated 
by other offices including the Office of Intelligence and Analysis, 
Office of Civil Rights, and Office of Passengers with Disabilities. 
Representatives of these component divisions meet informally or 
formally to discuss proposed changes and determine whether the changes 
should be incorporated into the checkpoint screening SOP.
    In addition, TSA officials informed us that the agency evaluates 
all significant proposed changes in an operational environment prior to 
determining whether such changes should be implemented nationwide. 
Specifically, under the current Assistant Secretary, TSA pilot tests 
changes that require substantial training or that may generate concerns 
from the traveling public. The significant changes implemented in 
December 2005 include revisions to the pat-down procedure, the 
procedure for searching carry-on luggage, the process for screening 
selectee passengers,\25\ and the list of items prohibited on aircraft. 
The major changes also include a new procedure for screening passengers 
for IEDs. While TSA evaluated these procedures in an operational 
environment, our preliminary analysis suggests that the evaluations 
primarily focused on the operational feasibility of the procedures, and 
less on how these procedures would reduce vulnerability to a terrorist 
attack. TSA assesses the vulnerability of the existing checkpoint 
screening system by conducting covert tests in which persons attempt to 
carry prohibited items through the checkpoint without the items being 
detected. However, TSA officials questioned whether covert testing 
could be used to assess statistically whether new procedures would 
decrease the vulnerability of the screening system. For example, TSA 
officials stated that since some procedures are only piloted in the 
operational environment for a few days, TSA could not run enough covert 
tests for the results to allow for comprehensive analysis of reduced 
vulnerability. TSA officials also stated that because the agency 
implements a layered approach to passenger screening, it would be 
difficult to determine the extent to which any one layer reduces 
vulnerability of the checkpoint screening system.
    During the course of our review, we met with five aviation security 
experts, four of which identified covert testing as the best way to 
assess the security effectiveness of new and existing procedures. 
However, they also acknowledged the difficulty of using covert testing 
to assess the extent to which specific procedures would reduce 
vulnerabilities, especially considering that the effectiveness of a 
procedure also relies on the capability of TSOs and screening 
equipment.
    TSA also recently piloted additional procedures that would 
incorporate unpredictability into the screening system and that would 
allow TSOs to determine the level of screening passengers should 
receive based on suspicious behavior. While TSA has not yet determined 
whether to incorporate these new procedures into the SOP, our 
preliminary observations indicate that TSA did not have a formal 
evaluation plan in place when piloting these procedures. Regarding 
screening passengers based on suspicious behavior, TSA officials stated 
that this method has been successful for law enforcement officials, 
including those operating in airports, as well as aviation officials in 
other countries such as Israel. FSD staff at three airports that 
participated in the piloting of these procedures identified factors TSA 
headquarters should consider prior to implementing these procedures, 
one of which is the lack of TSOs to conduct these procedures. FSD staff 
at one airport said that they had to close a screening lane in order to 
have a sufficient number of TSOs to implement the piloted procedure. 
FSD staff at all three airports also reported that some TSOs had to 
work overtime so that other TSOs could be trained to implement these 
procedures. TSA headquarters staff stated that the prohibited items 
list and changes to other programs would offset the additional TSO 
resources needed to implement these procedures. However, FSD staff with 
whom we spoke at 2 of the airports that piloted these procedures stated 
that the changes made did not free up screening resources as was 
planned.
TSA Is Supporting the Development and Deployment of Technologies To 
        Strengthen Commercial Aviation Security, but Faces Management 
        and Funding Challenges
DHS and TSA Are Taking Steps To Develop and Deploy Technologies for 
        Screening Passengers and Checked Baggage, but Further Planning 
        Is Needed To Focus R&D Efforts
    DHS's and TSA's research and development efforts for passenger and 
checked baggage screening are part of a broader DHS program focused on 
researching and developing technologies to detect, prevent, and 
mitigate terrorist threats. History has shown that terrorists will 
adapt their tactics and techniques in an attempt to bypass increased 
security procedures, and are capable of developing increasingly 
sophisticated measures in an attempt to avoid detection. This ever 
changing threat necessitates the need for continued R&D of new 
technologies and the fielding of these technologies to strengthen 
aviation security.
    In March 2005, the DHS OIG reported that significant improvement in 
screener performance may not be possible without greater use of new 
technology. The DHS OIG encouraged TSA to expedite its testing programs 
and give priority to technologies that will enable the screening 
workforce to better detect both weapons and explosives. In addition, 
the President's Fiscal Year 2007 budget request states that checkpoints 
do not currently have the ability to accurately and quickly detect 
explosives on all passengers, and only a minimal number of airline 
passengers are directed to a selectee lane for further inspection in 
which they are manually searched for explosives. The request further 
states that ``many travelers are allowed to pass through the 
checkpoints without complete testing and detection,'' and recognizes 
the importance of filling this detection gap. TSA officials stated that 
the agency is addressing this issue through a variety of security 
measures. TSA has recently put increased focus on the threats posed by 
IEDs and is investing in technology for this purpose. For example, 
about 60 explosives trace portal machines have been installed at over 
20 airports. This new technology uses puffs of air to help detect the 
presence of explosives on individuals. DHS's Fiscal Year 2007 budget 
request states that TSA expects that about 434 explosive trace portal 
machines will be in operation throughout the country by September 2007. 
TSA is also developing backscatter technology, in which backscatter 
signals interact with explosives, plastics and metals, giving them 
shape and form and making them easy to visually interpret. However, 
limited progress has been made in fielding this technology at airport 
passenger screening checkpoints. We will soon begin a review of DHS's 
and TSA's progress in planning for, managing, and deploying their R&D 
programs in support of passenger checkpoint screening operations.
    To enhance checked baggage screening, TSA is developing and testing 
next-generation EDS machines. Most of the currently deployed EDS 
technology was developed prior to the passage of ATSA and was based on 
criteria set forth by Congress in the Aviation Security Improvement Act 
of 1990. According to TSA, since the large-scale deployment of EDS 
machines in 2002 and 2003, manufacturers have only marginally improved 
false alarm rates and throughput capabilities of the equipment. The 
maximum number of bags an EDS machine can screen per hour is 500, which 
can be achieved only when the machines are integrated in-line with the 
baggage conveyor system. New EDS equipment was certified in 2005, 
including a smaller EDS machine designed to replace ETD machines used 
for primary screening and an upgraded large EDS machine. In September 
2005, TSA entered into a $24.8 million contract to purchase 72 smaller 
EDS machines to be installed at 24 airports. The President's Fiscal 
Year 2007 budget request for TSA includes funding to support research 
and development for EDS machines that can operate at up to 900 bags per 
hour and employ new threat detection concepts. In its February 2006 
strategic framework for checked baggage screening, TSA identified 
development of high-throughput EDS machines and lowering of false alarm 
rates as key arenas for improving investment management of next-
generation technologies.
    We reported in September 2004 that DHS and TSA have made some 
progress in managing transportation security R&D programs according to 
applicable laws and R&D best practices. However, we found that their 
efforts were incomplete in several areas, including preparing strategic 
plans for R&D efforts that contain measurable objectives, preparing and 
using risk assessments to select and prioritize R&D projects, and 
coordinating with stakeholders--a condition that increases the risk 
that their R&D resources will not be effectively leveraged. We also 
found that TSA and DHS delayed several key R&D projects and lacked both 
estimated deployment dates for the vast majority of their R&D projects 
and adequate data bases to effectively manage their R&D portfolios. We 
recommended that DHS and TSA: (1) conduct some basic research in the 
transportation security area; (2) complete their strategic planning and 
risk assessment efforts; (3) develop a management information system 
that will provide accurate, complete, current, and readily accessible 
project information for monitoring and managing their R&D portfolios; 
and (4) develop a process with the Department of Transportation to 
coordinate transportation security R&D efforts and share this 
information with transportation stakeholders. DHS and TSA agreed that 
the recommendations were key to a successful R&D program. We will 
examine DHS's and TSA's efforts to implement these recommendations as 
part of our upcoming review of TSA's checkpoint R&D program.
TSA Is Focusing Its Checked Baggage Strategic Planning Efforts on 
        Deployment of In-line EDS Systems, but Faces Challenges in 
        Funding These Systems on a Large-Scale Basis
    TSA has made substantial progress in installing EDS and ETD systems 
at the Nation's airports--mainly as part of interim lobby screening 
solutions--to provide the capability to screen all checked baggage for 
explosives, as mandated by Congress. Although TSA made progress in 
fielding EDS and ETD equipment at the Nation's airports, TSA placed 
this equipment in a stand-alone mode--usually in airport lobbies--to 
conduct the primary screening of checked baggage for explosives, rather 
than integrating EDS machines in-line with airports' baggage conveyor 
systems. TSA officials stated that they employed these interim 
solutions because of the significant costs required to install in-line 
systems and the need to reconfigure many airports' baggage conveyor 
systems to accommodate the equipment. These interim screening solutions 
led to operational inefficiencies, including requiring a greater number 
of screeners and screening fewer bags for explosives each hour, as 
compared with using EDS machines in-line with baggage conveyor systems. 
Performing primary screening using ETD machines, as is the case for 
more than 300 airports, is more labor intensive and less efficient than 
screening using the EDS process. TSA's placement of stand-alone EDS and 
ETD machines in airport lobbies also resulted in passenger crowding, 
which presented unsafe conditions and may have added security risks for 
passengers and airport workers. In May 2004, TSA conducted a 
retrospective cost-benefit analysis on nine airports with agreements to 
install in-line screening systems and found that significant savings 
and other benefits, including reduced screener staffing requirements 
and increased baggage throughput, may be achieved through the 
installation of in-line systems. TSA estimated that in-line baggage 
screening systems at these nine airports would save the Federal 
Government about $1 billion over 7 years,\26\ compared with stand-alone 
EDS systems, and that initial investment would be recovered in a little 
over 1 year.\27\ TSA's analysis also showed that a cost savings may not 
be achieved for all airports. According to TSA's data, Federal cost 
savings varied from about $50 million to over $250 million at eight of 
the nine airports, while at one airport, there was an estimated $90 
million loss.\28\
    With the objective of initially fielding this equipment largely 
accomplished, TSA is shifting its focus from equipping airports with 
interim screening solutions to systematically planning for the more 
optimal deployment of checked baggage screening systems, although 
identifying the resources to fund the systems on a large-scale basis 
continues to be a challenge. To assist TSA in planning for the optimal 
deployment of checked baggage screening systems, we recommended in our 
March 2005 report that TSA systematically evaluate baggage screening 
needs at airports, including the costs and benefits of installing in-
line baggage screening systems--explosive detection systems integrated 
in-line with airport baggage conveyor systems--at airports that do not 
yet have in-line systems installed. We suggested that part of such 
planning should include analyzing which airports should receive Federal 
support for in-line EDS baggage screening systems based on cost savings 
that could be achieved from more effective and efficient baggage 
screening operations and on other factors, including enhanced security. 
Also, for airports where in-line systems may not be economically 
justified because of high investment costs, we suggested that a cost- 
effectiveness analysis be used to determine the benefits of additional 
stand-alone EDS machines to screen checked baggage in place of the more 
labor-intensive ETD machines. We also recommended that TSA consider the 
costs and benefits of the new technologies being developed through its 
research and development efforts, which could provide smaller EDS 
machines that have the potential to reduce the costs associated with 
installing in-line EDS baggage screening systems or to replace ETD 
machines currently used as the primary method for screening at over 300 
airports nationwide. DHS agreed with our recommendations and stated 
that TSA had initiated an analysis of deploying in-line EDS machines 
and was in the process of formulating criteria to identify those 
airports that would benefit from an in-line EDS system. DHS also stated 
that TSA had begun conducting an analysis of the airports that rely 
heavily on ETD machines as the primary checked baggage screening 
technology to identify those airports that would benefit from 
augmenting ETDs with stand-alone EDS equipment.
    On February 8, 2006, TSA issued a report to Congress outlining a 
framework for a strategic plan for its TSA Checked Baggage Screening 
Program. TSA plans to finalize the plan, including funding and cost-
sharing strategies for in-line baggage screening systems, in Spring 
2006. The framework introduces a strategy intended to increase security 
through deploying EDS to as many airports as practicable, lower life-
cycle costs for the program, minimize impacts to TSA and airport/
airline operations, and provide a flexible security infrastructure for 
accommodating growing airline traffic and potential new threats. The 
framework addresses the following issues:

  <bullet> Optimized checked baggage screening solutions--finding the 
        ideal mix of higher-performance and lower-cost alternative 
        screening solutions.

  <bullet> Funding prioritization schedule by airport--which airports 
        should receive funding for an in-line baggage screening system 
        based on quantitative modeling of security, economic, and other 
        factors.

  <bullet> Deployment strategy--a plan for the acquisition of next-
        generation EDS systems, the redeployment of existing EDS 
        assets, and investment in life-cycle extension programs.

  <bullet> EDS Life-Cycle Management Plan--structured guidelines for 
        EDS R&D investment, procurement specifications for next-
        generation EDS systems, and the redeployment of existing EDS 
        assets and investment in life-cycle extension programs that 
        minimize the cost of ownership of the EDS systems.

  <bullet> Stakeholder collaboration plan--TSA plans to work closely 
        with airport operators and other key stakeholders to develop 
        airport-specific screening solutions, refine the nationwide EDS 
        deployment strategy, and investigate alternative funding 
        programs that may allow for innovative as well as non-federal 
        sources of funding or financing, including formulas for sharing 
        costs between different government entities and the private 
        sector. This strategic framework is a positive step forward in 
        systematically planning for TSA's checked baggage screening 
        program. The completion of a strategic plan for this program 
        should help TSA ensure that it is efficiently allocating its 
        limited resources to maximize the effectiveness of its checked 
        baggage screening operations. However, it will be important for 
        TSA to complete their analysis and plans for the funding of in-
        line EDS systems, which has been the primary obstacle to the 
        deployment of these systems over the past few years.

TSA Has Strengthened Its Efforts to Measure the Effectiveness of 
        Screening Systems
    TSA has strengthened its efforts to measure the performance of the 
various components of the passenger and checked baggage screening 
systems--people, processes, and technology--but results of covert 
testing identified that weaknesses and vulnerabilities continue to 
exist. In November 2003, we reported on the need for TSA to strengthen 
its efforts to measure the performance of its aviation security 
system.\29\ At that time, TSA had collected limited data on the 
effectiveness of its aviation security programs and initiatives. 
Specifically, limited covert testing had been performed, the Threat 
Image Projection (TIP) system \30\ was not fully operational at 
passenger screening checkpoints and was not available for checked 
baggage screening systems, and TSA had not fully implemented a 
congressionally mandated annual screener proficiency review (referred 
to as the recertification program). Since then, TSA has implemented and 
strengthened efforts to collect performance data in these areas.
    In the area of covert testing, TSA headquarters increased the 
amount of passenger and checked baggage screening covert tests it 
performs and recently changed its approach to covert testing to focus 
its resources on catastrophic threats--threats that can take down an 
airplane or blow up an airplane. These tests, in which undercover OI 
inspectors attempt to pass threat objects through passenger screening 
checkpoints and in checked baggage, are designed to measure 
vulnerabilities in passenger and checked baggage screening systems and 
to identify systematic problems affecting performance of TSOs in the 
areas of people (training), processes (procedures), and technology. OI 
began conducting covert testing in September 2002, conducting test 
scenarios for the passenger checkpoint and for checked baggage. These 
scenarios were carried over from tests developed and conducted under 
FAA, but OI reported using more updated weapons than those used by FAA 
and more robust tests. TSA considers its covert testing as a snapshot 
of a TSO's ability to detect threat objects at a particular point in 
time, as one of several indicators of systemwide screener performance, 
and as an important mechanism for identifying areas in passenger and 
checked baggage screening needing improvement.
    In September 2003, we reported that OI had conducted limited covert 
testing, but planned to double the amount of tests it conducted during 
Fiscal Year 2004, based on an anticipated increase in its staff from 
about 100 full-time equivalents to about 200 full-time equivalents.\31\ 
TSA officials stated that based on budget constraints, OI's Fiscal Year 
2004 staffing authorization was limited to 183 full-time-
equivalents.\32\ Despite a smaller than expected staff increase, by the 
end of the second quarter of Fiscal Year 2004, OI had already surpassed 
the number of tests it had performed during Fiscal Year 2003--
conducting a total of 836 tests in Fiscal Year 2003 and 1,233 in the 
first two quarters of Fiscal Year 2004.\33\
    Our analysis of TSA's covert testing results for tests conducted 
between September 2002 and September 2005 identified that overall, 
weaknesses existed in the ability of screeners to detect threat objects 
on passengers, in their carry-on bags, and in checked baggage. Covert 
testing results in this analysis cannot be generalized either to the 
airports where the tests were conducted or to airports nationwide.\34\
    During the first 3 years of covert testing, OI decided to maintain 
the same test scenarios and same level of difficulty so that test 
results would be comparable over time.\35\ In July 2005, OI began 
revamping its covert testing program based on the results of the 
Secretary of DHS's Second Stage Review--a review of the department's 
programs, policies, operations, and structure.\36\ Specifically, the 
Assistant Secretary of DHS, TSA, instructed OI to implement a more 
risk-based approach and focus its resources on catastrophic threats--
threats that can take down an airplane or blow up an airplane. In 
August 2005, the Assistant Secretary of DHS, TSA, further instructed OI 
to discontinue its former covert testing program and implement the 
revamped covert testing program. OI began implementation of its 
revamped testing in September 2005. OI conducted 117 tests over a 1-
week period at one airport focusing on catastrophic threats and 
incorporated additional testing elements that had not previously been 
included. According to OI officials, this testing involved over 50 
personnel from various TSA components. Since then, OI has conducted 
tests at three additional airports.\37\ OI officials stated that TSA 
leadership is considering these initial tests in making final 
determinations regarding the revised testing program that OI will 
implement, and that final decisions regarding the structure, content, 
and frequency of these tests have not yet been made.
    In February 2004, TSA provided protocols to help FSDs conduct their 
own covert testing of local airport passenger screening activities--a 
practice that TSA had previously prohibited.\38\ Between May 2004 and 
April 2005, FSDs conducted a total of 17,954 local covert tests at 350 
airports; as of February 2006, TSA reported that FSDs had conducted a 
total of 48,826 local covert tests. In February 2005, TSA released a 
general procedures document for local covert testing at checked baggage 
screening locations. Between March 2005 and September 2005, 1,370 local 
tests of EDS screening were conducted at 71 airports. TSA headquarters 
officials stated that a key challenge FSDs face in conducting local 
testing is the lack of available Federal staff to conduct the testing, 
particularly at smaller airports. In May 2005, we reported that TSA 
officials stated that they had not yet begun to use data from local 
covert testing to identify training and performance needs because of 
difficulties in ensuring that local covert testing is implemented 
consistently nationwide.\39\ TSA officials stated in March 2006 that 
data is available for use by FSDs to identify training needs and TSO 
performance.
    Covert testing is one method TSA uses to measure the security 
effectiveness of passenger and checked baggage screening procedures and 
technologies in the operating environment in addition to other TSA 
measures that assess the performance of passenger and checked baggage 
TSOs. One other source of information on TSO performance in detecting 
threat objects is the results from the TIP system. TIP is designed to 
test passenger screeners' detection capabilities by projecting threat 
images, including images of guns, knives, and explosives, onto bags as 
they are screened during actual operations. TSOs are responsible for 
identifying the threat image and calling for the bag to be searched. 
Once prompted, TIP identifies to the screener whether the threat is 
real and then records the TSO's performance in a data base that could 
be analyzed for performance trends.\40\ TIP threat detection results in 
conjunction with OI covert test results and local testing are intended 
to assist TSA in identifying specific training and performance 
improvement efforts.
    In May 2005, we reported that in October 2003 TSA reactivated TIP 
as planned with an expanded library of 2,400 images at all but 1 of the 
more than 1,800 checkpoint lanes nationwide. In December 2005, TSA 
reported that it has further expanded the image library to include 
additional images of IEDs and IED components as part of its effort to 
improve TSOs' detection of explosives. Additionally, the President's 
Fiscal Year 2007 budget request states that TSA plans to maximize the 
training benefits of the TIP system by tailoring TIP sessions to 
address individual TSO weaknesses revealed in user performance data. 
For example, if a TSO has particular difficulty identifying IEDs, the 
TIP would trigger the projection of a higher proportion of simulated 
IEDs while that TSO was operating the machine than under standard 
circumstances. While there have been improvements in TIP for passenger 
screening, TIP is not yet available for checked baggage screening. In 
April 2004, we reported that TSA officials stated that they were 
working to resolve technical challenges associated with using TIP for 
checked baggage screening on EDS machines and have started EDS TIP 
image development.\41\ However, in December 2004, TSA officials stated 
that because of severe budget reductions, TSA will be unable to begin 
implementing a TIP program for checked baggage in Fiscal Year 2005. 
Officials did not specify when such a program might begin.
    Another measure of TSO performance is the results of annual 
recertification testing. ATSA requires that each TSO receive an annual 
proficiency review to ensure he or she continues to meet all 
qualifications and standards required to perform the screening 
function. To meet this requirement, TSA established a recertification 
program. The first recertification program--which was conducted during 
the period October 2003 through March 2004--was composed of two 
assessment components, one of TSOs' performance and the other of TSOs' 
knowledge and skills. During the performance assessment component of 
the recertification program, TSOs are rated on both organizational and 
individual goals, such as maintaining the Nation's air security, 
vigilantly carrying out duties with utmost attention to tasks that will 
prevent security threats, and demonstrating the highest levels of 
courtesy to travelers to maximize their levels of satisfaction with 
screening services. The knowledge and skills assessment component 
consists of three modules: (1) knowledge of standard operating 
procedures, (2) image recognition, and (3) practical demonstration of 
skills.
    Across all airports, TSOs performed well on the recertification 
testing for the first 2 years the program was in place, with about 1 
percent of TSOs subject to recertification failing to complete this 
requirement. In both years, TSOs faced the greatest difficulty on their 
first attempt to pass the practical demonstration of skills module--a 
hands-on simulated work sample used to evaluate a screener's knowledge, 
skill, and ability when performing specific screener tasks along with 
the ability to provide customer service.\42\ According to TSA 
officials, at the completion of recertification at an airport, TSA 
management has access to reports at both the individual TSO and airport 
level, which identify the specific areas that were missed during 
testing. National level reports are also available that isolate areas 
that need improvement and can be targeted in basic and recurrent 
training. In Fiscal Year 2004, TSA established a performance measure 
for the recertification program.\43\
    During the first year of recertification testing, dual-function 
TSOs who were actively working as both passenger and checked baggage 
TSOs were required to take only the recertification test for passenger 
TSOs. They were therefore not required to take the recertification 
testing modules required for checked baggage, even though they worked 
in that capacity.\44\ TSA's second annual recertification testing, 
which began in October 2004, included components for dual-function 
TSOs, but did not include an image recognition module for checked 
baggage TSOs--which would include dual-function screeners performing 
checked baggage screening. TSA officials stated that a decision was 
made to not include an image recognition module for checked baggage 
TSOs during this cycle because not all checked baggage TSOs would have 
completed training on the onscreen resolution protocol by the time 
recertification testing was conducted at their airports.\45\ In October 
2005, TSA released guidance for screener recertification that included 
an image recognition module for checked baggage and dual-function 
screeners trained in the onscreen alarm resolution protocol.
    In addition to enhancing its efforts to measure the performance of 
TSOs, TSA also has developed two performance indexes to measure the 
effectiveness of the passenger and checked baggage screening systems. 
These indexes measure overall performance through a composite of 
indicators and are derived by combining specific performance measures 
relating to passenger and checked baggage screening, respectively. 
Specifically, these indexes measure the effectiveness of the screening 
systems through machine probability of detection and covert testing 
results; \46\ efficiency through a calculation of dollars spent per 
passenger or bag screened; and customer satisfaction through a national 
poll, customer surveys, and customer complaints at both airports and 
TSA's national call center. We reported in May 2005 that the screening 
performance indexes developed by TSA can be a useful analysis tool, but 
without targets for each component of the index, TSA will have 
difficulty performing meaningful analyses of the parts that make up the 
index. For example, without performance targets for covert testing, TSA 
will not have identified a desired level of performance related to 
screener detection of threat objects. Performance targets for covert 
testing would enable TSA to focus its improvement efforts on areas 
determined to be most critical, as 100 percent detection capability may 
not be attainable. In January 2005, TSA officials stated that the 
agency planned to track the performance of individual index components 
and establish performance targets against which to measure these 
components.
Concluding Observations
    Since its inception, TSA has achieved significant accomplishments 
in meeting congressional mandates related to establishing passenger and 
checked baggage screening operations. With the initial congressional 
mandates now largely met, TSA has turned its attention to assessing and 
enhancing the efficiency and effectiveness of its passenger and checked 
baggage screening systems. As threats and technology evolve, it is 
vital that TSA continue to enhance training and procedures for the TSO 
workforce. Over the past several years, TSA has strengthened its TSO 
training program in an effort to ensure that TSOs have the knowledge 
and skills needed to successfully perform their screening functions. 
However, without addressing the challenges to delivering ongoing 
training, including installing high-speed connectivity at airport 
training facilities, TSA may have difficulty maintaining a screening 
workforce that possesses the critical skills needed to perform at a 
desired level. TSA is also revising existing screening procedures and 
developing new procedures to enhance security effectiveness, many of 
which are risk-based, as we have previously advocated. Additionally, 
TSA has developed a staffing model intended to provide the necessary 
levels of TSOs to support security activities at the Nation's airports. 
However, given the challenges TSA faces in determining appropriate 
staffing levels at airports--to include hiring the appropriate mix of 
part-time TSOs needed to support screening functions--it is critical 
that TSA carefully consider how it strategically hires, deploys, and 
manages its TSO workforce to help strengthen its passenger and checked 
baggage screening programs.
    As TSA works toward improving the performance of individual TSOs 
and screening operations, it will also be important that the agency 
deploy and leverage screening equipment and technologies, sustain its 
research and development efforts, and strengthen its R&D management and 
planning efforts. We are encouraged that TSA is currently undertaking 
efforts to systematically analyze the cost and benefits of in-line 
baggage screening systems and to identify innovative funding and 
financing options. This planning should help TSA support future funding 
requests by demonstrating enhanced security, improved operational 
efficiencies, and cost savings to both TSA and the affected airports.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other Members of the Committee may 
have at this time.
Related GAO Products
    Aviation Security: Significant Management Challenges May Adversely 
Affect Implementation of the Transportation Security Administration's 
Secure Flight Program. GAO-06-374T. Washington, D.C.: February 9, 2006.
    Aviation Security: Federal Air Marshal Service Could Benefit from 
Improved Planning and Controls, GAO-06-203. Washington, D.C.: November 
28, 2005.
    Aviation Security: Federal Action Needed to Strengthen Domestic Air 
Cargo Security, GAO-06-76. Washington, D.C.: October 17, 2005.
    Transportation Security Administration: More Clarity on the 
Authority of Federal Security Directors Is Needed. GAO-05-935. 
Washington, D.C.: September 23, 2005.
    Aviation Security: Flight and Cabin Crew Member Security Training 
Strengthened, but Better Planning and Internal Controls Needed. GAO-05-
781. Washington, D.C.: September 6, 2005.
    Aviation Security: Transportation Security Administration Did Not 
Fully Disclose Uses of Personal Information During Secure Flight 
Program Testing in Initial Privacy Notes, but Has Recently Taken Steps 
to More Fully Inform the Public. GAO-05-864R. Washington, D.C.: July 
22, 2005.
    Aviation Security: Better Planning Needed to Optimize Deployment of 
Checked Baggage Screening Systems. GAO-05-896T. Washington, D.C.: July 
13, 2005.
    Aviation Security: Screener Training and Performance Measurement 
Strengthened, but More Work Remains. GAO-05-457. Washington, D.C.: May 
2, 2005.
    Aviation Security: Secure Flight Development and Testing Under Way, 
but Risks Should Be Managed as System Is Further Developed. GAO-05-356. 
Washington, D.C.: March 28, 2005.
    Aviation Security: Systematic Planning Needed to Optimize the 
Deployment of Checked Baggage Screening Systems. GAO-05-365. 
Washington, D.C.: March 15, 2005.
    Aviation Security: Measures for Testing the Effect of Using 
Commercial Data for the Secure Flight Program. GAO-05-324. Washington, 
D.C.: February 23, 2005.
    Transportation Security: Systematic Planning Needed to Optimize 
Resources. GAO-05-357T. Washington, D.C.: February 15, 2005.
    Aviation Security: Preliminary Observations on TSA's Progress to 
Allow Airports to Use Private Passenger and Baggage Screening Services. 
GAO-05-126. Washington, D.C.: November 19, 2004.
    General Aviation Security: Increased Federal Oversight Is Needed, 
but Continued Partnership with the Private Sector Is Critical to Long-
Term Success. GAO-05-144. Washington, D.C.: November 10, 2004.
    Aviation Security: Further Steps Needed to Strengthen the Security 
of Commercial Airport Perimeters and Access Controls. GAO-04-728. 
Washington, D.C.: June 4, 2004.
    Transportation Security Administration: High-Level Attention Needed 
to Strengthen Acquisition Function. GAO-04-544. Washington, D.C.: May 
28, 2004.
    Aviation Security: Challenges in Using Biometric Technologies. GAO-
04-785T. Washington, D.C.: May 19, 2004.
    Nonproliferation: Further Improvements Needed in U.S. Efforts to 
Counter Threats from Man-Portable Air Defense Systems. GAO-04-519. 
Washington, D.C.: May 13, 2004.
    Aviation Security: Private Screening Contractors Have Little 
Flexibility to Implement Innovative Approaches. GAO-04-505T. 
Washington, D.C.: April 22, 2004.
    Aviation Security: Improvement Still Needed in Federal Aviation 
Security Efforts. GAO-04-592T. Washington, D.C.: March 30, 2004.
    Aviation Security: Challenges Delay Implementation of Computer-
Assisted Passenger Prescreening System. GAO-04-504T. Washington, D.C.: 
March 17, 2004.
    Aviation Security: Factors Could Limit the Effectiveness of the 
Transportation Security Administration's Efforts to Secure Aerial 
Advertising Operations. GAO-04-499R. Washington, D.C.: March 5, 2004.
    Aviation Security: Computer-Assisted Passenger Prescreening System 
Faces Significant Implementation Challenges. GAO-04-385. Washington, 
D.C.: February 13, 2004.
    Aviation Security: Challenges Exist in Stabilizing and Enhancing 
Passenger and Baggage Screening Operations. GAO-04-440T. Washington, 
D.C.: February 12, 2004.
    The Department of Homeland Security Needs to Fully Adopt a 
Knowledge-based Approach to Its Counter-MANPADS Development Program. 
GAO-04-341R. Washington, D.C.: January 30, 2004.
    Aviation Security: Efforts to Measure Effectiveness and Strengthen 
Security Programs. GAO-04-285T. Washington, D.C.: November 20, 2003.
    Aviation Security: Federal Air Marshal Service Is Addressing 
Challenges of Its Expanded Mission and Workforce, but Additional 
Actions Needed. GAO-04-242. Washington, D.C.: November 19, 2003.
    Aviation Security: Efforts to Measure Effectiveness and Address 
Challenges. GAO-04-232T. Washington, D.C.: November 5, 2003.
    Airport Passenger Screening: Preliminary Observations on Progress 
Made and Challenges Remaining. GAO-03-1173. Washington, D.C.: September 
24, 2003.
    Aviation Security: Progress Since September 11, 2001, and the 
Challenges Ahead. GAO-03-1150T. Washington, D.C.: September 9, 2003.
    Transportation Security: Federal Action Needed to Enhance Security 
Efforts. GAO-03-1154T. Washington, D.C.: September 9, 2003.
    Transportation Security: Federal Action Needed to Help Address 
Security Challenges. GAO-03-843. Washington, D.C.: June 30, 2003.
    Federal Aviation Administration: Reauthorization Provides 
Opportunities to Address Key Agency Challenges. GAO-03-653T. 
Washington, D.C.: April 10, 2003.
    Transportation Security: Post-September 11th Initiatives and Long-
Term Challenges. GAO-03-616T. Washington, D.C.: April 1, 2003.
    Airport Finance: Past Funding Levels May Not Be Sufficient to Cover 
Airports' Planned Capital Development. GAO-03-497T. Washington, D.C.: 
February 25, 2003.
    Transportation Security Administration: Actions and Plans to Build 
a Results-Oriented Culture. GAO-03-190. Washington, D.C.: January 17, 
2003.
    Aviation Safety: Undeclared Air Shipments of Dangerous Goods and 
DOT's Enforcement Approach. GAO-03-22. Washington, D.C.: January 10, 
2003.
    Aviation Security: Vulnerabilities and Potential Improvements for 
the Air Cargo System. GAO-03-344. Washington, D.C.: December 20, 2002.
    Aviation Security: Registered Traveler Program Policy and 
Implementation Issues. GAO-03-253. Washington, D.C.: November 22, 2002.
    Airport Finance: Using Airport Grant Funds for Security Projects 
Has Affected Some Development Projects. GAO-03-27. Washington, D.C.: 
October 15, 2002.
    Commercial Aviation: Financial Condition and Industry Responses 
Affect Competition. GAO-03-171T. Washington, D.C.: October 2, 2002.
    Aviation Security: Transportation Security Administration Faces 
Immediate and Long-Term Challenges. GAO-02-971T. Washington, D.C.: July 
25, 2002.
    Aviation Security: Information Concerning the Arming of Commercial 
Pilots. GAO-02-822R. Washington, D.C.: June 28, 2002.
    Aviation Security: Vulnerabilities in, and Alternatives for, 
Preboard Screening Security Operations. GAO-01-1171T. Washington, D.C.: 
September 25, 2001.
    Aviation Security: Weaknesses in Airport Security and Options for 
Assigning Screening Responsibilities. GAO-01-1165T. Washington, D.C.: 
September 21, 2001.
    Homeland Security: A Framework for Addressing the Nation's Efforts. 
GAO-01-1158T. Washington, D.C.: September 21, 2001.
    Aviation Security: Terrorist Acts Demonstrate Urgent Need to 
Improve Security at the Nation's Airports. GAO-01-1162T. Washington, 
D.C.: September 20, 2001.
    Aviation Security: Terrorist Acts Illustrate Severe Weaknesses in 
Aviation Security. GAO-01-1166T. Washington, D.C.: September 20, 2001.
ENDNOTES
    \1\ ATSA created TSA as an agency within the Department of 
Transportation (DOT) with responsibility for securing all modes of 
transportation, including aviation. Pub. L. No. 107-71, Sec. 101, 115 
Stat. 597 (2001). The Homeland Security Act of 2002, signed into law on 
November 25, 2002, transferred TSA from the DOT to the new Department 
of Homeland Security Pub. L. No. 107-296, Sec. 403, 116 Stat. 2135, 
2178.
    \2\ TSA defines an operational screening test as any covert test of 
a screener conducted by TSA, on any screening function, to assess the 
screener's threat item detection ability or adherence to TSA-approved 
procedures.
    \3\ Pursuant to the Homeland Security Act, the deadline for 
screening all checked baggage using explosive detection systems was, in 
effect, extended until December 31, 2003.
    \4\ Sterile areas are areas located within the terminal where 
passengers wait after screening to board departing aircraft. Access to 
these areas is generally controlled by TSA screeners at checkpoints 
where they conduct physical screening of passengers and their carry-on 
baggage for weapons and explosives.
    \5\ TSOs must deny passage beyond the screening location to any 
individual or property that has not been screened or inspected in 
accordance with passenger screening standard operating procedures. If 
an individual refuses to permit inspection of any item, that item must 
not be allowed into the sterile area or aboard an aircraft.
    \6\ Explosive detection systems use probing radiation to examine 
objects inside baggage and identify the characteristic signatures of 
threat explosives. EDS equipment operates in an automated mode.
    \7\ Explosive trace detection works by detecting vapors and 
residues of explosives. Human operators collect samples by rubbing bags 
with swabs, which are chemically analyzed to identify any traces of 
explosive materials.
    \8\ Positive passenger bag match is an alternative method of 
screening checked baggage that requires that the passenger be on the 
same aircraft as the checked baggage.
    \9\ ATSA required that TSA begin allowing all commercial airports 
to apply to TSA to transition from a Federal to a private TSO 
workforce. To support this effort, TSA created the Screening 
Partnership Program to allow all commercial airports an opportunity to 
apply to TSA for permission to use qualified private screening 
contractors and private sector screeners. Currently, private screening 
companies provide passenger and checked baggage screening at six 
airports.
    \10\ Department of Homeland Security Appropriations Act, 2006, Pub. 
L. No. 109-90, 119 Stat. 2064 (2005); H.R. Conf. Rep. No. 109-241, at 
49-50 (2005).
    \11\ GAO, Aviation Security: Challenges Exist in Stabilizing and 
Enhancing Passenger and Baggage Screening Operations, GAO-04-440T 
(Washington, D.C.: Feb. 12, 2004).
    \12\ Intelligence Reform and Terrorism Prevention Act of 2004, Pub. 
L. No. 108-458, Sec. 4023, 118 Stat 3638, 3723-24.
    \13\ One full-time-equivalent is equal to one work year or 2,080 
non-overtime hours.
    \14\ This budgetary FTE limit is not to be confused with the 45,000 
FTE screener cap imposed by Congress in the FY 2006 DHS Appropriations 
Act that limits the total number of FTE screeners available to TSA.
    \15\ We interviewed FSD staff at 3 category X airports, one 
category I airports, and one category III airport. TSA classifies the 
commercial airports in the United States into one of six security risk 
categories (X, I, II, III, IV, and V) based on various factors, such as 
the total number of takeoffs and landings annually, and other special 
security considerations. In general, category X airports have the 
largest number of passenger boardings, and category IV airports have 
the smallest.
    \16\ GAO-04-440T.
    \17\ GAO, Airport Passenger Screening: Preliminary Observations on 
Progress Made and Challenges Remaining, GAO-03-1173 (Washington, D.C.: 
Sept. 24, 2003).
    \18\ Some recommendations appear repeatedly in multiple reports 
issued by OIAPR.
    \19\ GAO, Aviation Security: Screener Training and Performance 
Measurement Strengthened but More Work Remains, GAO-05-457 (Washington 
D.C.: May 2, 2005).
    \20\ According to the budget request, the remaining $36 million is 
needed to support operations and maintenance costs, including recurring 
costs for routers, switches, circuits, cabinets, racks, and network 
monitoring.
    \21\ In April 2005, TSA began documenting proposed changes to 
passenger checkpoint screening procedures.
    \22\ TSA does not review proposed SOP changes on a regular basis. 
Rather, the administration accumulates proposed changes and reviews 
them periodically on an as-needed basis. Since TSA began documenting 
proposed changes to checkpoint screening procedures, the agency has 
conducted three reviews of proposed changes, which took place in April 
2005, August 2005, and September 2005.
    \23\ TSA attributed nine proposed changes to senior leadership 
direction, and TSA did not categorize five proposed changes from 2005.
    \24\ Office of Inspections recommended two additional changes to 
checkpoint screening procedures prior to March 2005.
    \25\ A selectee is a person identified for additional screening by 
a computer-assisted passenger screening system or another process as 
determined and approved by TSA.
    \26\ This figure refers to the net present value saved over 7 years 
if received up front.
    \27\ For a basis of comparison, Office of Management and Budget 
Circular A-94 stipulates using a 7 percent real discount rate to 
compute the present value of cost savings. TSA used a 4 percent real 
discount rate. Following Office of Management and Budget guidance, cost 
savings are $1.14 billion. In addition, in TSA's analysis, the Federal 
Government does not pay for $319 million, or 25 percent, of project 
costs. Accounting for these costs to reflect total costs, as 
recommended by Circular A-94, lowers overall savings to $820 million.
    \28\ The relatively large costs for upfront in-line EDS at one 
airport are not offset by the modest amount of estimated operation and 
maintenance cost savings; therefore, the in-line EDS system may be more 
costly than EDS stand-alone. By contrast, at another airport the 
upfront costs of in-line EDS are lower than for stand-alone EDS, and 
there is a substantial amount of estimated operation and maintenance 
cost savings. Therefore, the in-line EDS system for this latter airport 
may be less costly than stand-alone EDS.
    \29\ GAO, Aviation Security: Efforts to Measure Effectiveness and 
Address Challenges, GAO-04-232T, (Washington, D.C.: Nov. 5, 2003).
    \30\ The Threat Image Projection system is designed to test TSOs' 
detection capabilities by projecting threat images, including images of 
guns and explosives, into bags as they are screened. TSOs are 
responsible for positively identifying the threat image and calling for 
the bag to be searched.
    \31\ GAO-03-1173.
    \32\ Covert testing is an ancillary duty and not a full-time 
assignment for the majority of OI staff. According to OI, 14 full-time-
equivalent positions in headquarters are dedicated fully to the covert 
testing program, which includes covert testing of all modes of 
transportation, not just airports. These 14 full-time-equivalents are 
in a special group that forms the core of team leaders for the covert 
testing trips.
    \33\ OI conducted a total of 2,369 passenger and checked baggage 
covert tests in Fiscal Year 2004.
    \34\ Test results cannot be generalized because sample tests were 
not identified using the principles of probability sampling. In a 
probability sample to assess screener detection of threat objects, each 
screening of a passenger or baggage would have to have a chance of 
being selected. A well-designed probability sample would enable failure 
rates to be generalized to all airports. However, for cost and 
operational reasons, probability sampling may not be feasible for 
passenger and checked baggage screening because it would require a very 
large sample size and an exhaustive examination of each sampled 
passenger or baggage to determine if there was a threat object to 
detect.
    \35\ In August 2004, OI began piloting various enhanced covert test 
scenarios based on more current threat information.
    \36\ The review examined elements of the Department of Homeland 
Security in order to recommend ways that DHS could better manage risk 
in terms of threat, vulnerability, and consequence; prioritize policies 
and operational missions according to this risk-based approach; and 
establish a series of preventive and protective steps that would 
increase security at multiple levels.
    \37\ OI conducted testing at two of the three airports twice during 
September 2005 through December 2005.
    \38\ The local covert testing protocols were updated in June 2004 
and August 2004 to provide information on alternative testing methods.
    \39\ GAO-05-457.
    \40\ The TIP data base records both the TIP hit rate and TIP false 
alarm rate. These two results are used to determine the probability of 
detection and probability of false alarm, which determine overall TIP 
performance. The TIP performance measure is classified as sensitive 
security information.
    \41\ GAO, Aviation Security: Private Screening Contractors Have 
Little Flexibility to Implement Innovative Approaches, GAO-04-505T 
(Washington, D.C.: April 22, 2004).
    \42\ We cannot report on the specific results of the testing due to 
the security classification of this testing.
    \43\ Information related to the measures is sensitive security 
information.
    \44\ As of January 7, 2005, TSA reported that its workforce 
included approximately 25,947 dual-trained TSOs who were certified to 
serve as passenger or baggage TSOs.
    \45\ TSA's onscreen resolution protocol requires that when an EDS 
machine alarm goes off, indicating the possibility of explosives, TSA 
screeners, by reviewing computer-generated images of the inside of the 
bag, attempt to determine whether or not a suspect item or items are in 
fact explosive materials. If the screener is unable to make this 
determination, the bag is diverted from the main conveyor belt into an 
area where it receives a secondary screening by a screener with an ETD 
machine.
    \46\ According to TSA, the machine probabilities of detection are 
established by the certification standards for each particular model of 
machine, and machines are not deployed unless they have met those 
standards.

    The Chairman. Thank you very much. Our next witness is Mr. 
Gregory Principato, President of the Airports Council 
International. Mr. Principato?

        STATEMENT OF GREGORY O. PRINCIPATO, PRESIDENT, 
  AIRPORTS COUNCIL INTERNATIONAL--NORTH AMERICA (ACI-NA); ON 
BEHALF OF THE AMERICAN ASSOCIATION OF AIRPORT EXECUTIVES (AAAE)

    Mr. Principato. Thank you, Senator Stevens, Senator Ensign 
for the opportunity today to share the views of the airport 
community on aviation passenger and baggage screening. As you 
said, I'm Greg Principato, President of Airports Council 
International--North America.
    I'm testifying today on behalf of ACI-North America, the 
American Association of Airport Executives, and our joint 
legislative organization, the Airport Legislative Alliance. 
ACI-North America represents local, state, and regional 
governing bodies that own and operate commercial airports 
throughout the United States and Canada. AAAE represents the 
men and women who manage primary, commercial service, reliever 
and general aviation airports.
    Passengers have returned to our skies in record numbers. 
The increasing numbers of passengers, combined with today's 
labor-intensive screening system, have pushed the TSA's 
passenger and baggage screening capabilities to the limit. This 
has resulted in ever-increasing wait times at passenger 
screening checkpoints and growing problems with checked baggage 
screening. Without dramatic changes to today's aviation 
security model, we will not be able to meet the demands created 
by the nearly 300 million additional passengers who will be 
added to our crowded aviation system within the next decade. 
That's the combined population of the United States and Canada 
that we're going to add to our system in the next decade.
    The airport community, backed by a recommendation of the 9/
11 Commission, believes that TSA can enhance aviation security 
by the permanent installation of in line explosive detection 
equipment at airports. We need to move oversized, bulky 
explosive detection equipment, referred to as EDS, out of 
passenger terminal lobbies and relocate them where we can 
facilitate in-line solutions. This will improve security 
screening operations and increase public safety and security.
    In-line systems can also improve efficiency and reduce 
TSA's personnel costs. Ms. Berrick has already alluded to some 
of that. At the Lexington/Bluegrass Airport in Kentucky, for 
example, a $3.5 million investment to modify the terminal for 
an in-line baggage system has resulted in annual personnel 
savings of more than $3 million. I believe in my prepared 
testimony, I talked about San Francisco and the tens of 
millions of dollars that have been saved annually there.
    TSA has been able to use four screeners for the in-line 
system in Lexington per shift, rather than the 30 that would 
have been necessary to screen checked bags using explosive 
trace detection machines. In addition, the in-line EDS option 
in Lexington allows for reduced congestion in terminal areas. 
Unfortunately, the Fiscal Year 2007 budget calls for only $344 
million for EDS installation. While this is an increase of $49 
million over last year's inactive level, it falls far short of 
the billions that are necessary to fully integrate EDS machines 
in-line with baggage systems at airports where such a solution 
makes sense.
    It's now four and a half years since September 11, 2001 and 
the Federal Government does not yet have a long term EDS 
solution for airports. Only nine airports have received funds 
for in-line EDS installation from the TSA's Letter of Intent 
Program in which the Federal Government reimburses an airport 
for project costs. A few others have received funding from TSA 
via the other transactions agreement program. Despite the 
success of the Letter of Intent Program, the Administration has 
stated that it will not issue new ones. This matter cannot go 
unaddressed another year. We must move beyond our current, 
labor-intensive screening system and adopt a more efficient 
means of using technology and personnel.
    In addition to moving EDS equipment in-line, the airport 
community believes that a registered traveler program can help 
the TSA use its checkpoint screeners more effectively. This 
could help expedite the screening process for all travelers and 
allow screeners to focus more intensely on unknown and 
potential threats. It is our hope that TSA will meet the 
deadlines the agency has announced to have an effective 
registered traveler program operational later this year.
    In the mean time, and considering EDS technologies will not 
be made available immediately, Congress and TSA should take 
steps to improve passenger and baggage screening in the short 
term. These options might include: expansion of the Screening 
Partnership Program, also known as opt-out, so that it becomes 
a real alternative for airports; providing Federal security 
directors more autonomy to work with airports to address unique 
local situations relative to screening; adoption of screening 
performance standards so that TSA can more effectively manage 
limited resources, and keeping TSA focused on its mission of 
passenger and baggage screening while avoiding mission creep 
and, I'd say, including the continued staffing of exit lanes.
    To conclude, I'd like to thank you Chairman Stevens, Co-
Chairman Inouye, and the other members of the Committee for the 
opportunity to appear before you today. We have great 
challenges facing the aviation industry and airports stand 
ready to be a partner in meeting those challenges. We believe 
that by providing TSA with the long and short term solutions it 
needs, limited Federal resources can be leveraged to produce 
enhanced security and better results for America's taxpayer and 
traveling public. We look forward to working with you and TSA 
to ensure that our Nation's aviation system is the most secure 
and efficient in the world. Thank you very much.
    [The prepared statement of Mr. Principato follows:]

   Prepared Statement of Gregory O. Principato, President, Airports 
Council International-North America (ACI-NA); on behalf of the American 

                Association of Airport Executives (AAAE)
    Thank you for the opportunity to share with the Committee the views 
of the airport community on aviation passenger and baggage screening. I 
am Greg Principato, President of Airports Council International-North 
America (ACI-NA). I am testifying today on behalf of ACI-NA, the 
American Association of Airport Executives (AAAE), and our Airport 
Legislative Alliance, a joint legislative advocacy organization. ACI-NA 
represents local, regional and state governing bodies that own and 
operate commercial airports in the United States and Canada. AAAE 
represents the men and women who manage primary, commercial service, 
reliever, and general aviation airports.
    I want to thank you Chairman Stevens and Co-Chairman Inouye, for 
holding this series of hearings on the responsibilities, operations and 
priorities of the Transportation Security Administration (TSA) in 
aviation passenger and baggage screening.
    Since the TSA's creation, airports have striven to be an active 
partner with the TSA in meeting its mandates and its mission. We look 
forward to continuing our work with the TSA and with this Committee to 
ensure we have the highest level of security as well as high levels of 
customer service for the traveling public.
    As the members of this committee are well aware, passengers have 
returned to our Nation's skies in record numbers. The increased volume 
combined with problems inherent in today's labor intensive screening 
system have pushed the TSA's passenger and baggage screening 
capabilities to the limit as evidenced by ever increasing wait times at 
passenger screening checkpoints and by growing problems with checked 
baggage screening. Without dramatic changes to the aviation security 
model in use today, we will not be able to meet the demands created by 
the nearly 300 million passengers who will be added to today's already 
crowded aviation system within the next decade.
Technological Improvements Needed To Move Beyond Labor Intensive 
        Screening System
    Airports maintain that one of the most important ways to improve 
passenger and baggage screening is to move oversized, bulky explosive 
detection equipment out of public circulation areas in passenger 
terminal lobbies to restore capacity in existing terminal facilities 
and to increase public safety and security. To the extent the Federal 
Government invests in in-line baggage-screening equipment, TSA's 
operating costs will be reduced and airlines will see improved baggage 
services for their passengers through reduced lost and mishandled 
luggage.
    In order to meet congressional deadlines to screen all checked 
baggage placed aboard commercial aircraft, TSA quickly placed thousands 
of explosive detection system (EDS) and explosive trace detection (ETD) 
machines in airports across the country. Many of those machines have 
been placed in airport ticketing lobbies without an integrated plan to 
take maximum advantage of their certified throughputs and alarm 
reconciliation capabilities. The result, too often, is crowded airport 
lobbies (a safety and security hazard), major backups at security 
screening checkpoints, and an unnecessarily large number of TSA 
personnel necessary to operate the equipment.
    The airport community, backed by a recommendation of the 9/11 
Commission, continues to believe that TSA can enhance aviation security 
and restore capacity in existing terminal facilities by quickly moving 
forward with the permanent installation of in-line explosive detection 
equipment in airports. ACI-NA would note that the Canadian Air 
Transportation Security Authority (CATSA), working with airport 
operators, has already paid for the installation and is now operating 
in-line baggage screening at all major Canadian airports. 
Unfortunately, the Fiscal Year 2007 TSA budget calls for only $344 
million for EDS installation funding. While this is an increase of $49 
million from the 2006 enacted level, it falls far short of the billions 
of additional dollars that are necessary to fully integrate EDS 
machines in-line with baggage systems at airports where such a solution 
makes sense, and regrettably provides little new money for converting 
existing, inefficient systems.
    To date, only a handful of U.S. airports have received Federal 
funding for in-line systems. Nine airports--Atlanta, Boston, Dallas/
Fort Worth, Denver, Las Vegas, Los Angeles, Ontario, Phoenix, and 
Seattle--have received funds for in-line EDS installation from the 
TSA's Letter of Intent (LOI) program and a few additional airports, 
including Chicago O'Hare and Harrisburg, have received funding from TSA 
via Other Transactional Agreements (OTAs).
    Airports contend that the cost of in-line projects should be met 
entirely by the Federal Government, given its direct responsibility for 
baggage screening established in law, in light of the national security 
imperative for doing so, and because of the economic efficiencies of 
this strategy. Airports have agreed to provide a local match of 10 
percent in the case of large and medium hubs and 5 percent for smaller 
airports. However, the budget request once again includes a provision 
that would reduce the Federal share under any Letter of Intent to 75 
percent at medium or large hub airports and 90 percent at all other 
airports. We strongly oppose proposals to increase the local share 
beyond the levels established in VISION-100.
    Of the $344 million that TSA proposes in the 2007 budget for EDS 
installment, $187 million is slated to fulfill existing LOI 
obligations. While the projects at those airports are necessary and a 
top priority, that leaves just $157 million for the dozens of other 
airports that do not currently have LOIs with the TSA. Although TSA has 
not yet determined the total cost of installing in-line EDS baggage 
screening systems at airports, we estimate that costs could range from 
$2 million for a category III airport to $250 million for a category X 
airport. Nationwide, estimates run anywhere from $3 billion to $5 
billion. That estimate is being revised upward, as construction costs 
have skyrocketed recently. In fact, construction cost inflation is now 
triple the consumer price index.
    Despite these overwhelming needs, the Federal Government does not 
yet have a long-term EDS solution, a full four and a half years after 
9/11. It is readily apparent that incremental installments, even at 
several hundred million dollars a year, will not get projects started 
at additional airports in the foreseeable future. Clearly, more 
resources and new strategies are needed to fund projects at the rest of 
the Nation's airports.
    The TSA's task has not been made any easier by opposition from the 
Office of Management and Budget to issuing additional LOIs to airports 
for these projects. Budget rules that don't recognize the benefit of 
one-time capital improvements to save years of operating costs are both 
``pennywise and pound foolish'' and continue to shortchange vital 
security improvements.
    The Federal Government cannot allow this issue to go unaddressed 
another year. To help find a solution to this persistent problem, 
airports, airlines and other industry stakeholders are collaborating 
with TSA on a baggage screening investment study, expected to be 
completed in the next few months. The study seeks to identify 
innovative funding and financing alternatives for integrated EDS/out of 
lobby solutions for baggage systems. We welcome this study and look 
forward to the results which should provide TSA and airports with 
creative solutions to this problem.
In-Line Systems Enhance Efficiency And Reduce Personnel Costs
    Although in-line systems require up-front capital expenditures, 
they pay for themselves in short-order through major reductions in 
personnel and recouped costs. Last year, the Government Accountability 
Office (GAO) concluded that in-line baggage screening systems at the 
nine airports that have received LOI funds from TSA would save the 
Federal Government $1.3 billion over 7 years compared with EDS systems 
that are not in-line. To support GAO's findings, we have examples at 
the dozen or so airports where EDS systems have been installed to take 
advantage of their full capabilities and, as a result, dramatic savings 
have been achieved.
    The airports that currently have ``in-line'' baggage systems report 
that they have paid for themselves with personnel cost reductions in as 
little as 16 months. The case of the Lexington Blue-Grass Airport in 
Kentucky offers a perfect example. At Lexington, a $3.5 million 
investment to make the terminal modifications necessary to establish an 
in-line baggage system instead of a terminal lobby ETD protocol 
resulted in annual personnel savings of more than $3 million. The TSA 
has been able to use 4 screeners for the in-line system per shift 
rather than the 30 screeners that would have been necessary for the ETD 
configuration. In addition, the in-line EDS option at Lexington allows 
for reduced congestion in terminal areas, a result that has improved 
security and enhanced passenger convenience. TSA can achieve greater 
savings at large airports. Modeling at San Francisco International 
Airport, for example, shows savings of tens of millions of dollars 
annually for their in-line EDS solution.
    In addition, in-line screening has also been shown to reduce the 
rate of TSA screener on-the-job injuries. TSA Administrator Kip Hawley 
testified last month that he expects the agency to spend $57 million on 
workers compensation claims in 2007. By moving equipment in-line, fewer 
personnel would be needed resulting in fewer injuries and less time off 
the job, all of which contribute to savings for the TSA.
Registered Traveler
    As we have discussed in great detail as part of previous testimony 
before the Committee on TSA passenger pre-screening programs, the 
airport community believes a Registered Traveler program can more 
effectively calibrate the resource allocation at airport screening 
checkpoints. Relatively few passengers make up the overwhelming 
majority of all travel, and we should make every effort to provide a 
different screening protocol for this group of travelers. Doing so will 
help expedite the screening process for all travelers and allow 
screeners to focus more intensely on unknown and potential threats. It 
is our hope that TSA will meet the deadlines the agency has announced 
to have an effective Registered Traveler program operational by this 
summer.
Short Term Steps Needed To Improve Screening
    Recognizing that Registered Traveler has yet to be deployed 
nationwide and that EDS technologies will not be available immediately, 
Congress and TSA should consider taking steps to improve passenger and 
baggage screening in the short-term. These options include:

  <bullet> Expansion of the Screening Partnership Program (opt-out) so 
        that it becomes a real alternative for airports.

  <bullet> Providing Federal Security Directors more autonomy to work 
        with airports to address unique local situations relative to 
        screening.

  <bullet> Adoption of screening performance standards so that TSA can 
        more effectively manage limited resources.

  <bullet> Keeping TSA focused on its mission of passenger and baggage 
        screening including the continued staffing of exit lanes.

Making the Screening Partnership Program a Viable Option for Airports
    While there are a number of airports that are not interested in 
participating in the Screening Partnership Program under any 
circumstances, there are others that would like to see the program 
become a viable option. Unfortunately, the role of local airport 
operators in the existing program is minimal. The only real authority 
that an airport operator now has is to raise the issue at the beginning 
of the process and express an interest in having TSA use a private 
contractor. After that, airports have virtually no say in how screening 
operations will be designed. They are not allowed to decide the 
specific qualified screening company that will operate at their 
airport, and they have no role in deciding how screening will 
ultimately function at their facility. Given the existing construct, it 
is not surprising that only a couple of smaller airports have expressed 
an interest in opting out beyond the original five SPP pilot airports.
    In order to make the opt-out program truly viable, the law must be 
changed to give airports additional control over the design and 
implementation of plans for passenger and baggage screening at their 
individual facilities. Airports must be free, should they so choose, to 
select and contract directly with the qualified companies with which 
they intend to work and establish the scope of work rather than wait 
for TSA to make such decisions. TSA should remain responsible for 
establishing standards and providing regulatory oversight, but airports 
should be given the freedom to decide how best to get the job done. We 
believe that TSA is best suited for regulatory functions while airport 
operators and their private sector partners are best suited for 
operational and customer service functions.
    Many of these items obviously require statutory changes. As 
Congress moves forward with its discussion in this area, we would 
encourage you to consider the following:

  <bullet> Airport operators must be given the authority to select and 
        enter into contracts directly with qualified screening 
        companies to screen passengers and property at the airport. 
        Under current law, airports simply apply to participate in the 
        program and then rely on TSA to select qualified vendors. TSA--
        as opposed to airports--enters into contracts with those 
        vendors to perform passenger and baggage screening. Airports 
        must be given a more prominent role in the process and more 
        control in managing the contracts and performance.

  <bullet> Airport operators must be given the ability to perform 
        passenger and baggage screening directly if they so choose. The 
        law must make clear that airport operators should be able to 
        qualify as a qualified screening company.

  <bullet> TSA should establish a notification process under which 
        airports submit a detailed proposal for passenger and baggage 
        screening for approval. Under current law, interested airports 
        apply to participate and the process moves on from there 
        without their involvement. Interested airports should be 
        encouraged to work closely with qualified private sector 
        partners and then submit that plan to TSA for approval.

  <bullet> Adequate funding must be provided to ensure that airports 
        can cover the costs associated with screening and debt service 
        on security-related capital improvements such as in-line EDS 
        projects.

  <bullet> The program should be expanded to allow interested airports 
        to assume responsibility for screening cargo in addition to 
        passengers and baggage screening.

    This is not intended to be a comprehensive and final list, but it 
is included for purposes of moving the discussion forward and to give 
the Committee an idea of some of the specific concerns that a number of 
airport operators have raised as impediments to participation. If some 
of these items were to be resolved, we believe that many airports would 
at minimum give the program a much closer look.
    In addition to encouraging additional local involvement and new and 
creative approaches to screening, an expanded SPP program potentially 
could be utilized to move forward with the in-line installation of EDS 
equipment at participating airports. By providing interested airport 
operators with additional control and a steady and reliable funding 
stream--either by guaranteeing a base level of continued funding to 
support screening operations or by alternative means such as a formula 
that captures key airport characteristics such as passengers and amount 
of baggage screened--some airports might be willing to move forward on 
their own with in-line systems. The concept here is to capture and 
utilize the eventual personnel savings from in-line systems to pay for 
the initial capital investment and debt that a participating airport 
would use to fund that system.
    Again, even if Congress is able to make all of the changes 
highlighted here, there are a number of airports across the country 
that will not be interested in participating in the SPP. For that 
reason, it is imperative that TSA be encouraged to be innovative, 
creative, flexible, and inclusive in its approach to screening 
regardless of the type of employee who ultimately screens the passenger 
or their baggage. The keys are local flexibility, airport involvement, 
and tough security standards that all organizational models are 
compelled to meet.
Local Flexibility Critical in Addressing Short-Term Problems With 
        Screening
    TSA continues to struggle with recruiting, assessing, hiring, 
training, and retaining screeners--a fact that is evidenced by large 
vacancy rates at a number of airports across the country. In Oakland, 
for example, it is my understanding that the vacancy rate stands at 25 
percent, and there are other airports that report similar problems with 
filling screener staff positions. The problems are exacerbated by high 
attrition rates for screeners.
    In many instances, the strict rigidity of TSA in its hiring and 
staffing practices seems to be the source of current problems. A number 
of airports report that many issues could be resolved through more 
flexible staffing schedules or through the use of additional part-time 
workers, for example. Unfortunately, there does not yet appear to be 
sufficient flexibility locally to tackle problems that are inherently 
local in nature. TSA has made some progress in this area, but we still 
have a long way to go.
    As is the case in so many areas relating to security, one size does 
not fit all. The challenges in Anchorage with regard to hiring, 
placing, and maintaining screeners are not the same as they are in 
Honolulu, Billings, or Los Angeles. Each of these locations has unique 
local labor markets, unique balances between local and connecting 
traffic, unique seasonal traffic patterns, unique airport 
configurations, and so on down the list. To be effective, 
responsiveness to local airport operational characteristics must be the 
guiding criterion for the hiring and management of workforces.
TSA Performance Standards
    Beyond additional local flexibility, we believe that it is critical 
that the agency establish measures and performance standards for 
passenger processing. While the 10-minute goal established initially by 
Department of Transportation Secretary Mineta may not be exactly the 
right standard, it is clear that a reasonable goal must be established 
and that the TSA and the full array of passenger and cargo processing 
personnel employed by the Federal Government must be held accountable 
for meeting such goals. We have goals holding the airlines accountable 
for meeting their schedules; it is only appropriate and right that we 
do the same with the Federal workforce. Only by setting a standard can 
TSA and airport managers know that the workforce size and deployment 
model for their airport is the appropriate one.
Focusing on TSA's Core Mission
    Given the enormous task that TSA has been given to ensure the 
security of the Nation's transportation system, the agency must rely on 
its airport partners to continue performing important functions that we 
have successfully performed for decades such as perimeter security and 
access control. Airports are organizations owned and operated by state 
and local governments and, therefore, have the necessary and 
appropriate incentives to perform security responsibilities at the 
highest levels. The primary mission of an airport is to establish and 
maintain a safe and secure environment for travelers and the general 
public and to serve the community and the national aviation system by 
encouraging competitive air service. Airports have always been 
responsible for the safety and security of their facilities and the 
people who use them, and this will continue to be so.
    Despite those facts, we continue to see efforts to expand TSA's 
mission into areas traditionally performed by airport operators and to 
expand the regulatory enforcement personnel at airports. This creates a 
natural conflict of interest by giving a single entity operational and 
oversight responsibilities. Clearly, there are a number of ways to 
better utilize limited TSA resources. Our members have been pursuing 
every opportunity to refine and improve our working relationship with 
TSA to avoid duplication and to develop more productive working 
relationships, and we will continue to do so. We firmly believe that 
these efforts will ensure that limited TSA resources are reserved for 
other priorities.
Exit Lanes Should Remain TSA's Responsibility
    One of the priorities that airport operators believe that TSA must 
continue to focus on is the monitoring of screening checkpoint exit 
lanes after checkpoint screening activities cease and the monitoring of 
exit areas that are located away from the screening checkpoint. 
Unfortunately, TSA has recently undertaken efforts to shift those 
responsibilities to airports.
    TSA has repeatedly cited budget constraints as further 
justification for shifting this responsibility to airports. We 
understand the resource crunch facing the agency, and we are all 
struggling to do more with less. However, TSA has not in any of its 
presentations on the screener allocation model shown how abdicating its 
responsibility at the exit areas will help to meet staffing demands at 
the security checkpoint. Rather, it appears that TSA is choosing to 
interpret its responsibilities in the airport environment according to 
what is convenient given today's budget resources. This sets a 
worrisome precedent and makes us question the consistency of TSA's 
policy going forward as budgets ebb and flow from year to year.
    Monitoring the exit areas after the security screening checkpoint 
operations cease and at all times at exit areas not co-located to the 
security screening checkpoint represents a major operational change in 
the airport environment. It also represents a significant non-budgeted 
expense that airports must address in the middle of the fiscal year. 
Yet, TSA chose to announce this major operational change through an 
action memo without any comment period and with a deadline of only 90 
days. To execute such a major and unprecedented operational change, TSA 
should have issued a proposed amendment to the Airport Security Program 
or a Security Directive. This would have allowed airport operators to 
have a formal review and comment period.
    We oppose this proposed change in policy and hope that the Congress 
will prevent TSA from abdicating its responsibilities in this area.
Proposed Cuts to AIP Will Impact Ability of Airports to Address 
        Security, Safety, and Capacity
    I also want to briefly mention the impact the Administration's 2007 
budget request will have on airport capital improvements and 
operations. As this committee is well aware, the Administration has 
proposed significant cuts to the Airport Improvement Program (AIP). The 
proposed $2.75 billion level is $765 million below the Fiscal Year 2006 
funding level and nearly $1 billion below the 2007 authorized level. 
This proposed cut represents the largest percentage cut in the entire 
Federal budget. In addition we are concerned that the Administration's 
budget calls for funding FAA air traffic control modernization programs 
significantly below the authorized level, and cuts funding for programs 
aimed at providing service to smaller communities.
    While the FAA budget is not the topic of today's hearing, the 
proposed cuts in AIP will have a profound impact on the ability of 
airports to address ongoing safety, capacity, and eligible security 
needs. In addition, at a time when congestion is returning to our 
airports and our skies, a reduction of airports' authorized share of 
the Airport and Airways Trust Fund is ill-advised.
    In addition to reducing the amount of discretionary funding 
available to FAA for high-priority projects, funding AIP at the 
President's requested level of $2.75 billion would have a significant 
impact on the amount of entitlement funds flowing to individual 
airports across the country. Under current law, a number of AIP formula 
changes are contingent upon AIP being funded at a minimum of $3.2 
billion. Funding at levels below $3.2 billion would:

        Reduce Funding to Commercial Service Airports: Under current 
        law, primary airports--those airports with more than 10,000 
        annual passenger enplanements--receive an AIP entitlement based 
        on the number of enplaned passengers they have in a given year 
        with a minimum entitlement of $650,000. When AIP is funded at 
        $3.2 billion or higher--as has been the case since Fiscal Year 
        2002--those entitlements double and the minimum entitlement is 
        increased to $1 million. Unless AIP is funded at a minimum of 
        $3.2 billion in Fiscal Year 2007, entitlements to primary 
        airports could effectively be cut in half from Fiscal Year 2006 
        levels and the minimum entitlement paid to nearly 200 airports 
        across the country could be reduced from $1 million to 
        $650,000.

        Reduce Funding to Small Commercial and Non-Commercial Airports: 
        Current law also provides grants of up to $150,000 to smaller, 
        non-primary airports in years where the program is funded at 
        $3.2 billion or higher. In Fiscal Year 2006, more than 2,700 
        airports received funding under this entitlement. Funding AIP 
        at $2.75 billion would result in the elimination of the non-
        primary entitlement in Fiscal Year 2007. Additionally, the pool 
        of funding for smaller airports through the Small Airport Fund 
        would be reduced by more than $150 million. The total amount 
        apportioned to states for use at non-primary commercial 
        service, general aviation, and reliever airports also falls 
        from 20 percent of the total AIP funding level to 18.5 percent 
        of total funds below $3.2 billion. Certain airports in Alaska 
        that receive a separate entitlement would also be affected by a 
        reduction below $3.2 billion.

    With passenger traffic approaching record levels, airports 
throughout the country simply cannot sustain almost a $1 billion 
reduction in AIP from authorized levels.
Conclusion
    Again, I'd like to thank the Chairmen and this committee for the 
opportunity to appear before you today. I have highlighted how the 
airport community believes limited TSA resources can be leveraged to 
produce enhanced security and better results for America's taxpayers 
and the traveling public. We look forward to working with you and the 
TSA to ensure that our Nation's aviation system is the most secure and 
efficient in the world.

    The Chairman. Thank you. Mr. Co-Chairman, sorry to start 
before you got here. Do you have an opening statement?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I'd just like to commend TSA for what 
they've done. I realize that there are shortcomings. I think 
that we should keep in mind that we haven't had a major 
terrorist attack since September 11. Since I travel more often 
than most of my colleagues, I find that the agents are very 
courteous, but I get swept more often than anyone else. Maybe 
I'm just too attractive. But I like the vigilance, but I hope 
you come through with that passenger program where some of us 
can go through with some dispatch. Thank you.
    The Chairman. Thank you. I think the two of us probably fly 
more than any Members of Congress, as a matter of fact. And we 
have sort of been exposed to every portion of your system in 
one way or another. I think we get more complaints than other 
members do, also, because we see more passengers and where we 
live, offshore, in my state, as you know, if you want to 
travel, you travel by air, whether it's in the state or 
traveling throughout the United States. We have a very air-
minded population.
    It does seem to me that airline passengers feel they 
deserve a little bit more attention because they're the only 
people in the country that pay for their own security. So they 
speak up--just this morning I had three more letters that I was 
going through last evening and this morning, and--along with 
Senator Inouye, I wonder why haven't we come further in terms 
of this registered traveler program? Why can't we establish 
that quicker?
    Mr. Hawley. Mr. Chairman, we are on track for that. We had 
the first deadline, January 20, which we met and the industry 
met. And there's another one coming up in April as an interim 
and our expectation is to get it--our goal is to have it up and 
running in June and we've set a date of June 20.
    A lot depends on getting the equipment that would be needed 
for it and work--the big issue right now is working out the 
security benefit for the security given at the lane. We have--
today, in fact, we have some new equipment, some new technology 
that is being tested at our lab. And depending on that 
performance, that will have a role in what the security 
benefits will be. But it is very high on our radar screen and I 
expect it to go forward this year.
    The Chairman. Will their baggage be handled differently?
    Mr. Hawley. The checked baggage, no.
    The Chairman. Why not?
    Mr. Hawley. It actually is not a hold up for the passenger 
and it is easier to run the system with--or it is better to run 
the system with our existing EDS equipment, to give it the full 
treatment. It doesn't take a cost out of the traveling 
passenger.
    The Chairman. Well, I fail to see that. As a matter of 
fact, I think we got the--and I didn't put any time on them, so 
I don't know what to tell them myself, either. I think we get 
as many complaints from passengers about baggage as we do about 
the system of check in.
    For instance, when a bag has been inspected, we don't know 
who's inspected it. We get a little card saying TSA's inspected 
it. Why doesn't the person who's doing the inspection put a 
little card in the bag that says this bag's been inspected by 
inspector number 123.
    Mr. Hawley. I think that has been looked at as a good idea. 
I will look at that again. We have put a considerable expense 
into having video cameras to be able to tape it so that we have 
evidence of what happens in the bag room, so if there are 
allegations of stealing out of it. But we were in fact 
reviewing for this hearing and that topic came up as to 
numbering the inspected by cards and that's something we'll 
look into.
    The Chairman. Well, let me get to the questions raised by 
Mr. Principato. Just last evening when I was looking at the 
news, there was a person that indicated that they went into 
China, they had, at one place they went into they looked up at 
a screen and they were checked by eye identification. I thought 
we were going that direction too.
    Mr. Hawley. We're looking at biometrics too. The first step 
will be for airport workers, the access to secure areas, to 
take the existing background check that we do and add a 
biometric to it and it would be--the protocol is essentially 
either iris or fingerprint so that we are rolling out both in 
the TWIC program, Registered Traveler, and essentially all of 
our biometric programs are aimed at using both a fingerprint 
and the iris or either/or because some people can't do one or 
the other.
    The Chairman. A person who was demonstrating the new 
equipment came to our offices and showed us just a handheld 
device that they could take a picture of your eyes now and 
you'd be identified anywhere in the world that had that same 
system and once again reproduced a contact with your eyes. Have 
you looked at those systems?
    Mr. Hawley. Yes sir, if it's the iris recognition, that is 
something that we're very bullish on, it's a good system and, 
in fact, is part of the Registered Traveler Program and that is 
expected to initially go out for the Registered Traveler folks. 
The issue is actually putting the readers at the checkpoints so 
that they are accessible everywhere and working that in 
conjunction with the airport and the funding.
    The Chairman. I don't believe----
    Senator Lautenberg. Is that an instantaneous process?
    The Chairman. What?
    Senator Lautenberg. Is that an instantaneous----
    The Chairman. Pull your mike around.
    Mr. Hawley. It's virtually, I believe it's sub-second.
    The Chairman. Yes, it is instant. It was shown to us for 
use in military purposes first though, some time ago. Ms. 
Berrick, it's my understanding your investigation with 
undercover investigators smuggled bomb materials past 
checkpoints, indicated screener technology deficiencies and 
actually penetrated two major levels of security. Is that 
right?
    Ms. Berrick. Mr. Chairman, the results of those tests are 
classified. GAO did do some undercover testing in airports 
throughout the country and I would be happy to provide you a 
separate classified briefing on that if you would like more 
detail on those tests.
    The Chairman. I'd be happy to have the classified stuff, 
but what can you tell the public?
    Ms. Berrick. What we can say publicly is GAO, in addition 
to doing our own covert testing, has also assessed TSA's 
internal covert testing program. TSA has a group of inspectors 
that also try to get prohibited items through the checkpoints 
and we've analyzed their covert testing results. What I can say 
publicly is that for the 2-year period we reviewed between 2002 
and 2004 we identified vulnerabilities in passenger checkpoint 
screening and also in checked baggage screening in airports of 
all sizes and airports throughout the country.
    The Chairman. Well we are approaching the 5th anniversary 
of 9/11 and when did you conduct those investigations?
    Ms. Berrick. We analyzed TSA's covert testing results 
between June of 2002 and June of 2004 and we're in the process 
of updating that analysis right now, Mr. Chairman.
    The Chairman. We would like to arrange a classified 
briefing. But what would be more important, I think, to have 
people understand what the reaction to your inspections were.
    Mr. Hawley, what did you do after you got that report?
    Mr. Hawley. Sure. Well, as the Committee knows, we, this 
fall, put into place a very major focus on finding IED 
components at the passenger checkpoints and instituted a 
massive training program that is ongoing.
    I should say with regard to the GAO testing that you 
referred to, that it has two principle take-aways that I would 
say comfortably in public. Number one, it reiterates the 
importance of focusing on IED components and that we agree with 
and feel very strongly about. The second is it points up a 
number of things that we've seen confirmed in our own testing, 
and I believe they were talking about tests in the 20 range. 
We've done thousands of tests, we do them frequently, we're 
doing them this week. We do them virtually all the time to keep 
our data fresh. And the second piece, in addition to the bomb 
finding is important, is that our supervision and level of 
personal engagement by the Transportation Security Officer is 
key, and that we need to get to a point where, rather than 
opening up a bag of--the TSO is thinking about a checklist, I 
have to do this, then I have to do this, then I have to do 
this, they're opening up thinking I've got to find a threat 
object in here. And make it more accountable to them personally 
and have them able to use their own personal judgment rather 
than just saying I followed a checklist and that's good enough.
    The Chairman. I'll ask other questions, but to get back to 
you Ms. Berrick, we're told that TSA has the highest attrition 
and worker injury rates of government and private sector jobs. 
Have you looked into that problem and made any suggestions for 
solutions to those two problems?
    Ms. Berrick. We've looked at them as a part of other 
engagements, but not directly. I can speak first to attrition.
    We found that staffing attrition obviously has been a 
problem for TSA. Their attrition rate for the part-time TSO 
workforce is about 50 percent. And the attrition rate for the 
overall TSO workforce is about 23 percent and there has been 
some increase over the past year. That's caused a problem for 
the airport Federal Security Directors in making sure they have 
enough screeners on board to perform the screening function. We 
have an ongoing engagement right now looking at how TSA 
allocates TSOs among the airports and we believe that we'll 
have recommendations coming out of that work to address some of 
these deficiencies, but attrition certainly has been a problem 
for TSA.
    Related to workforce injuries, we've also identified that 
that's been difficult for airports because when TSOs get 
injured, they're not available to staff the checkpoints or 
screen checked baggage.
    The Chairman. What type of injuries are these?
    Ms. Berrick. It's typically due to lifting heavy baggage, 
and that could be due to a lot of different factors. This gets 
back to the importance of having in-line baggage screening 
systems. When you have stand-alone explosive detection 
equipment it requires the screener to lift heavy bags, take 
them over to the machine and put them in. If that equipment's 
integrated in-line with baggage conveyor systems, it takes away 
that impact on the screener. They don't have to physically 
carry the baggage. So in addition to creating a lot of 
efficiencies with the in-line baggage screening system, it 
would also help, we believe, the screener injury rate.
    The Chairman. Senator Inouye?
    Senator Inouye. I'm sorry. A few days ago, a gang of 
thieves were uncovered, arrested, they were four screeners 
stealing valuables from bags. Is this a common occurrence?
    Mr. Hawley. It's not a common occurrence, but it does occur 
and it's something that we deal with. It goes to the very fiber 
of trust that we have with the American public. So we are 
vigorous at, A, preventing it, and B, if it does occur, 
enforcing immediately on it. So it is something where we build 
in safeguards, as I mentioned about the cameras, and I know in 
Honolulu, that's something that we're working on specifically 
to give the passengers comfort that their bags, when they are 
checked, are checked professionally and that nothing is taken. 
And theft is a problem in the industry and we're not immune to 
it, but it is something that we take extremely seriously and we 
have stringent background checks so when it does occur we'll 
get those people out and get them prosecuted.
    Senator Inouye. Are we satisfied with the quality of 
screeners?
    Mr. Hawley. I am. I think we have great Transportation 
Security Officers and what I hear over and over again is the 
desire to have more training, to be more involved, to have more 
discretion to use their judgment. What we need to do from our 
perspective is provide more and better training and I think it 
was touched on by a number of the Senators in the opening 
remarks about having the time and the focus to do the job the 
right way. And I think we have an excellent source of people 
and our goal is let's train them and keep them. And if we can 
do that, then I think our total system performance will go even 
higher than it is today.
    Senator Inouye. I presume you have been studying the 
technology of other lands.
    Mr. Hawley. Yes.
    Senator Inouye. How do we compare ourselves with say, the 
British?
    Mr. Hawley. I think both systems are good and they're a 
good ally and we meet with them frequently. Our technology is 
the best in the world, in my opinion. We have the best 
technology, we use very top technology. Our security protocols 
are a little bit different from our partners, even in Canada, 
Mexico, the U.K., and around the world. We have slight 
variations.
    But we've spent a lot of time working with each other to 
harmonize so there is not a gap between the two security 
systems. It's something that we work on all the time to see 
what more we can do to close those gaps.
    Senator Inouye. On my last trip to Hawaii, I saw a young 
lady being handcuffed. She was trying to get some drugs 
through. How many passengers fail to go through the line 
properly and get arrested?
    Mr. Hawley. I'd have to go research that number, but it is 
not very many. It's very few people who do turn around. And 
once somebody has presented themself for screening, then we do 
have the opportunity to stop them from leaving, and that has 
happened on a number of occasions. I know it was in the last 
month or maybe 2 months ago in Philadelphia we had an incident 
where that occurred. It is not very common, but it is something 
that we plan for and are prepared for.
    Senator Inouye. Well your job is not an easy one. You're 
always being criticized, but I'm pleased that we haven't had a 
repeat of 9/11.
    Thank you.
    The Chairman. Senator?
    Senator Ensign. Thank you Mr. Chairman. I have several 
questions and I want to start by talking about Reno/Tahoe 
International Airport and the Reveal EDS system. At the Reno/
Tahoe International Airport, TSA conducted a successful pilot 
program of the Reveal system. However, the TSA has yet to 
incorporate at the Airport these smaller EDS machines that can 
be installed right at airline ticket counters. We hear so much 
about the promise of in-line screening, yet very few systems 
have actually been installed in the field. My question is, when 
we have this successful pilot program at a smaller airport, why 
wouldn't we install that technology there and get it done?
    Mr. Hawley. We're working very hard on getting Reno exactly 
the right solution and it may or may not involve one particular 
kind of advanced technology or the other. But it will be some 
form of that technology. What we're actually looking at right 
now is having that behind the counters and that we think we can 
do a more efficient, better job by putting some larger machines 
in-line with a higher throughput. So it's going to be the best 
technology and Reno is very high on our plate.
    Senator Ensign. When you talk about full in-line EDS 
systems at places like Reno, the cost of installing those are 
prohibitive because of the modifications that have to be made 
at the airport. When you have a smaller, more affordable unit 
that was working there, I don't understand why you wouldn't use 
it.
    Mr. Hawley. Yes.
    Senator Ensign. If it wasn't working, I can understand it. 
But it was working.
    Mr. Hawley. It definitely works. It's a math puzzle that 
says how many bags are you going to run, how much does the 
machine cost, and the best total deal to the government and to 
the airport, the analysis has showed a different solution, but 
it----
    Senator Ensign. Has GAO looked at this?
    Ms. Berrick. We haven't looked at that specific airport 
regarding the installation of in-line baggage screening. We are 
looking at TSA's strategic framework for installing in-line 
systems in their baggage screening solutions. We know that TSA 
recently published a framework for a strategic plan where 
they've outlined some of their future vision for installing in-
line systems, which is what we had previously recommended. So 
we think they're moving in the right direction, but more work 
remains in this area.
    Senator Ensign. OK.
    Ms. Berrick. TSA established a task force to look at 
financing strategies for in-line systems because they are very 
expensive. But that task force hasn't yet completed their 
efforts.
    Senator Ensign. My experience has been that the airports 
know what is going to save them money. They've done the 
analysis. The Reno/Tahoe International Airport feels that this 
Reveal system worked and is their most cost-efficient way to do 
it. I would encourage you to work with them and to keep us 
apprised.
    I do have another question. Sorry to be parochial here, 
because I have some other, bigger questions, but I have to deal 
with these two first. Las Vegas McCarran originally had 42 EDS 
machines slated for their in-line system. At least from what 
the airport tells me, they were never given a good reason for 
why TSA cut down this number to 29 despite McCarran having been 
built out to have the 42 machines. Now they have 29 EDS 
machines and they have these 13 extra conveyor belts that are 
sitting there empty. Do you have an explanation?
    Mr. Hawley. Yes sir. We've recently added three EDS 
machines in--at McCarran Airport and I think the third one is 
being installed next week in the southwest node. So it's my 
understanding that these new machines will meet the throughput. 
There was a period where, because of the explosive growth at 
Las Vegas McCarran that we were under-serving, but now these 
additional machines--two of them are in place and one of them 
is coming in next week. So that should be balanced out.
    Senator Ensign. You're right, the growth is explosive at 
that airport and it's not subsiding. From all the projections, 
it's going to continue to grow like that. So I would encourage 
you, once again, to work with the folks at McCarran because it 
is already the second busiest origination/destination airport 
in the United States. So it certainly has a lot of bags going 
through, a lot of people going through, and it has some major, 
major concerns.
    I have another question that has to do basically with the 
whole use of employees. We know that you have a cap number. We 
know that one of the reasons that people have not wanted to 
lift that cap is because a lot of people think that a lot of 
the employees are being used inefficiently. Mr. Principato 
talked about TSA employees manning exit lanes. That's never 
made any sense to me. I mean, you see that at Dulles. You see 
it at every place. You all have been up and running for a few 
years now and those TSA employees are still at exit lanes. It 
doesn't seem to me that it is a highly skilled TSA employee's 
job to do that. And on a related note, I was just at Denver 
International Airport and I see that the TSA employees are 
helping people out front with their bags. I see this out at 
Dulles quite often as well. In other words, before passengers 
go through the security lines we see the TSA employees, and I 
don't know if that's a common practice or not. I don't see that 
in my own airport. The airport hires lower paid, not as skilled 
workers because they're just helping people and getting staff 
ready to go on the conveyor belt. That doesn't seem to be a job 
for a highly skilled TSA screener. Could you address that? A 
third related question has to do with the in-line systems. 
Maybe GAO has studied this. I don't know if you've extrapolated 
this out from the seven airports in the GAO study, but if this 
technology was installed system-wide, at least where we need to 
at the larger airports, how many of the baggage screeners can 
we save to be able to shift over into passenger screening? So 
all of that has to do with TSA employees in general and better 
utilization of those employees.
    Mr. Hawley. We agreed to split up the questions.
    Senator Ensign. OK.
    Mr. Hawley. Cathy's going to do the last one first.
    Ms. Berrick. Related to installing in line systems for the 
9 airports TSA reviewed, they identified they could reduce 
screeners by 78 percent.
    Senator Ensign. What is the total number? Can you give me--
--
    Ms. Berrick. I don't know off the top of my head. I can get 
that information for you after.
    Senator Ensign. OK, and did you extrapolate that out?
    Ms. Berrick. No, we didn't. But one of the things we're 
doing is looking at TSA's strategic plan for baggage screening 
and we're continuing to monitor how that's playing out. Now 
that they're installing in line systems, are these screener 
savings actually being realized?
    The other thing I wanted to mention, installing in line 
systems doesn't make sense for all airports.
    Senator Ensign. Right.
    Ms. Berrick. Because like you mentioned it's a huge capital 
investment. It requires a lot of airport modifications. And of 
those nine airports that TSA studied, TSA identified that they 
probably would incur a loss at one of those airports from 
installing the in line systems because it was so expensive to 
modify the airport.
    And if I could address your question on TSOs performing 
other duties, we are looking at this as a part of our review of 
TSA staff allocations. We are finding that there are about two 
thousand TSOs throughout the country that are being used in 
administrative positions, such as doing time and attendance or 
uniforms. Not all of them are doing that full time, but a good 
portion of them are. So one of the things that we're looking at 
is how that is impacting the Federal Security Director's 
ability to staff the checkpoints when they have TSOs performing 
these other duties.
    Senator Ensign. OK.
    Mr. Hawley. OK. On the exit lanes, we totally agree. Where 
the TSO trained in the transportation security business 
performs the function of a gate, we think that's not very good 
use of time. We do, however, have a legitimate security need to 
stop people coming back in through the exit lane and also, in 
some airports, that's where the armed law enforcement officers 
come. So we have a need to have somebody in those cases.
    Senator Ensign. Yes, but why do they have to be a TSA 
employee? I don't understand that. It's not like they have to 
be highly skilled to do that. Nobody comes through. I mean, no 
one goes back through. Why does it have to be somebody that's 
highly trained in detection and all of the things that you do 
at TSA. I don't understand that.
    Mr. Hawley. I'll just say I agree with you. It does happen, 
though. But I agree with your punch line, which is manning the 
exit lanes is not a----
    Senator Ensign. It's not--and maybe Mr. Principato can take 
a shot at that if you agree. You all have been doing this for 
so long. I don't understand why it's still happening.
    Mr. Principato. Well, to clarify my statement from before, 
the exit lanes have been TSA's responsibility and we in the 
airport community believe that that was where the 
responsibility rested for some of the--some of the reasons that 
were just discussed. And part of our problem was that when the 
decision was made to transfer that responsibility to the 
airports rather than being done in a process that included 
comment and working with the airport community, it was done--it 
was done through a memo and we were given 90 days.
    Now I'll say that in the time since then, Kip and his folks 
have been very responsive to our concerns, allowing their 
Federal Security Directors to work more closely with airport 
directors and the security folks at the airports to try to 
figure--try to figure this out. But our basic view remains that 
this has been a TSA responsibility from the beginning and 
should remain. So if I didn't make--if I wasn't clear enough 
before, I apologize.
    Senator Ensign. Mr. Chairman, I'll just finish with this. 
I've talked to everybody who's been the Administrator of TSA 
about this. I've mentioned this possibility and they all have 
seemed to think that it was at least a reasonable suggestion. 
We are managing risk. We understand that. Just like when you 
drive on the highways, you know there's a certain amount of 
risk involved. You can't eliminate all risk. We will never take 
every bit of risk out of traveling in any form, whether it's on 
our highways, on our airways, or wherever it is.
    And, as I mentioned before, the terrorists win when we are 
so severely delayed at airports, when people are aggravated. 
Your employees deal with it and the couple hour waits all the 
time. The idea is using random number generators during peak 
times to take certain people out of line. If we're using the 
random number generators, you can't game the system. It'd be 
computerized. You could take certain percentages of people out 
of line and just shove them through. That seems to be managing 
risk. The terrorists are not going to know who gets picked. It 
would seem to me to be at least a reasonable thing to do, and 
everybody that's been through my office thought it was 
reasonable, but I have not seen TSA's work on that, or at least 
not before the Congress. Have it presented to the Congress. I 
know that sometimes you all are afraid that we'll come down on 
it if you do something like that. But it would seem to me that 
we could manage risk in the same way that we're doing today 
without compromising security to any significant degree, and 
still get people through the lines a lot faster.
    Mr. Hawley. Risk-based we totally agree with, the aspect of 
random we totally agree with. We're not comfortable on letting 
anybody just go walk all the way through. But we are adding, 
and we'll be rolling out over the course of the year, an 
unpredictable screening component that will be random-based and 
that we will have some random impact on what screening 
different people get that will not be predictable.
    Senator Ensign. Yes, but that's just adding additional 
screening. That's not taking away.
    Mr. Hawley. The net effect will be not to slow things down. 
So it will be to take----
    Senator Ensign. But the net effect is not going to speed 
things up.
    Mr. Hawley. Well, with Registered Traveler, there will be a 
speed up based on lack of a risk, or less risk.
    Senator Ensign. Has GAO looked at managing the risk in that 
regard? You guys have a lot of statisticians on your payroll.
    Ms. Berrick. Yes.
    Senator Ensign. Have you looked at that at all?
    Ms. Berrick. In all of the reviews that we do at TSA, we 
always look at programs within a risk-based framework. How is 
TSA considering threats and vulnerabilities in making the 
decisions that they make? Right now we do have an ongoing 
review looking at TSA's development of screening procedures and 
the modification of those procedures. And TSA makes changes to 
procedures for a lot of different reasons, such as to improve 
efficiency and also based on intelligence information.
    Our preliminary observation is that their decisions are 
risk-based. We've looked at intelligence information, we've 
looked at vulnerabilities at the checkpoint. And we're going to 
continue to review that. We'll be publishing a report this 
summer on TSA's efforts related to that.
    This particular procedure that Mr. Hawley's talking about 
is one of the procedures that we're looking at. We're also 
talking to security experts throughout the country to get their 
feedback on this unpredictability screening procedure, and how 
might that be improved? What are their views on how that would 
work?
    Senator Ensign. Thank you for your indulgence, Mr. 
Chairman.
    The Chairman. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Yes, thanks Mr. Chairman.
    As usual, you raised timely subjects here at this committee 
and this one is particularly timely in terms of the interest of 
the public and what we want to do to protect the public without 
drowning them in process and interfering with their time frames 
of getting to their destinations and making their connections. 
There is a serious problem, and where I come from in New Jersey 
we've lost 700 of our friends and neighbors in the 9/11 
attacks. So this has really struck home, and there are still 
injuries that are being recognized as a result of that, from 
respiratory diseases and things of that nature.
    So on one hand we say we can't do enough, and I think the 
Senator from Nevada was certainly correct when he said you 
can't protect against every eventuality no matter how hard you 
try. I mean, if someone hit an airplane with a bazooka or 
something like that it would be a terrible, terrible thing, but 
certainly these things exist as a possibility. We are, I think, 
working very hard and a lot of good people want to do the work. 
I don't know whether the conditions we've set for them 
encourage them to do their best.
    When I looked at the things that I see in--I travel usually 
twice a week at a minimum by air, short flights from New Jersey 
or from the New York airports which I also use sometimes. The 
sky is so full that it's hard for the airlines to maintain 
their schedules, even after the hassle that you have to go 
through to get on the plane. I was one of those who supported 
re-focusing our efforts from the confiscation of small scissors 
and things of that nature. I always thought it was an effort 
led by the scissors manufacturer's association. They had a 
pretty good business going on for a while. But it certainly has 
speeded things up and when we look at the places that we want 
to make sure are secure--key checkpoints, I think we want 
passengers to be able to move fairly quickly to the inside of 
the airplane.
    Now, some time ago, we thought it would be a positive thing 
to arm the cockpit doors and some had even suggested that we 
also include cameras in the cabin so that pilots could see 
visually what goes on in the cabin. Mr. Hawley, are you 
familiar with that proposal?
    Mr. Hawley. Yes sir.
    Senator Lautenberg. What's happened there?
    Mr. Hawley. It has been suggested and discussed, but when 
we did our risk-based analysis of where to put our investments, 
that did not meet the hurdle of extra security added versus the 
cost that it would be. And that's really where it is.
    Senator Lautenberg. What would the cost be? Do you know?
    Mr. Hawley. I don't know, but I remember that we did look 
at it and that it didn't make the top of the list.
    Senator Lautenberg. Because that would seem like a 
relatively small investment. So now we have plastic knives on 
some airlines--is there a rule on what kind of utensils are 
allowed in the airplane?
    Mr. Hawley. Our rule of thumb is no blades. So we've said 
blades, sharp blades, knives, we do not allow and will not 
allow. Scissors four inches or less are allowed. Small tools 
under seven inches are allowed. And we constantly look at the 
numbers. We're right around now, probably 20 percent of what we 
take at the checkpoints are knives and upwards of 75 percent 
are lighters. So that's really what our----
    Senator Lautenberg. Right. But is a plastic knife with a--a 
saw edge pretty dangerous?
    Mr. Hawley. Well, anything could be used as a weapon. I 
believe that's not a prohibited item at this point.
    Senator Lautenberg. Because if one takes a compact disk, 
digital video disk, or whatever disk and breaks it in half, 
that's a pretty sharp weapon. And the reason I mention that is 
there's a degree of discomfort that comes with almost everybody 
who has to get in an airplane. The pain in the neck of taking 
off your coat and your shoes and things of this nature. Being 
felt to be leaning toward the criminal and having to prove that 
you're not is a harrowing thing. It adds anxiety, et cetera.
    And I just wonder, and I'm not for abandoning our security 
checks, believe me, I was a Port Authority Commissioner in New 
York and New Jersey, which manages the four airports there, and 
I am very conscious of safety measures that we have to take. 
I've talked to air marshals and I see things that are done 
which are routine, but I'm not sure that they're always 
necessary.
    How many times, do you know of, where air marshals have 
been called upon into active duty in the last couple years?
    Mr. Hawley. Well, there's the one incident where they were 
called upon to fire their weapons in Miami, the unfortunate 
incident there.
    Senator Lautenberg. Right. While the plane was on the 
ground.
    Mr. Hawley. Correct.
    Senator Lautenberg. Yes.
    Mr. Hawley. They are frequently on mission status that does 
not involve physical interaction and where there are--I have to 
be careful because most of the work that they do is classified, 
but essentially, the only physical intervention, I believe, was 
the incident in Miami. There have been a number of others where 
Federal Air Marshals have certainly delivered significant 
security value.
    Senator Lautenberg. Yes. And I don't want to get rid of the 
air marshals, I like them and know they perform an essential 
role. But, again, all of these things have to be examined in 
their value for the expenditure that it creates. And I wish 
that we could find a way to make flying a little more 
comfortable. I think it would kind of ease the national anxiety 
if we could do it. Two million people a day get in an airplane 
and two million people a day take their shoes off, and take 
their jackets off. I understand that you are currently 
evaluating something called backscatter technology that was 
going to identify the person without--as if they were clothes-
less, that gets up front and personal, I'd say. Is that still 
in consideration?
    Mr. Hawley. Yes sir. It's something we're looking at 
piloting this year. It is a very good, promising technology. 
It's not ready for widespread deployment across the system. It 
also has a fairly large footprint at the checkpoint and takes a 
relatively significant amount of time to do the scan. So it 
would not be effective for large numbers of people going 
through.
    Senator Lautenberg. Who's going to do the selection of 
those who get so examined?
    Mr. Hawley. Well----
    Senator Lautenberg. We'll let that question go.
    Ms. Berrick, the turnover question--I thought there was 
some interesting consideration, and that is to give people an 
avenue for growth in their jobs. One of the things that I 
proposed is an internship for high school students who may want 
to become TSA screeners to develop a pool of people who have 
some training and who show some aptitude for it. What would you 
think of--of something like that?
    Ms. Berrick. I think it's important to look at creative 
ways to help with the retention and recruitment issue. With TSA 
it's not just retaining, but also recruiting has been a 
problem, especially with a part-time workforce. So I think we 
should look at any ways that may be creative to help correct 
that problem. We haven't specifically looked at the issue of 
high school students being trained. We have an ongoing review 
looking at TSA's staffing issues and we can look at that to see 
to what extent that might be a possibility. I know there was 
potential legislation that addressed that, and it did move 
forward.
    Senator Lautenberg. Yes. What's the starting wage for a 
screener and what's the average wage?
    Mr. Hawley. It's about $28 thousand a year.
    Senator Lautenberg. $28 thousand a year?
    Mr. Hawley. $12, $14 bucks an hour, something like that.
    Senator Lautenberg. Yep, $28 thousand.
    Ms. Berrick. I don't believe they've had a pay raise in 3 
years, if that's correct.
    Senator Lautenberg. Now that's a starting wage?
    Mr. Hawley. Yes sir.
    Senator Lautenberg. And is that also--there are 
promotions--are there COLs included for--as people work the 
job?
    Mr. Hawley. There is the equivalent of that annually, which 
is on the order of like 3 percent total with everything added 
in.
    Senator Lautenberg. So the average then gets up above the 
$28 thousand level. Are they--these people, do they have the 
traditional fringe benefit programs, healthcare.
    Mr. Hawley. Full-time, yes, part-time, no. Although we are 
piloting some areas with the part-time to see if that--
obviously that would have a huge impact on part-time retention, 
which is important to us. It also has a large price tag.
    Senator Lautenberg. Has a very large price tag, but there's 
a very clever, very successful company called the--the coffee--
--
    Mr. Hawley. Starbucks.
    Senator Lautenberg. Starbucks that has a--they pay part-
timers a part fee for their health care. And it's helped 
their--they have one of the best retention levels in the 
country.
    And so I close with this, and that is, wouldn't it make 
sense when taking reservations for flights to get some 
verifiable source of identification? Social Security number, or 
a credit card number, no questions beyond that. Do you have an 
American Express or VISA or Master, and for how long? That 
information is instantaneously available and at least you have 
a basis for identity of the individual and it's often been 
talked about having some kind of a preferred status for 
frequent fliers or people who's background you can quickly vet 
in some way. Has that--has that ever been tried, ever been 
thought--been reviewed as a possibility?
    Mr. Hawley. Yes sir. We're moving what we call the 
Registered Traveler Program that would take background 
information ahead of time and use that, in addition to a 
biometric, to give speedier treatment, still some security but 
not the full, for a person that we know who they are. We also 
are looking at, as part of our Secured Flight Program, asking 
for the date of birth in addition to the passenger's name to be 
submitted that would help us with our watch list checking. But 
there are, as you know, there are very, very significant 
privacy issues both in the United States and with our partners 
abroad that is a very sensitive topic.
    Senator Lautenberg. Mr. Chairman, one last thing, please. 
And that is, considering the financial condition of the 
aviation industry, why on earth are we seeking to increase 
security fees? The Chairman mentioned in his early remarks 
about the fact that the airline industry is the one place where 
people pay for their own security. But to increase those 
security fees, I can tell you now that that kind of proposal is 
not going to fly through the Congress. It is an added tax and 
we spend so much on the infrastructure for aviation and 
screening and so forth that now, to add a fee on top of that, 
on top of an industry that's barely hanging on, I don't think 
is particularly wise.
    Mr. Hawley. We came up last year with a user fee that was 
soundly rejected. This year we thought that----
    Senator Lautenberg. Do the same this year.
    Mr. Hawley. Well, it was $2.50 plus $2.50 and a maximum of 
$5 per leg. And what we said was let's just have $5 a leg, 
which for people who take two flights is no different. People 
who only take one, that is an increase. But the maximum does 
not change. It's still five bucks a one way trip, max ten bucks 
round trip. So it's the same maximum as it is additionally. It 
does get us about a billion-three, which is 40 percent of our 
budget. So to us it's a very significant piece of our funding 
in a way that is about as non-intrusive as we could come up 
with to raise that money.
    The Chairman. Would you yield right there? What about 
people who fly fifty miles on a commuter? Ten bucks?
    Mr. Hawley. Five.
    The Chairman. As opposed to flying three thousand miles on 
a cross--intercont--transcontinental plane.
    Mr. Hawley. The theory is you go through screening once no 
matter how long the flight is or whether you connect or not. So 
that was our judgment that we charge for that screening and 
whatever happens after that, the passenger does pay.
    The Chairman. Well then why don't you exempt from screening 
all passengers that get on planes that don't connect with an 
interstate plane? I mean, 70 percent of my people get on planes 
every day and fly 30, 40, 50 miles. I don't understand that at 
all. And besides that, I don't understand why you can't find 
other people who pay something for security in this country 
other than airline passengers.
    Senator Lautenberg. Amen.
    The Chairman. Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Ms. Berrick, if I can start with you, you mentioned 
recruiting and retention a few moments ago and I think it's a 
very important line of questions. I am curious, and I'm sorry 
if I missed your opening statement, you covered this, but I am 
curious, your impression about some of the staffing shortages. 
Is it due to a lack of applicants or is it due to a poor 
process? And one reason I ask that is because we have a staffer 
in my office who actually applied for a part-time position with 
TSA back when he was in college and he left college, eventually 
came to work for me, and 16 months later he finally gets a 
response from TSA. So I'd like to get your impression on, is it 
a process issue at TSA or lack of applicants or what?
    Ms. Berrick. I think it's both. And I do think TSA's made 
improvements in this area. Related to a lack of applicants, 
this is really a concern for part-time screeners. Just about 
every airport we visited has had challenges in hiring a part-
time screener workforce, which has to do with the pay and 
benefits, the hours, lack of mass transit to the airports, cost 
of living, a lot of different factors. So part of that is just 
the circumstance that TSA's facing at the airports.
    I also think part of it is the process. TSA's initial 
process for hiring screeners was very centralized at the 
headquarters level. The reason they did that, is primarily 
because they needed to hire about 50 thousand screeners in a 
very short amount of time. So it was very centralized. Federal 
Security Directors at the airports have consistently complained 
that they didn't have a lot of input. It wasn't real responsive 
to their needs. So it wasn't satisfying them.
    TSA's recently made changes to decentralize the hiring 
process and we actually went back and talked to some Federal 
Security Directors at airports and they're pleased with the 
direction that TSA is moving. They feel that TSA can do more to 
provide them the flexibility. For example, TSA is creating 
regional hiring centers around the country, which weren't there 
before.
    So I think it's both process and circumstance. And I do 
think TSA is making improvements on the process end.
    Senator Pryor. Good, thank you. Mr. Hawley, let me ask you, 
if I may, and again I'm sorry I arrived to the hearing late, 
but I want to ask you about the explosive detection system, 
EDS, which, as I understand it, could save the Federal 
Government about a billion dollars if it's an in-line system as 
compared to the more traditional system. And where are we on 
that and what's the latest on that?
    Mr. Hawley. Well, we had a little discussion about that 
earlier, but I think all of us agreed that in-line checked 
baggage is for large airports, high throughput the way to go 
for every reason, the efficiency of finding bombs, getting the 
bags through quickly, and decreasing injuries. So that we all 
agree on.
    It comes down to money, really. And the issue there is TSA 
pays for the equipment itself, the actual bomb detection 
equipment. But then the conveyors and all the other associated 
equipment that goes to make it an in-line systems is up for 
grabs. Then there's also the maintenance of that system and 
that's where the dollars come to.
    I think it's no surprise that our current--I mentioned in 
my opening that our economic model needs to be looked at 
because it is really a business expense that businesses all 
around the country deal with and somehow manage. And it was the 
way we had to jump after 9/11 to put the system up that we got 
to this funding scheme. But it is not going to work for us long 
term, and it's something that we work very closely with the 
industry and it's probably our biggest joint issue that we 
don't have completely solved. So it is something we're working 
on, we've done studies, we're continuing another effort that 
will have some ideas with the industry this spring.
    Senator Pryor. OK, Secretary Hawley, thank you. Let me now 
ask a question--I had a couple of constituents who've written 
in, I think both these are by e-mail, and one constituent was 
upset because their teenage son was selected for secondary 
screening and after it was all done they asked the--a local TSA 
person why he had been selected and apparently the reason is 
because he was wearing baggy shorts. Is that--and then they 
pressed further on that they apparently said that there is, 
``there are guidelines.'' Do you all have a guideline about 
baggy shorts?
    Mr. Hawley. Not specifically about baggy shorts, but there 
are a number of ways that you get referred to secondary 
screening, including random and including judgment of the TSO 
and we've added some particular protocols having to do with 
people bringing explosives in using various places to hide 
them. That is part of the IED training, is to say, you use your 
judgment. If you feel that that could be a potential 
vulnerability, you may use your judgment to request secondary 
screening.
    Senator Pryor. OK. We have another constituent who went 
through an airport and apparently was selected for secondary 
screening and had to go over to another area, but had to leave 
all of his stuff there and he was concerned that his stuff may 
not be secure there, someone may pick up something or whatever. 
Anyway, I think all worked out OK, but as he was talking to the 
TSA person there he was told, ``this is not Burger King, you 
don't get it your way.'' And on one level that's funny, but on 
another level that's kind of sassy and it's not really what you 
want to hear from a public servant there working and screening 
at TSA. And so, really more of a general question on training 
and that is kind of customer relations. How do you--how do you 
train your folks to--I know they work long hours and hard days, 
but how do you train them to always be courteous and----
    Mr. Hawley. It's part of the training that goes on with the 
shift change and so it's part of the initial training and it's 
something that we work on as a part of the security process, 
that you certainly don't want to anger customers, and everybody 
realizes it's a stressful experience going through it, so 
they're trained to diffuse those situations and try--the person 
may have been making a bad attempt at humor. But we do want to 
have the process be friendly to the customer but allow them to 
do their professional job.
    Senator Pryor. Let me ask one more question on your 
screeners. As I understand it, you do have a process whereby 
the TSA screeners who fail an operational test, they'll be 
required to do some remedial training. Do you know much about 
that?
    Mr. Hawley. Yes.
    Senator Pryor. And do you have a sense of the statistics in 
terms of how many of your screeners do fail operational 
training and how many times someone can go through remedial 
training? Do you have a sense of that?
    Mr. Hawley. It's twice. If they're going to be certified, 
if you fail it once, you have to pass it the second time. And 
the overall numbers are quite high, above 90 percent. I forget 
exactly----
    Senator Pryor. In other words, not over 90 percent fail.
    Mr. Hawley. No, no, pass.
    Senator Pryor. Yes.
    Mr. Hawley. And I forget what the number is on the first 
time through. We're changing the process now to go to a more 
frequent--this is, right now, an annualized system. We want to 
go to a quarterly system and continue to change it and not have 
everything ride on 1 day, but continue to build, test, train, 
test, train, test, train and make it more cumulative than, 
essentially sudden death if you don't pass.
    Senator Pryor. OK. Mr. Chairman that's all I have, thank 
you.
    The Chairman. Sorry about that, are you finished?
    Senator Pryor. I am finished, thank you, Mr. Chairman.
    The Chairman. My apologies. Got another little crisis up 
here on another subcommittee. But if I may, let me go back to 
the question of these fees that we have. We have enormous 
revenue coming in now. Why couldn't it be used--it is fees, 
it's not taxes. We have jurisdiction over it. Why don't you 
give us a plan to use that money in a way that you want to use 
it, directly. It doesn't even have go to the Treasury under the 
concept of fees. Parks service takes their money directly, 
other people take their money directly. Why don't you take this 
money directly and use it for the function--we're charging 
people--the airline passengers to support.
    Mr. Hawley. Essentially a trust fund?
    The Chairman. Yes sir.
    Mr. Hawley. Yes. I know that that has been looked at and 
there are major issues governmentwide with that, and----
    The Chairman. Well get ready for it. We're going to do it, 
because we're getting too many complaints about the fact that 
these fees are not being used for what we want. You want to 
increase the fees, that's just merely to increase the flow of 
cash into the Treasury, not to increase the flow of cash into 
the problem. Now if you want to increase fees--if the fees 
you're getting aren't sufficient, we'll consider raising them, 
but not for the purpose of just showing an increase in the 
cash-flow to the Treasury.
    These are not taxes, they're fees and they should be used 
for the people who are paying them. So I would hope you'd 
consider it. I do think that the problems we've had with the 
pace of development of the program that you administer, I think 
it's been related to the amount of moneys we've been able to 
get to you through the Treasury after the money goes into the 
Treasury.
    I would urge you to take a look at that and tell us why--as 
I understand it, you do oppose it. We could very easily do it 
and, as far as I'm concerned, since these fees are there for 
the purpose of improving airline passenger safety, that's what 
they should be used for.
    Let me go back to the problem of the in-line screening 
process. Isn't it true that you physically inspect every bag 
before it goes on that line?
    Mr. Hawley. It has to be lifted by somebody, but it's not 
really inspected until it goes through the machine.
    The Chairman. I'm talking about the baggage inspections.
    Mr. Hawley. The passenger bag?
    The Chairman. Yes. When I check a bag, it's looked at, 
right? Every one I've checked in recent months has had that 
little card in it saying this has been opened. So I assume that 
you've been opening everybody's.
    Mr. Hawley. No sir. It's only if there's something on the 
screen that the computer inside recognizes has a similarity to 
an explosive. And there are common----
    The Chairman. An explosive?
    Mr. Hawley. Yes sir. It looks at the image and it analyzes 
it using its high technology and if it looks as if it could be 
a bomb, it flags it for somebody to go take a look at. And 
there are a number of common things that could trigger that.
    The Chairman. Well then I think we need some education of 
frequent travelers such as myself. Now, for instance, I take an 
old glasses case, and I put in it the things that I don't want 
flipping around all over the bag, OK? And it's a steel framed 
glasses case.
    Mr. Hawley. Yes.
    The Chairman. In it are maybe a small pen knife, some 
needles and thread that I use just to sew on my own buttons. 
Now is that going to show up as a bomb?
    Mr. Hawley. Not likely. However, there is an improvement 
for this, which is better software that they add to the 
computer can separate what is more likely to be a bomb from 
what is less likely to be a bomb.
    The Chairman. Well why can't we publish something to 
frequent fliers saying these are the things you should not use 
in packing. Have you done that?
    Mr. Hawley. We have not done specifically that, but that is 
something that we'll look into. There gets to be a classified 
part because we don't want to say this is what we detect, it 
looks like a bomb.
    The Chairman. No, what--there must be something you can 
tell.
    Mr. Hawley. We'll--we'll----
    The Chairman. This week I'm going to go to ten places in 12 
days, alright? And every time I get back on the airplane that 
bag's going to be searched. Every time. Because, I don't know 
why, but something's in there you want to search. If you just 
tell me what you're looking for, I won't pack that.
    Mr. Hawley. I think we could--we could----
    The Chairman. I think every frequent flier feels the same 
way.
    Mr. Hawley. Yes.
    The Chairman. Have you thought about that?
    Mr. Hawley. I am now, so we're----
    The Chairman. Well, I hate to tell you, though, it's not 
that I want to be excluded, but I would like to be able to pack 
so I don't require----
    Mr. Hawley. Right.
    The Chairman.--you to look at it.
    Mr. Hawley. Right.
    The Chairman. And I'm just traveling, I'm a frequent flier, 
we're all doing the same thing. Sometimes I throw part of my 
briefcase in my bag, OK? And it always is somewhere else other 
than where I put it. So I assume, for some reason or other, the 
briefcase and the buckles and what not might have attracted it. 
I don't know. But you ought to think about this. How can a 
frequent flier pack a bag so that it will not require opening. 
And you can just look at it and see it's clothes and 
toothbrushes and shaving cream and deodorant, OK. That's what 
we normally pack. I would hope you'd try.
    Mr. Principato, have you ever sat down with these people to 
try to work out some of these things you've talked about?
    Mr. Principato. We have. They've been very open to us and 
we've worked very closely with them both here in Washington and 
airport directors with Federal Security Directors.
    The Chairman. Well you made some principle suggestions that 
I thought made a lot of sense in terms of the equipment and how 
to bring about some long-term solutions. As we get into this 
frequent flier program, can you help work with TSA and provide 
frequent fliers a way to pack baggage so they and the baggage 
get on the plane without delay?
    Mr. Principato. We'll do that. We've, in fact, in the past 
have often helped and worked with TSA to get word out at 
Christmas time, for example, to get the word out to passengers 
not to pack wrapped packages and that kind of thing. So we've 
done that kind of thing before and we'll do that again. Yes.
    The Chairman. Isn't that something. You don't want wrapped 
packages in bags.
    Mr. Hawley. In carry on.
    Mr. Principato. Carry on, yes.
    The Chairman. Oh, on the carry on, I see.
    All right. When you talk about these in-line systems to 
give efficiency and reduce congestion, have you looked at how 
we might find extra money to invest to accelerate this process?
    Mr. Principato. Yes. I think if there's any technology that 
warrants a creative look at that it's this--it's in-line EDS. 
And actually many of our most active members, Jim Bennett from 
the Metropolitan Washington Airport Task Force, Lewis Miller 
from Tampa, Steve Grossman from Oakland are on a task force at 
TSA right now that meets fairly regularly. Kip can give you 
more information on how often they meet, but to come up with 
creative ways to finance moving forward on this in-line EDS 
which, from our perspective, if we could pick one thing that we 
ought to do, that would be the thing we ought to do.
    The Chairman. You mentioned this strain because of 
additional passengers, right?
    Mr. Principato. Yes.
    The Chairman. And I think you realize that too, Mr. Hawley.
    Mr. Hawley. Yes sir.
    The Chairman. Well, let me tell you, it's not just the 
passengers. We've got a whole new generation of planes coming 
now. I call it the mosquito fleet. They're the small planes 
that will carry 12+ passengers, not many more.
    Mr. Principato. Right.
    The Chairman. And there are new jets that are going to 
enter this. We think there are probably 40,000 coming in in the 
period you're talking about.
    Mr. Principato. Right.
    The Chairman. Now hopefully most of them will be over in 
the private aviation side, but some of them are going to become 
commuters. Now, I think we have to devise ways to get people on 
and off those planes quickly. And I do think one of the things 
we need to do is find ways to determine what Mr. Hawley's 
looking for in terms of things--I know you don't want to talk 
about the classification, how they look for it, but--and make 
certain people don't pack in their bags substances or objects 
that will look like these things. Have you looked at that?
    Mr. Principato. Well to--to paraphrase Kip, we are now. And 
we'll be working with him on that any way we can be helpful, 
we'll do that.
    The Chairman. Well, until we can get these new 
technologies, have you looked at the problem of this labor-
intensive screening process and the things that Ms. Berrick has 
mentioned?
    Mr. Principato. Well we have and the airports are the place 
where all this happens. And we see the evidence every day. 
Senator Ensign talked about the--the big crowds in the lobbies 
and the lines and all that at peak times, which is really 
evidence that the--that the system is too labor-intensive, not 
technology-intensive enough and that the balance needs to be--
needs to be changed going forward. And so that the ultimate 
goal, the checkpoint of the future as somebody talked about 
before would be that at those peak times the lobby would look 
much like it does now at 10 in the morning where there really 
isn't a lot going on. People could walk through the checkpoints 
and, I'm not smart enough to know what the technology would be, 
whether it's iris scanning or those pictures they're taking or 
whatever. But people could walk through the checkpoint almost 
without breaking stride, someday, and a system that's as secure 
as the one we're aiming for.
    The Chairman. Well, I'm going to get everybody mad at me. 
I've walked through an airport, it's got ceilings that are 90 
feet high, it's got modern facilities all the way along the 
side, everybody that's got some kind of a business that once 
they get everything they want in the business, but you go to 
the gate and guess what, you got a gate that looks just like it 
did when I came to the Senate in 1968. We've got to find some 
way to get those passengers through there quicker and the 
security factor is what's changed in terms of delay at getting 
through the gate.
    I would hope that we'd find some way to get your three 
agencies together and give us some ideas. Do we need to change 
laws? Do you need more money? Do you need more money sooner, 
Mr. Hawley? It's coming in every day, I don't know why you 
can't have it available to you every day through a trust fund 
theory. But--and Ms. Berrick, I appreciate what you're doing in 
terms of looking at this problem from the point of these people 
getting injured. That should have a lot to do with the number 
of people that won't stay--if they see their friends getting 
seriously injured because of too much weight in these bags.
    Ms. Berrick. That and another impact that it has that isn't 
readily apparent is the impact on training. When you have 
screeners that are injured, they're not available to staff the 
checkpoint, so you have a shortage of screeners as a result and 
they don't have time to take the required training that TSA 
requires of them. It has really been a challenge for the 
airports to just ensure that screeners get the training they 
need.
    The Chairman. What if I just put a little amendment in one 
of these bills and said that if you check in a bag that weighs 
more than 20 pounds you're going to pay an additional fee as a 
passenger? I mean, the weight of some of these bags, I see 
these guys and they weigh 250 pounds and they're lifting 100 
pounds and put it right over my head. My bag weighs 30 pounds, 
40 pounds. Why should we let people carry on bags that weigh 
more than that?
    Ms. Berrick. Senator, we haven't looked specifically at 
that, but I think all of these questions are good ones that 
should be considered.
    The Chairman. And that's got something to do with these 
injuries? The fact that these bags weigh too much?
    Ms. Berrick. That is correct for screeners related to 
checked baggage screening. Because the explosive detection 
systems are not integrated in-line with baggage conveyor 
systems, screeners or Transportation Security Officers have to 
physically carry these heavy bags, and that's what's causing a 
lot of these injuries.
    The Chairman. Well then why don't we charge the people that 
are bringing those heavy bags more money to screen them?
    Ms. Berrick. That's a good question----
    The Chairman. Have you made that suggestion?
    Ms. Berrick. No, we have not.
    The Chairman. Well, we'll have another hearing somewhere 
along the line. We want to keep up with this because, again, I 
think I speak for all the members up here, we get more comments 
about this system than anything else. And I'm sure you get 
tired of it Kip.
    Mr. Hawley. No.
    The Chairman. Well, we'll look forward to seeing you again 
soon. Thank you all very much.
    Mr. Hawley. Thank you.
    Ms. Berrick. Thank you.
    Mr. Principato. Thank you.
    [Whereupon at 11:49 a.m., the hearing was adjourned.]
                            A P P E N D I X

                     Coalition for Luggage Security

 Luggage Security--More Safety, Less Hassle for American Travelers: a 
                        Private Sector Solution

                         by Richard A. Altomare

Executive Summary
    The airline industry has been adversely affected not only by the 9/
11 terrorist attacks but also by billions of bags transported by the 
airline industry each year creating the potential for additional 
security breaches and continued lost revenue. Several airlines are 
either operating in bankruptcy status or are on the verge of bankruptcy 
or collapse. Increases in fuel prices and added security have further 
contributed costs to this troubled industry. Universal Express, a 
company that offers worldwide delivery of luggage to consumers, is 
offering a solution that will not only decrease the security costs 
associated with airline travel, but also has the potential to create 
revenue streams and save taxpayers billions of dollars.
    Coalition For Luggage Security and Universal Express suggests 
imposing a user fee for baggage transported for the passengers by the 
airlines. Passengers would be given a choice of paying a per bag fee 
for luggage or utilizing alternate methods to transport their luggage 
to and from its final destination. This will encourage passengers to 
either cut down on the number of bags they bring with them, or seek 
alternate sources for getting their bags to the final destination. 
Passengers have many options, including Luggage Express, which offers 
luggage collection from home, hotel or business and delivery to 
consumers' final destination at a competitive price. Various other 
companies offer similar services or have the ability to do so if the 
need were to arise. This solution will put the cost of screening on the 
passengers who utilize the service, rather than imposing the fee on all 
passengers, regardless of luggage.
    The Transportation Security Administration will spend $1.45 billion 
on baggage screening in 2005, as indicated on their 2006 budget. 
Universal Express' solution offers a savings projected between $550 
million and $1.2 billion, as a direct result of revenue from new 
available cargo space for commercial usage, refocusing personnel and 
equipment. This proposal will not only decrease costs, but will 
increase revenue by opening up cargo space for more commercial usage, 
it will allow more flight turnaround which will offer more 
predictability and constant revenue for the industry.
    Coalition For Luggage Security and Universal Express' proposal is a 
simplified, but focused on transportation of baggage for air 
passengers. It allows for faster check-in times, more on-time flights, 
and a dependable tracking solution for passengers. The solution will be 
cost effect to passengers, the airlines, all agencies interacting with 
the industry, and taxpayers.
The Problem
    Security gaps in the airline industry: In the aftermath of the 9/11 
terrorist attacks a need was exposed for greater security in the air 
transportation industry. Congress passed the Aviation and 
Transportation Security Act, which authorized security fees of up to 
$10 per round trip per passenger, to be used to generate funds to 
enhance the security of air travel, through better screening of all 
passengers and bags. To meet the security mandates, the Transportation 
Security Administration (TSA) has invested billions of dollars to 
supply more highly trained security agents and expensive metal and bomb 
detecting equipment at airport check points for passenger and baggage.
    Air travel security has improved, but it falls short of addressing 
a major source for the security problems and the associated costs--the 
baggage transported by the airlines for passengers. A security fee 
based on passengers only suffers from a shortcoming similar to the 
airline fare structures that fail to recognize the difference between 
passengers with and without bags. The current system gives passengers 
no incentive to limit the baggage they carry. Therefore airlines are 
spending additional money on baggage screening and transporting 
unrelated to passenger movement.

    Airline industry losses: Although the airline industry was 
deregulated almost 25 years ago, it has not demonstrated that it can 
distinguish the actual costs associated with baggage handling. The 
industry transports more than double the number of bags than 
passengers, incurring enormous labor and equipment cost. Most airlines 
do not track or adequately recover the cost for transporting baggage, 
continually pricing primarily on the purpose of travel--either leisure 
or business. The failure to distinguish the cost of transporting 
passengers with and without bags, even within these two groups, costs 
the industry billions of dollars in unrecoverable expenses and is 
contributing to security gaps in baggage transport.
    With approximately 1.5 billion bags transported last year by the 
domestic U.S. airlines, there are compelling reasons to consider the 
baggage-handling proposal presented by Coalition For Luggage Security 
and Universal Express, Inc.
Coalition For Luggage Security and Universal Express' Solution
    Coalition For Luggage Security and Universal Express propose 
separate security fees for passengers and baggage and an economical 
solution for transportation of baggage for air passengers. The proposed 
solution involves separating the baggage from its passengers and 
encouraging travelers to ship their bags prior to the departure date. 
This will provide for the bags to be transported in a similar manner as 
the 5 billion parcels shipped annually by businesses and consumers. The 
Coalition For Luggage Security and Universal Express' (USXP) proposal 
calls for utilizing the United States Postal Service and parcel 
carriers (UPS, FedEx, DHL and others) to handle some of the baggage 
that is currently handled by the airline industry. The proposal will 
allow airline passengers the option of carrying and checking bags at 
the airport, however they will incur a separate baggage charge for 
luggage transportation and a separate TSA baggage screening security 
fee.
    Enabling a framework of fees for passengers to choose how to handle 
baggage will allow for an overall economical solution for the 
transportation of baggage for air passengers. It will encourage use of 
less expensive means to meet security needs and transportation of bags.
    Rather than having to take the baggage through the check-in points 
and through the security lines, passengers would have a framework of 
choices for shipping their luggage in advance to reach their 
destination in time of their arrival at a lower price or carry bags to 
the airport for transporting by airlines at a premium price. While 
travelers can ship their bags directly with private carriers, the 
Coalition For Luggage Security and Universal Express' proposal would 
further enable the collective bargaining power of millions of travelers 
to be leveraged for lower cost, faster service, greater security via 
enhanced visibility, and exceptional customer service for delayed bags.
Benefits to Homeland Security--Return Security to the Transportation 
        Industry

  <bullet> Decline in passenger baggage reduces the prospect of 
        infiltration of terrorist devices onboard airplanes and reduces 
        the chances for security breaches. Managing security measures 
        to protect passengers becomes easier when baggage is separated 
        from its passengers.

  <bullet> Lack of information on the specific aircraft or trucks used 
        for baggage transportation makes the likelihood of terrorist 
        attacks more difficult.

Benefits to Homeland Security--Opportunities for Reduced Spending
    The Transportation Security Administration (TSA) protects the 
Nation's transportation systems to ensure freedom of movement for 
people and commerce.

  <bullet> For Fiscal Year 2006, the Homeland Security Appropriations 
        Bill appropriates $5.2 billion for 4 TSA programs as shown in 
        Table 1: Aviation Security, Surface Transportation Security, 
        Transportation Vetting and Credentialing and Transportation 
        Security Support. Of the total TSA budget, $4.6 billion is 
        dedicated to Aviation Security. (Source: Homeland Security 
        Appropriations Bill, 2006)

  <bullet> Currently, baggage screeners are limited to 45,000 at 441 
        domestic airports. (Source: TSA, 2005). The security bill for 
        2006 provides $3.6 billion to specifically meet the needs of 
        baggage screening in terms of workforce, screener training and 
        checkpoint support and maintenance. This proposal could result 
        in fewer bags being brought to airports, thereby limiting 
        additional expenses needed for screening.

  <bullet> Reduce demand for baggage screening: Too often, passengers 
        check in two large bags and carry on-board two more. Incurring 
        a charge for transporting bags will encourage flights, less 
        congestion and an easier flow. This could reduce security-
        related problems and costs, such as waiting time at the 
        security lines, and matching bags loaded on airplanes with 
        passengers boarding the aircraft. Under the current pricing 
        approach, either the business traveler is paying for the cost 
        of handling such bags or the airline is not recovering actual 
        expenses. A baggage security fee would reward passengers who 
        carry less, could enhance airline security, bring rationale to 
        airfares by eliminating cross subsidies, and improve flow of 
        passengers at airports.

  <bullet> Faster and enhanced security check-in: There is less 
        opportunity for an error in screening if there are fewer bags 
        being brought to the airport and lines at security checkpoints 
        will move faster.

        This would result in savings due to a reduction in screening 
        professionals needed at checkpoints.

    The savings could be either used to reduce the size of Federal 
expenditure or deployed at Amtrak train stations and bus terminals, to 
reduce terrorist threats in those arenas.

       Table 1--Homeland Security Appropriations for TSA--Summary
------------------------------------------------------------------------
                                                          Appropriations
                                                             for 2006
------------------------------------------------------------------------
Aviation Security                                               $4.98 B
    Screener Workforce & Equipment                               $3.6 B
    Aviation Direction & Enforcement                             $1.0 B
Surface Transportation Security                                   $32 M
Transportation Security Support                                  $545 M
------------------------------------------------------------------------
    Total                                                       $5.56 B
------------------------------------------------------------------------
Source: Homeland Security Appropriations Bill Fiscal Year 2006

Benefits to Airlines--Reduction in Costs
    Airlines should benefit from lower costs under the proposed 
approach. Specifically, the Coalition For Luggage Security and 
Universal Express' proposal for handling baggage could reduce the 
number of bags brought to the airports and transported by the airlines. 
Fewer bags handled by airlines could reduce operating costs as follows:

  <bullet> Coalition For Luggage Security and Universal Express 
        estimates that by enabling a user fee approach, airlines would 
        be able to save or refocus between $2.5 billion to $6 billion 
        of labor costs.

  <bullet> Airlines would be able to reduce the resources used for 
        baggage claims, delayed baggage delivery, and compensation for 
        the passenger's lost baggage.

  <bullet> Aircraft turnaround could be enhanced. Fewer checked-in bags 
        would provide faster loading of bags on the aircraft at origin 
        and transfer airports. Moreover, a per baggage security fee 
        applied to all bags could help limit carry-on items to only 
        those required for use in flight (such as briefcase, laptops, 
        etc.). This could result in faster boarding of passengers, less 
        damage to overhead bins, more flights from the same crew, and a 
        more efficient cost structure. More scheduled flights for the 
        domestic fleet could save an estimated $8 billion in operating 
        cost for the airline industry.

Benefit to Airlines--Increased Revenue Streams
    The Coalition For Luggage Security and Universal Express' proposal 
could also provide revenue streams for airlines from those bags 
checked-in at the airport and could produce additional space for 
revenue-generating air cargo.

  <bullet> If airlines charged a premium price (about 20 percent for 
        faster same day service) to passengers using traditional check-
        in over a Coalition For Luggage Security and Universal Express 
        baggage handling charge (using parcel carriers), this approach 
        could generate additional revenues between $15 and $27 billion 
        for the airlines, which represents about 12 percent to 21 
        percent of the annual revenues of airline industry. Currently, 
        the airline industry is running at operating losses of 
        approximately 1.4 billion. This is an improvement over the 10 
        billion in operation losses reported in 2001. Nevertheless the 
        airlines have lost more money than they have ever made. This 
        has resulted in retained loses of $7.6 billion and reduced 
        equity of 6 billion (Source: ATA Annual Airline Report, 2005). 
        The revenue generated through the Coalition For Luggage 
        Security and Universal Express' proposal could take the 
        airlines from present losses to an estimated profit of between 
        $14 billion to $26 billion.

  <bullet> Additional revenue up to $2 billion could be generated from 
        surcharges for more difficult and labor-intensive baggage items 
        (such as golf bags, skis, musical equipment, trade show 
        displays) and for certain white glove personalized services 
        (such as handling of baby strollers and car seats at departure 
        and arrival gates). For example, the new Denver airport was 
        built just a few years ago with a separate baggage handling 
        system for skis at an expense of several hundred million 
        dollars. This cost will be recovered from passengers traveling 
        with skis and not subsidized by other passengers.

  <bullet> The premium price for airlines to provide baggage 
        transportation is still considerably lower than the existing 
        costs of slower service by express parcel carriers. One-way 
        shipping charges for a typical 28 lb. bag via express carriers 
        would range between $90 and $130 for a next day express 
        service. Moreover, shipping charges for one-way overnight 
        transportation of two 70-pound bags via express carriers will 
        range from $300 to $500 depending on the distance. This 
        demonstrates the value of the baggage service presently 
        provided by the airlines even after implementing the baggage 
        charge recommended by this proposal.

  <bullet> Baggage already sent to the destination could result in 
        fewer cancellations of travel plans and airlines could gain 
        greater predictability of revenue in terms of seat occupancy 
        and increased load factor.

  <bullet> Reduced baggage handling implies that the air-cargo bellies 
        would have more space for handling cargo. Depending on the 
        decrease in the baggage handled and the increase in the cargo 
        handling capacity, airlines can generate additional revenue of 
        $4 billion to $11 billion annually.

  <bullet> A baggage security fee on passengers still opting to bring 
        bags to an airport would result in TSA directly recovering its 
        security cost from the passengers imposing the cost. This could 
        save billions of dollars paid to TSA by the airlines to cover 
        the cost of passenger and baggage screening.

  <bullet> Encourage more business travel: As the airlines recover 
        actual costs of baggage handling from passengers that generate 
        those bags, they will be able to avoid the huge disparity in 
        airfares between the business and leisure traveler. Relating 
        airfare and baggage fare to costs of transporting people and 
        bags respectively should create more rational pricing of 
        business fares, allowing more businesses to generate cost-
        effective trips, which would allow airlines to handle more 
        passengers and greater revenues for transporting more people 
        than bags.

Benefits to Passengers
    U.S. taxpayer money is being used for aviation security related to 
baggage screening alone. Moreover, a significant part of the TSA budget 
for passenger screening is associated with carry-on bags. The current 
system places additional cost on the airlines and non-direct cost on 
passengers. The Coalition For Luggage Security and Universal Express' 
proposal could generate many benefits for the traveling public:

  <bullet> More passengers will be encouraged to travel by air with a 
        greater confidence in the security of the transportation 
        network at airports.

  <bullet> Passengers will endure shorter lines and avoid the 
        unpleasant experience of TSA security guards going through 
        their luggage.

  <bullet> Less cancellations and increased load factor for airlines 
        could result in fares for business passengers and leisure 
        passengers traveling with fewer bags.

  <bullet> This proposal would help reduce security fees for some 
        travelers. Currently, the security fee of $2.50 per flight 
        segment with a maximum of $10 per round trip is assessed 
        against passengers, even though much of that cost is connected 
        with luggage. A separate security fee for bags would reduce the 
        security fee for passengers to cover just the expenses 
        associated with passenger screening.

           Table 2--Domestic Airline Passenger Tax Information
------------------------------------------------------------------------
        Tax Type ***               Rate             Unit of Taxation
------------------------------------------------------------------------
Federal Ticket Tax           7.5%              Domestic Airfare
Federal Flight Segment Tax   $3.20             Domestic Enplanement
Federal Security Surcharge   $3.00             Enplanement at U.S.
 *                                              Airport
Airport Passenger Facility   Up to $4.50       Enplanement at eligible
 Charge **                                      U.S. Airport
------------------------------------------------------------------------
* Domestic passengers are taxed $3.20 per Enplanement at a U.S. Airport
  with a regulation maximum of $8.00 for a round-trip.
** Passenger Facility Charges (PFC) are federally authorized but levied
  by local airport operators, who set the amounts (up to $4.50 per
  enplanement, to a maximum of two PFCs per one-way trip and four per
  journey).
*** The above is in addition to the airlines surrendering to TSA what
  they would have spent on their security operations: In 2005 that
  amounted to nearly \1/2\ billion dollars.


  <bullet> The Coalition For Luggage Security and Universal Express' 
        proposal would result in less time wasted in line for baggage 
        check-in and claim. The economic cost of additional time spent 
        on a roundtrip by the airline travelers is estimated in excess 
        of $50 billion for 2003.

  <bullet> Faster turnaround time for aircraft and more consistent on-
        time arrivals by airlines would help business travelers spend 
        less time at hotels away from home and more time with their 
        families and loved ones.

  <bullet> Provide better tracking and tracing of bags for enhanced 
        service: Passengers would gain greater knowledge of location of 
        baggage using e-mail and wireless technology to provide 
        estimated time of arrival (ETA) to passengers on baggage in-
        transit and already delivered at the destination address.

  <bullet> Lower rates for hotels and rental cars due to greater 
        predictability of occupancy and asset utilization.

  <bullet> Travel bookings over the Internet could be coupled with an 
        additional option of scheduling a pick-up for passenger 
        baggage, thereby making it easier for passengers to ship their 
        bags via Universal Express and other parcel carriers.

Benefits to American Public

  <bullet> A more robust and secure air and ground public 
        transportation industry would avoid further congestion on 
        highways and roads, would reduce air pollution, and would save 
        tax dollars for other national priorities. The potential for 
        saving time for travelers is immense.

  <bullet> The Federal Government could find itself in the position of 
        collecting interest on the funds made available to the airlines 
        by the Airline Stabilization Board, since this solution could 
        improve the airlines ability to pay down debt from increased 
        passenger traffic and revenue streams.

  <bullet> The American public would not have to share as much, if any 
        of the expense of funding airline security through general 
        taxes.

Benefits to Transportation Industry

  <bullet> Creates an opportunity for $17 billion to $28 billion in new 
        revenue and a several hundred thousand jobs for the 
        transportation industry.

  <bullet> The proposal would result in business for baggage handling 
        and transportation activities for 500 million bags. Parcel 
        carriers and the United States Postal Service are well-suited 
        to support this activity.

  <bullet> Parcel carriers would gain billions of dollars in new 
        revenue for providing pickup, inter-city transportation, and 
        delivery to final destination. These carriers would generate 
        thousands of new high paying jobs for union workers at USPS and 
        UPS and non-union workers at FedEx and DHL.

  <bullet> Even with the addition of 500 million bags per year to the 
        existing volume, the parcel carriers and the USPS already have 
        the network and ability to handle the volume without 
        compromising their high level of service, currently achieving 
        98 percent on-time performance versus the airline baggage 
        claims, i.e., American Airlines--33.2 percent, United Airlines 
        -14.6 percent, Delta Airlines--102.1 percent, Northwest 
        Airlines--80.5 percent, Continental Airlines--55.7 percent, 
        Southwest Airlines--39.2 percent, U.S. Airways--331.5 percent 
        (March 8, 2005 Report on Lost Luggage, Wall Street Journal).

  <bullet> Independent private postal store franchises belonging to a 
        national network, such as UniversalPost, NPC and Postal Annex, 
        would gain new business from handling bags from price sensitive 
        passengers who may prefer to perform the drop-off and pickup 
        services for an even lower baggage handling rate than Universal 
        Express and other service providers.

Benefit to Travel Industry

  <bullet> Hotels would experience lower cancellation rates and thus 
        achieve higher occupancy rates. This will create opportunity 
        for hotels to offer lower rates to travelers, thereby 
        offsetting the baggage transportation charges being paid by the 
        passengers.

  <bullet> Currently, there are no standards as to the type of bags 
        that can be checked-in or carried on board the aircraft. This 
        lack of standardization results in higher transportation cost 
        for the airlines, greater risk of the bags being damaged or 
        misrouted, and higher security risks. With TSA approved bags, 
        which can be sold in certain standard shapes and sizes with 
        imbedded Radio Frequency Identification (RFID) chips, there 
        could be greater security and visibility of bags. This could 
        generate new revenue and jobs for the luggage manufacturers and 
        retail stores.

  <bullet> Travel agencies would also gain from this new opportunity to 
        market baggage shipping service along with the traditional 
        ticket-booking services.

Coalition For Luggage Security and Universal Express' Role in this 
        Proposal

  <bullet> Coalition For Luggage Security and Universal Express 
        believes its business model can compete and provide for 
        collective bargaining power of passengers to be leveraged 
        against lower baggage shipping costs via parcel carriers, 
        enhanced security, and better overall travel experience for the 
        airline passengers.

  <bullet> It can provide seamless tracking and tracing capability 
        through an integrated system versus the current system that has 
        limited knowledge regarding the location of bags.

  <bullet> It can help to develop commercial technology for TSA to 
        consider in promoting baggage tickets that passengers can 
        purchase for baggage screening fees and airline charges for 
        carry-on and checked baggage in conjunction with booking of 
        passenger tickets.

  <bullet> It can help to develop and manage technology that would 
        integrate baggage shipping with travel bookings/hotel 
        reservations to promote advance baggage shipping.

  <bullet> Coalition For Luggage Security and Universal Express 
        believes it can facilitate and expedite the proposed approach 
        by combining the comprehensive capabilities of the following 
        companies and resources in various areas of luggage logistics:

        -- Extensive Industry Knowledge: Through a partnership with 
        industry consultants, Universal Express has access to one of 
        the most recognized parcel industry experts about various 
        shipping options for bags and at lowest prices with greatest 
        access to state-of-the-art tracking and tracing technology for 
        visibility by TSA and the passengers. This will ensure that the 
        passengers get baggage service at significantly reduced prices 
        than available on their own and with the high on-time delivery 
        service.

        -- Luggage Express: Luggage Express has built a business around 
        handling the transportation of passenger's luggage. Services 
        include pick-ups or drop-offs of luggage from a person's home 
        or business by Universal Express' UniversalPost Network 
        <SUP>TM</SUP> postal stations and through an extensive courier 
        network that includes Sky Net Worldwide Express. Luggage 
        Express is a member and sponsor of SATH (Society for Accessible 
        Traveler and Hospitality), is a preferred supplier for A.S.T.A. 
        (Association for Travel Agents), and a member of the N.C.A. 
        (National Concierge Association).

        -- Virtual Bellhop: Virtual Bellhop provides the smart 
        alternative to an archaic and burdensome multi-step process of 
        transporting baggage from doorstep to destination and back 
        again. Virtual Bellhop currently provides service throughout 
        the United States and some International destinations. Virtual 
        Bellhop currently has alliances with American Express, Fairmont 
        Hotel, Tumi, Hertz, and Sabre among others.

Benchmarking Against Success of Such a Model in Other Service 
        Industries
    Achieving discipline for baggage transportation will only occur 
through a financial incentive system, which express/parcel carriers 
have succeeded in doing so with their customers. UPS used to have less 
than ten special fees in the 1980s and a pricing structure which cross-
subsidized rates between various types of customers. The travel 
industry, and more specifically the airline industry, have precedents 
for surcharges and extra fees for certain non-basic and value added 
services. Examples include:

  <bullet> Itinerary change fee of up to $100 per ticket on restricted 
        fares.

  <bullet> Additional fee for in-flight meals, alcoholic drinks and 
        entertainment.

  <bullet> Extra charge for transporting live animals, excess baggage 
        by the airlines.

  <bullet> Special handling fee for unaccompanied children between 5 
        and 12 years of age.

  <bullet> Separate fee for child seats and navigation devices by 
        rental car companies.

  <bullet> Surcharge for telephone usage and other in-room amenities by 
        hotels.

    Successful implementation of such approaches by UPS and other 
parcel carriers has resulted in a pricing structure that provides for 
lower rates for basic shipping service with new surcharges for extra 
services (increased from 8 to 30) that are not essential to 
transportation of a parcel. Consequently, the shipping charges paid 
today by large customers are just 5 percent higher than in 1987, over 
15 years ago. As a result, the overall industry has benefited from the 
efficiencies brought about by more discriminate pricing.
    The Coalition For Luggage Security and Universal Express' proposal 
builds on these precedents and similar developments in other services 
such as parcel carriers, banks, and hospitals. Expansion of such 
surcharges for all but one carry-on bag would result in lower prices 
for base airfares, as illustrated by the parcel carrier industry. The 
passengers and consumers of airline service would greatly benefit.
Summary
    The events of 9/11 have led to a greater Federal role in ensuring 
the security of the air transportation network. Steps can be taken to 
simultaneously enhance the security of travelers from terrorist attacks 
and maintain the financial health of the airline industry. Coalition 
For Luggage Security and Universal Express proposes consideration for 
assessing security charges per bag and providing incentives for 
passengers to ship bags in advance via competitive parcel services.
    The passenger transportation industry can learn from the success of 
other industries. The experience of parcel carriers have with 
allocating revenue and cost to services provided is an example. The 
result will be improved air transport security, more convenient air 
travel for millions of passengers, and realignment of long overdue 
airline industry pricing for industry viability.
                                 ______
                                 
   Prepared Statement of Timothy D. Sparapani, Legislative Counsel, 
     American Civil Liberties Union, Washington Legislative Office
I. Introduction and Summary of Requests for Committee Action
    The Honorable Chairman Stevens and Ranking Member Inouye: the 
American Civil Liberties Union (ACLU), a nationwide non-partisan 
organization with hundreds of thousands of activists, members and 
affiliates in virtually every state, respectfully submits this 
testimony. We appreciate the opportunity to submit this written 
statement for the record of this hearing on physical screening of cargo 
and passengers. In the statement, the ACLU first lays out six 
principles of airline security, and then applies those to particular 
security measures, rejecting some and endorsing others.
    The ACLU urges committee members to embrace the concept that 
Americans can and must be both safe and free, and that physical 
screening technologies should be proven to be both effective and 
minimally intrusive to protect civil liberties, particularly privacy 
interests. Further, the ACLU urges Congress eliminate support for 
proposed airline passenger pre-screening programs such as Secure Flight 
and Registered Traveler in favor of more effective security measures. 
Certain minimally intrusive technologies focused on addressing a 
genuine security threat--such as explosives that are not discoverable 
through use of conventional metal detectors--are preferable to the 
fatally flawed approaches taken in such pre-screening programs.
    The ACLU believes that Congress should apply the following 
principles in deciding which proposals it would support to increase air 
travel safety:
Principles of Airline Security
  <bullet> New physical security technologies must be genuinely 
        effective, rather than creating a false sense of security.

  <bullet> The level of intrusion--the degree to which a proposed 
        measure invades privacy--should reflect the level of risk, and, 
        if both are effective, the least intrusive physical screening 
        technology or technique should always trump the more invasive 
        technology.

  <bullet> Given limited Homeland Security funding, Congress must 
        insist that those technologies that reduce the gravest threats 
        be implemented first.

  <bullet> The physical security technologies employed must be focused 
        on accomplishing the critical objective that authorizes their 
        application--increasing passenger aviation security. Neither 
        TSA's screening employees nor the machines they operate should 
        be diverted to search for illegal contraband that does not pose 
        a threat to aviation security.

  <bullet> Minimally intrusive physical screening technologies should 
        be implemented in lieu of ineffective passenger pre-screening 
        proposals, such as Secure Flight and Registered Traveler.

  <bullet> Security measures should be implemented in a non-
        discriminatory manner. Travelers should not be subjected to 
        intrusive searches or questioning based on race, ethnic origin, 
        country of origin, or religion. Rather, heightened security 
        measures should be employed where neutral criteria show that a 
        person poses a physical threat to aviation.

    Each of these principles is discussed in detail below.
II. Congress Must Insist that Each Technology TSA Adopts Satisfies the 
        Principles of Airline Security
A. Principle 1: Physical Screening Techniques and Technologies Must Be 
        Effective, or they Should Not be Utilized or Funded
    Congress should not allow TSA to fund or implement physical 
screening techniques and technologies that do not substantially advance 
passenger aviation security. The wisdom supporting this principle is 
obvious: funds to increase aviation security are limited, and any 
technique or technology must work and be substantially better than 
other alternatives to deserve some of the limited funds available. It 
therefore follows that before Congress invests in the purchase of 
technologies from private vendors, it must demand evidence and testing 
from neutral parties that the technologies have a great likelihood of 
success--i.e., that they prevent terrorists from bringing explosives 
and weapons onto planes. Technologies with such low probabilities for 
success unnecessarily infringe travelers' personal privacy and could 
harm civil liberties, while doing little to increase passenger aviation 
security. The ACLU believes that the American people deserve real 
security if they are to accept administrative searches in the form of 
physical screening, not just the purchase of machines that provide a 
false sense of security.
B. Principle 2: The Least Intrusive Techniques and Technologies are 
        More Likely to Withstand Constitutional Scrutiny
    Because the application of administrative searches for aviation 
security burdens the constitutionally protected right to privacy, 
Congress must insist that all new physical screening techniques and 
technologies authorized be the least intrusive necessary to accomplish 
the screening of aviation passengers, their bags, and cargo. The 
administrative search exceptions to the Fourth Amendment demand that 
where Congress has a choice between two equally effective technologies, 
it must only authorize the technology that will least burden the 
traveling public.
C. Principle 3: Prioritize the Techniques and Technologies Targeted at 
        the Gravest Threats
    Focus on the greatest threats first. As TSA Director Kip Hawley has 
stated, since the commercial airplanes hardened their cockpit doors and 
terrorists have lost the element of surprise, it is more likely that 
any terrorists would attempt to blow up a plane with explosives than it 
is that they will try to hijack a plane to use as a missile. Thus, the 
greatest threat to aviation security is likely to be from explosives, 
which cannot be addressed through passenger pre-screening programs. As 
a result, searches for conventional weapons, while important, are less 
vital to aviation security than insisting that 100 percent of cargo, 
luggage, and carry-on bags are screened for explosives. Through the 
power of the purse, Congress should help TSA to prioritize its efforts 
to deal with this threat and direct its energies to implement effective 
technologies that accomplish this goal first.
D. Principle 4: Techniques and Technologies that Impact Personal 
        Privacy Must be Narrowly Tailored to Accomplish the Sole 
        Objective of Improving Passenger Aviation Security
    Because physical search techniques and technologies used in 
domestic air travel affect privacy interests protected by the Fourth 
Amendment, TSA may only deploy and Congress should only authorize those 
techniques and technologies that are minimally intrusive to achieve the 
goal of increasing passenger aviation security. Repeated tests by 
various Federal agencies after 9/11 demonstrate that screeners 
regularly fail to identify weapons and explosives, reminding us that 
screeners and screening technologies need to remain focused on their 
core mission: stopping explosives, weapons and their components from 
being brought or shipped on planes. The ACLU believes that the flying 
public expects and deserves such a focus, particularly since other 
Federal, state and local government agencies have other means of 
searching for and identifying contraband.
E. Principle 5: Effective and Minimally Intrusive Physical Screening 
        Technologies Should be Implemented While Proposed Passenger 
        Prescreening Programs, Such as Secure Flight and Registered 
        Traveler, Should be Eliminated
    Passenger prescreening programs are not effective, in that they 
treat everyone as a suspect, nor are they minimally intrusive because 
they require review of substantial amounts of personally identifiable 
information to assign passengers a risk assessment. TSA's focus on 
proposed passenger prescreening programs has diverted scarce resources 
since 9/11 from those techniques and technologies that could lessen the 
gravest threat to passenger aviation security by detecting explosives 
brought on or shipped in planes. This diversion has been costly because 
proposed prescreening programs--such as Secure Flight and Registered 
Traveler, with their myriad of constitutional, technological, security 
and efficiency infirmities--are only slightly closer to implementation 
than when they were first proposed shortly after September 11, 2001. 
Yet, as has been made clear by the U.S. Government Accountability 
Office and Congressional hearings, these programs do not substantially 
improve passenger aviation security. Further, they are prohibitively 
expensive and privacy invasive. More importantly, TSA's insistence on 
moving forward with passenger prescreening likely has led to TSA's 
failure to implement robust, narrowly tailored explosives and weapons 
screening of all carry-on bags, luggage, and cargo. Thus, this 
divergence of attention and resources has been, and continues to be, a 
potentially dangerous one.
    The ACLU once again urges Congress to redirect TSA's efforts toward 
implementing effective and minimally intrusive physical screening 
technologies while eliminating authorization for passenger prescreening 
programs and shifting funding to purchase those narrowly-tailored 
physical screening technologies. The result will surely be speedier and 
more certain improvements in passenger aviation security.
F. Principle 6: Physical Screening Techniques and Technologies May Not 
        Be Applied in a Discriminatory Matter
    Longstanding constitutional principles require that no 
administrative searches, either by technique or technology, be applied 
in a discriminatory matter. The ACLU opposes the use of profiles based 
on race, religion, ethnicity, or country of origin. Profiles can be 
used in lieu of evidence to subject some passengers to heightened 
scrutiny. The ACLU opposes the use of profiles based on these factors 
because they are not only unfair, but are an ineffective means of 
determining who may be a terrorist. It is unconstitutional to single 
out any person because of their race, religion, country of origin or 
ethnicity. It is, however, permissible to, for example, use race in 
conjunction with other information, if race is one of several 
characteristics used to describe a particular suspect. The Israeli 
government discovered that shortly after it devised a profile of the 
likely terrorist based on race, gender and age, that the terrorist 
organizations it was trying to stop changed the profile of the suicide 
bomber. Thus discriminatory profiling techniques to select individuals 
for secondary screening actually may create a security weakness by 
focusing too few security screening resources on travelers who do not 
fit the profile. The ACLU points out that America's sophisticated, 
patient enemies may well seek to exploit such a discriminatory scheme.
III. Techniques and Technologies that Fail to Satisfy these Principles 
        Should Not Be Authorized or Funded by Congress
    Some physical screening techniques and technologies under 
consideration deserve further scrutiny, in part because they fail to 
satisfy one or more of the principles of good airline security. Some, 
discussed below, are ineffective or inefficient. Congress should block 
authorization or funding of these programs unless and until they can be 
modified to meet the principles and thereby lessen the threat they pose 
to personal privacy and civil liberties.
A. Pat-Down Searches Must Not Lead to Groping
    The ACLU has long been concerned about the increased use of pat-
down searches post-9/11, but we recognize that secondary screening--
perhaps including the use of pat-downs--may be acceptable when a metal 
or explosives detection device suggests the presence of a weapon or 
explosives. Thus, the level of intrusion would be keyed to a risk. Pat-
down searches in the absence of other evidence are unnecessarily 
invasive. Further, TSA's use of pat-downs have led to substantial 
numbers of complaints about groping of passengers breasts, buttocks, 
and genitalia. Congress must continue to monitor this situation to 
ensure that pat-downs only occur when necessary.
B. Biometric Identifiers Should be Used Only for Airport Personnel and 
        Not for the General Traveling Public
    There have been proposals to use biometric techniques to accurately 
identify airport personnel who have access to sensitive areas. The ACLU 
does not oppose using biometric identification techniques with a proven 
record of accuracy--such as iris scans or digital fingerprints--to 
identify and authenticate persons working in secured areas of airports. 
The error rate for those technologies is very low, and using the 
technology could increase security without compromising civil 
liberties. This represents a good application of modern technology. 
Biometric identifiers collected from airport and airline workers should 
not, however, be used for unrelated purposes.
    The ACLU does, however, oppose using this technology for all 
airline passengers because it is so intrusive. To be effective, the 
government would have to have the iris scan or digital fingerprint of 
every person living in the United States and probably that of anyone 
traveling through America's airways. This would be the high-tech 
equivalent of creating a National ID system. Doing so would raise grave 
privacy concerns and, furthermore, it would be unrealistic to expect 
that high quality images could be easily obtained and maintained on the 
tens of million of Americans who travel by air.
C. Facial Recognition Is Not Effective
    Not every technological solution makes sense and will enhance 
safety. For example, many have proposed using facial recognition 
technology for several uses in airports. But this modern technology is 
notoriously inaccurate. One government study, for example, showed a 43 
percent error rate of false negatives--a failure to properly identify 
posed photographs of the same person taken 18 months apart. In other 
words, persons who should have been matched to their own photo were 
not. Put another way, if Osama Bin Laden were to stare in the camera at 
one of our airports, the technology would have no more chance than a 
coin toss of properly identifying him.
    Some have also proposed using video surveillance to scan crowds at 
airports and compare those images with photographic data bases. Facial 
recognition technology is even less accurate in those circumstances, 
and its use will not only create privacy problems for law-abiding 
passengers, but also will create a false sense of security. Terrorists 
will not line up to be photographed for security data bases and will 
quickly learn the techniques for obscuring their identity. There is no 
reason to jeopardize our privacy for measures that will create a false 
sense of security.
D. X-Ray Backscatter Is Highly Invasive of Personal Privacy and Is Not 
        Narrowly Tailored
    There are some security measures that are extremely intrusive and 
should only be used when there is good cause to suspect that an 
individual is a security risk. Low-dose X-ray backscatter machines--
such as those offered by Rapiscan, Inc. and AS & E--are used by the 
Customs Service in some airports to search for drugs and other 
contraband. The ACLU is concerned that these searches--akin to 
Superman's X-ray vision--have been conducted without good cause and are 
based on profiles that are racially discriminatory. In addition, these 
machines are capable of projecting a high-resolution image of a 
passenger's naked body.
    Congress should prohibit X-ray backscatter's use as part of a 
routine screening procedure. Passengers expect privacy underneath their 
clothing and should not be required to display highly personal details 
of their bodies--such as evidence of mastectomies, colostomy 
appliances, penile implants, catheter tubes, and the size of their 
breasts or genitals--as a prerequisite to boarding a plane. However, X-
ray backscatter technology has tremendous potential to screen carry-on 
bags, luggage, and cargo.
    As discussed above, however, X-ray backscatter technology's routine 
use likely will lead to increased passenger screening delays and will 
certainly require subsequent searches for numerous passengers. For 
example, an image projected by X-ray backscatter that may look like a 
concealed gun or explosive device carried on a person will require TSA 
screeners to put the person through: (a) a conventional metal detector; 
(b) an explosives detection ``puffer'' machine; or (c) both. Further, 
even if an object is identified, TSA screeners will then need to pat 
the individual in question down and likely ask them to remove their 
clothing to verify what the object in question may be. Even the 
presence of a seemingly innocuously shaped item, such as a prosthetic 
device or implant, will require subsequent (and potentially 
humiliating) verification. Thus, X-ray backscatter requires a 
tremendous invasion of privacy with little speed or efficiency gains. 
The ACLU, therefore, recommends that Congress not authorize and fund 
TSA's purchase of X-ray backscatter machines.
E. Behavioral Profiling Should Not be Utilized in a Discriminatory 
        Manner, Nor Should It Supplant Minimally Intrusive Physical 
        Screening
    Behavioral patterning to select passengers for heightened security 
is troublesome because it gives so much discretion to screeners that 
often result in racial profiling. Congress should not authorize TSA 
screeners to employ secondary screening simply because someone is 
sweating or wearing a jacket. Oftentimes, people must run to make a 
flight, and others are chilled easily by air conditioning. Similarly, 
it will be difficult to train TSA screeners to effectively distinguish 
between those who--because of their cultural experiences--are less 
likely to give straightforward answers to authority figures such as TSA 
screeners wearing uniforms, and those who may be intending to carry out 
an attack. Such behavioral profiling may be only marginally helpful in 
identifying someone who poses a threat, but is a practice that is 
certainly likely to lead to abuse.
    The ACLU is not suggesting that TSA screeners ignore their own eyes 
and instincts when someone is behaving suspiciously. However, the 
application of behavioral profiling in an environment--commercial air 
travel--that is highly stressful for many even frequent, experienced, 
business travelers, must be tempered with concerns for constitutional 
norms to prevent unnecessary erosions of civil liberties and personal 
privacy. Rather, any searches or questioning should be based on neutral 
criteria.
F. Explosives Detection Devices Should Be Implemented Only When False 
        Positive Signals Can Be Minimized
    The use of particle sniffers that are tuned to detect molecular 
traces of explosives (puffer machines) hold out the potential for 
searches that preserve the privacy and dignity of passengers far more 
than pat-downs, physical searches, and backscatter X-ray scans. If 
utilized, the ACLU believes they should remain focused on the 
legitimate administrative purpose of protecting airline safety (as 
opposed to looking for contraband, such as drugs), and that system 
should be implemented to minimize false positives and handle them in a 
way that preserves passengers' dignity. It has been reported that 
molecular ``cousins'' of certain explosives that could trigger many 
false alarms may include such substances as heart medicine and lawn 
fertilizers. This poses the question: how will those individuals who 
signal a false alarm be treated, both at that moment and in the future? 
The ACLU recommends that Congress exercise oversight over the 
implementation of such ``puffer'' machines to ensure that the rate of 
false positives is not unacceptably high so that passengers are given 
an efficient, non-intrusive means of resolving concerns about a false 
signal. This is particularly important where a search by TSA screeners 
shows that neither the passenger nor their carry-on bags and luggage 
are concealing a bomb or bomb-making components. Congress must insist 
that if TSA employs puffer machines, it also must set up fair 
procedures to rapidly ensure that innocent passengers who raise false 
positives can reach their destination.
IV. Conclusion
    The ACLU recommends that Congress apply the six principles 
articulated above when considering whether to authorize and fund 
physical screening techniques and technologies. Those techniques and 
technologies that do not demonstrably improve aviation security should 
be rejected. Among the others, the least intrusive means available for 
accomplishing the goal of reducing the gravest threats to aviation 
security should be implemented. In recommending Congress' application 
of these principles, the ACLU supports the use of effective, narrowly 
tailored security measures to enhance airport safety that have minimal 
risk to privacy, maximum-security benefit, and reflect the level of 
risk. The ACLU believes that increased safety need not come at the 
expense of civil liberties. The ACLU has suggested several measures, 
such as: increased training for security personnel; heightened 
screening of airline and airport security personnel; strict control of 
secured areas of airports; measures to improve security at foreign 
airports; a neutral entity to which passengers can report lax security 
procedures; luggage matching of all passengers; and the screening of 
all luggage, carry-on bags and cargo for explosives and weapons, which 
would satisfy the principles articulated.
                                 ______
                                 
 Prepared Statement of Thomas Ripp, President, Security and Detection 
               Systems Division, L-3 Communications, Inc.
    Mr. Chairman and members of the Committee,
    I am Tom Ripp, President of L-3 Communications' Security and 
Detection Systems Division. I am pleased to have the opportunity to 
submit this statement for the record to highlight some of the 
approaches we believe will assist in strengthening security for the 
American traveling public while improving efficiency and reducing 
costs. Before describing the security improvements we believe can and 
should be made, I would like to briefly discuss the genesis of L-3 
Communications, and our involvement in the security field.
    L-3 Communications, Inc., was formed in 1997 as a spin-off of 
Lockheed-Martin and, through a series of strategic acquisitions and 
product development, has quickly become a leader in supplying defense 
contractors. In the civil aviation arena, L-3 produces and sells both 
TCAS, which is an airborne collision avoidance system, and digital 
flight data recorders, commonly referred to as black boxes.'' Our 
security division has been involved in aviation security since the 
company's inception and successfully developed the eXaminer3DX6000, an 
explosive detection system (EDS) based on computer tomography, that was 
certified by the FAA in 1998. It was the second type of EDS certified 
by the agency for operational deployment at airports. Since that time, 
we have continued to refine and upgrade our EDS, having made 
significant strides in detection capabilities, speed, and reliability.
    Detection capabilities have been enhanced to achieve both 100 
percent and 75 percent TSA certification levels without negative impact 
to operational throughput or false alarm rates. Continued reliability 
improvements have resulted in system availability of 99 percent for in-
line systems and 98 percent for stand-alone systems. In addition, L-3 
was the first to develop a full multiplex network capability that 
provides for a central screening operation, which allows for optimum 
utilization of the screener workforce. Today, more than 625 L-3 EDS 
units are found at airports throughout the U.S. with approximately 425 
as stand-alone units and the remaining units deployed as in-line 
configurations. The L-3 system is well suited for in-line installations 
and was the first in the U.S. to be integrated into an in-line system 
in 2002 in Boston. Also, the eXaminer 3DX has been very successful in 
the competitive international markets winning 100 percent of the 
competitions for certified EDS systems in 2005. Many of the largest 
foreign airports such as London, Singapore and Beijing have selected L-
3 to provide their security screening solutions.
    Although we have achieved considerable success in making 
improvements to our EDS systems, technology continues to evolve and we 
recognize that more gains can continue to be made. We are currently 
working on integration of technologies with current checked baggage 
products to enhance both detection capabilities as well as reduce false 
alarm rates in order to increase operational throughput and further 
reduce manpower requirements. We believe it is critically important 
that TSA do more to fund and promote work on next generation EDS 
systems that will address the needs from a systems solution. The 
ability to evaluate the combination of systems and technologies, which 
could optimize detection and throughput performance and reduce manpower 
requirements cost-effectively, could provide improved solutions in the 
near-term. Our industry continues sensor-based development efforts, 
which are considered promising for the longer-term.
    Despite significant cost and effort, today's aviation passenger and 
baggage screening systems remain somewhat of a patchwork approach to 
security that is increasingly costly to maintain, inefficient for 
passengers, labor-intensive, wasteful of airport terminal space that is 
becoming evermore congested, and has clear limitations on what can 
reasonably be expected to be detected. With today's passenger levels 
projected to increase dramatically over the next several years, 
something needs to be done to avoid potential gridlock in our 
terminals. The approaches we recommend that this committee consider are 
intended to address these shortcomings. In aggregate, we are confident 
that, if adopted, they will generate significant cost-savings, speed up 
screening, increase detection capabilities, and free-up airport 
terminal space that will become increasingly crowded as passenger 
levels continue to grow.
    EDS systems were introduced at our Nation's airports about a decade 
ago, and a considerable effort was made to increase the numbers 
following the events of 9/11. Many of these EDS systems are beginning 
to age. Consequently, they are becoming more expensive to maintain and 
their capabilities do not match what is available now. Therefore, we 
recommend that TSA undertake three actions: (1) replace expired 
manufacturer's warranties with new warranties, (2) refurbish existing 
EDS with software and hardware modifications to improve their 
detection, throughput speed, and reliability, and (3) acquire 
additional, new certified EDS systems for in-line installations at 
additional airports.
    There are considerable benefits that can be achieved by following 
these recommendations.
    First, replacing warranties will provide TSA with known costs to 
maintain its systems and ensure that covered systems will receive 
pertinent software and hardware upgrades to keep pace with improvements 
that are made for new systems. It can also help control TSA staffing 
since L-3, for example, has approximately 175 field technicians 
available to maintain and service equipment and a call center that 
operates around the clock. Second, the refurbishment of existing EDS 
systems can be done at approximately \1/2\ the cost of acquiring new 
systems. Refurbished systems can then be redeployed, at lesser cost, to 
new in-line configurations or can be installed as stand-alone systems 
at medium and smaller airports that currently only have trace 
detection. Trace detection systems are slower than EDS and have less 
detection capabilities, meaning that even with their reduced detection 
abilities they will simply be unable to accommodate the passenger 
growth beginning to occur at these airports. Further, they are labor-
intensive. Replacing trace detection equipment with refurbished EDS 
units will increase security, increase passenger throughput, and reduce 
considerably the number of screeners required. Third, it is widely 
acknowledged that in-line EDS configurations are far preferable to 
stand-alone systems at the larger airports from perspectives of space, 
efficiency, and improved detection.
    Unfortunately, the proposed Fiscal Year 2007 budget proposal falls 
far short of the funding needed to make progress in installing in-line 
EDS systems. The funding shortfall holds true for both system 
acquisition and for the costs of installing systems in in-line 
configurations. We believe it is critical that TSA and the Congress 
direct considerably more funding toward the acquisition of new EDS 
units which, when supplemented by less costly, refurbished EDS units, 
can help address the considerable gap that exists in installing in-line 
configurations at 100 of the Nation's larger airports. Additional 
funding is also required to install these EDS systems in in-line 
configurations. Experience shows that, in light of cost-savings 
achieved, installation of an in-line EDS system literally pays for 
itself in less than 2 years. The sooner we attain the goal of 
outfitting the large airports with in-line EDS, the sooner we achieve 
the additional security they offer and the sooner TSA can begin to save 
significant recurring costs.
    The current approach to screening passengers and carry-on baggage 
has significant inefficiencies, is labor-intensive, and has relatively 
constrained detection capabilities. In addition, the present 
methodology of deploying individual technologies as they emerge 
continues to reduce the overall operational efficiency of checkpoints 
and oftentimes proves a source of frustration to the traveling public 
just as they commence their trips. We, therefore, recommend that work 
be undertaken to develop and pilot an advanced screening checkpoint, 
which would serve as a platform for additional sensors (including 
biometrics) as technologies mature. We envision that the checkpoint 
would employ automated carry-on baggage screening for weapons and 
explosive detection and a passenger imaging portal that would identify 
concealed threats and explosives carried by a passenger. These multi-
purpose checkpoint systems would be networked together to a centralized 
screening room that will improve screener performance and reduce the 
manpower currently required at the checkpoint.
    The advanced checkpoint solution would enhance threat detection for 
both personnel and carry-on baggage. It would also improve throughput 
to an estimated 300+ passengers per hour, eliminate the need for 
removal of personal items from carry-on baggage, eliminate the need for 
separate shoe scanning technology, provide a universally fast and 
efficient screening process, and dramatically reduce TSA checkpoint 
operator staffing requirements by up to 40 percent.
    We also recommend additional efforts to increase the use of 
technology in the screening of air cargo. While work continues to 
refine and improve the known shipper program, we believe that TSA 
should begin to procure and deploy existing automated explosive 
screening technology that has already been tested, certified, and 
piloted for break bulk air cargo screening. These systems could be used 
to inspect high risk cargo. Additionally, work should be undertaken on 
the development of next generation pallet screening capabilities. 
Employment of such technology can help address some of the concerns 
that have been identified in current cargo screening programs and will 
enhance security.
    We appreciate having the opportunity to share our views with the 
Committee and look forward to working with you to help identify ways to 
improve the security of the American traveling public.
                                 ______
                                 
Prepared Statement of Hasbrouck B. Miller, Vice President of Government 
                       Affairs, Smiths Detection
Introduction
    Chairman Stevens, Ranking Member Inouye, and distinguished members 
of the Committee, my name is Hasbrouck B. Miller and I am Vice 
President of Government Affairs for Smiths Detection. On behalf of 
Smiths Detection, thank you for the opportunity to submit this written 
testimony for the record at today's hearing on aviation security and 
the physical screening of airline passengers.
    Smiths Detection, based in Pine Brook, New Jersey (with offices in 
Connecticut, Maryland and Rhode Island, among other locations) is the 
world's market leader in creating security solutions for transportation 
security checkpoints at airports, ports and borders and other points of 
entry. Our products are used here in the Washington, DC area at Dulles 
Airport, Reagan National Airport, Washington Metropolitan Area Transit 
Authority (Metro), and in Congress. Nearly every Federal agency is our 
customer including the Department of Homeland Security (DHS), the 
United States Armed Forces, the Federal Bureau of Investigation, the 
Department of State, and the Federal Protective Service. Around the 
world, countries such as Israel, the U.K., Canada, Argentina, Hungary, 
Spain, U.A.E., Japan, Italy, France and China use our forward-looking, 
highly sensitive security systems to detect explosives, weapons, 
chemicals, biological agents, and contraband.
    What will an airport security checkpoint look like next year, 5 
years from now, or even 10 years down the road? Will the checkpoint be 
positioned even further out from the secure area? Will it require 
multiple layers of screening? Will it be merged with other modes of 
transportation? Will all screening be done remotely with no operators 
onsite? Will carry on luggage be screened with the person? Will 
passengers travel with biometric passports? Will passengers be screened 
only at checkpoints, or will they be screened throughout the airport 
terminal? How will general surveillance technologies complement 
checkpoint technologies? These are just some of the questions that our 
R&D team works on every day. Explosive detection portals, biometrics 
technologies, wireless remote monitoring systems, and other similar 
technologies seemed more apt for science fiction films a few years ago. 
Today, we innovate and deploy those technologies to compliment existing 
screening approaches to increase passenger safety. We agree with 
Assistant Secretary Hawley's statement at the February 9, 2006 hearing 
before this committee that the Transportation Security Administration 
(TSA) must implement a ``comprehensive, multi-layered aviation security 
network'' and Smiths Detection has always worked to promote such a 
vision--a vision that would combine different aspects of explosives 
detection technologies and monitoring systems that can provide the 
traveling public the ease and efficiencies of flying while still 
maintaining an adequate measure of security.
    Looking forward to the functionality of the next generation people-
screening checkpoint, Smiths Detection is pursuing a number of clear 
objectives. The primary objectives of cost reduction, automation and 
sensor fusion are the driving forces in developing equipment for future 
passenger screening:

  <bullet> Cost Reduction--An aggressive program of cost reduction is 
        underway to reduce the cost of screening an airport passenger. 
        This is being addressed from both the equipment cost aspects 
        and also the operational requirements to reduce the need for 
        operator attendance. The goal is to produce a low-cost 
        automatic detection system for passenger screening.

  <bullet> Automation--The use of built-in intelligence in screening 
        systems is essential to achieving a cost effective and fast 
        throughput checkpoint. Automatic detection development will be 
        based on existing experience and IP in X-Ray screening to 
        produce fast-transit, secure passenger checkpoints.

  <bullet> Sensor Fusion--Several approaches to screening and 
        monitoring passengers are currently proposed. These use diverse 
        technologies and are often complimentary in how and what they 
        detect. A single station passenger screen that combines a 
        variety of checks such as metal and trace detection, imaging, 
        biometrics and passenger ID tracking is an objective for Smiths 
        Detection as the technologies mature and become cost effective.

    In a typical ``concept of operation,'' the passenger walks through 
a secure area that detects explosives and metal objects simultaneously 
while instantaneously either identifying the passenger through 
biometrics or checks the passenger with a fully integrated registered 
traveler data base (or both). All of this is done without disrupting 
the flow of commerce or changing the footprint of existing checkpoints.
    Today, we welcome the opportunity to partner with the U.S. 
Government and outline our technological innovations so we may continue 
to assist this committee, Congress, TSA, DHS, and the Administration to 
meet the challenges we face as a nation in protecting aviation 
passengers from terrorist threats. We strongly believe that there must 
be a partnership between the government and industry, with the 
government clearly promulgating its vision for the future and leading 
the private sector to that vision.
    We have come a long way since the tragic events of 9/11 at our 
security screening points. Nevertheless, we would all agree that more 
work needs to be done. Just last week, al-Qaida conspirator Zacarias 
Moussaoui admitted his alleged plot with ``shoe bomber'' Richard Reid 
to hijack a fifth airliner on September 11, 2001, and fly it into the 
White House. Fortunately, we know that did not occur. But, in 2003, 
Reid got through a security point with explosives and incendiaries to 
attempt to create a bomb in his shoe. Also, last week, the Government 
Accountability Office revealed that two undercover agents carried small 
amounts of radio active material past border check points in two 
states--Washington and Texas--enough to make ``dirty bombs.'' The 
undercover agents apparently used false documents to persuade border 
control agents to permit their entry. Next generation technology must 
be the shield against these real threats. Through innovative 
technologies, and a comprehensive and multi-layered approach, we 
believe the technologies that we are working on and deploying 
worldwide, coupled with existing approaches, will ensure more safety 
for the flying public when they travel.
Next Generation Technology To Improve Passenger Checkpoint Security
    We commend TSA on its work. TSA has the difficult task of deploying 
technologies that effectively provide adequate aviation security 
measures while not disrupting the flow of commerce, and must do so 
within budgetary constraints. Smiths Detection has over the years, and 
continues to be, true partners with TSA as we work together to develop 
products that are both useful and efficient, and consistent with 
Congress and TSA's stated goals.
    Although Smiths Detection manufactures dozens of security-oriented 
solutions that improve passenger screening, these written remarks will 
focus on five particular areas:

  <bullet> Biometrics--Biometrics technologies that enable 
        fingerprints, palm prints, and other identifiers such as iris 
        scans to be screened, and crossmatched with wireless data 
        bases, eliminating human error in identifications process and 
        expediting the ID process in the future.

  <bullet> Software Systems--Software systems that allow airport 
        screeners to connect with first responders and others that 
        could facilitate monitoring of airport travelers with sensors 
        and video cameras connected to remote viewing and recording 
        stations.

  <bullet> Millimeter Wave Cameras--Cameras that detect explosives 
        through detection of differences in energy emitted by the human 
        body.

  <bullet> Document Scanners--Technologies that permit passports and 
        other identification to be scanned for trace amounts of 
        explosives; and

  <bullet> Trace Detection Walk Through Portals--A walk-through tunnel 
        that detects the presence of explosives on the bodies of 
        passengers and which has been deployed at hundreds of airports 
        in the United States, and is currently in operation at other 
        security checkpoints throughout the world.

    We believe that some aspect of each of these technologies will be 
used in the next generation people-screening checkpoint.
1. Biometrics
    Biometrics is one of the cutting-edge technologies for checkpoints 
and other types of screening that we believe will be part of the next 
generation solutions. As a leading global provider of biometric 
solutions, Smiths Detection sees that biometrics solutions have 
multiple applications in the national security and public safety 
arenas. Biometrics technology was used at the 2006 Winter Olympic Games 
in Italy and the 2004 Summer Games in Greece, and is certainly 
applicable to airport security. Smiths Detection's experience is that 
innovative biometrics technology can be used to conduct quick iris 
scans, or screen a person's fingerprints (or other ``live'' data), at 
access points that is then compared with stored data. The biometric 
features are then used to permit accredited persons to enter through 
check points.
    In the future at airports, we believe biometric scanners may be 
useful for:

  <bullet> Physical Access Control--High security areas and buildings 
        can be protected with physical access control systems. An iris 
        scan or an actual print can be compared against information on 
        your ID badge or against a larger data base for one to many 
        matching.

  <bullet> Mobile Security--With wireless products, roving or random ID 
        checks can be carried out by security guards, police, the 
        military and others to match the data captured by either iris 
        scans or fingerprints in the field against a secured or 
        registered traveler data base.

  <bullet> ID Management --With ID management technology, airports can 
        manage who comes and goes from their facilities. By tracking a 
        visitor with an iris scan or with fingerprints, there is no 
        room for human error and security can be warned when the wrong 
        person comes to visit.

2. Software Technology Systems for Command Centers and First Responders
    Another concept that fits within a comprehensive, multi-layered 
approach is the integration of software systems linked to various 
technologies within a security checkpoint and beyond. These software 
systems network large numbers of sensors and video cameras with 
connections to remote viewing and recording stations. Such networks 
form the backbone for command and control capabilities that provide 
security decision-makers with the situational understanding so vital to 
ensuring the public's safety. Technology could allow us to build a 
wireless broadband network in our airports that could distribute text, 
voice, data and video to first responders and local law enforcement in 
real-time (if need be), or other points of control within the airport 
boundaries. With such a network, users would be able to communicate 
securely via Internet Protocol on standard PCs, laptops and handheld 
devices.
    In the airport environment, for example, we envision video encoder/
server/recorder systems working together with various physical security 
solutions to ensure a scalable and secure management platform for 
digital video distribution and device control, supporting thousands of 
sensors and simultaneous users. These open architecture systems would 
support a wide range of robotic camera packages, digital video 
recorders, sensors and legacy CCTV equipment and could integrate 
various other security technologies.
    Of course, one of the most important issues among this type of 
system is interoperability among Federal, state and local agencies. 
Whether transmitted by fiber or wireless connections, the networked 
camera/video feeds must (and can) be distributed to authorized users 
without requiring any proprietary hardware or software.
    This approach has been utilized for numerous physical security 
solutions for early warning, detection and response, public safety, 
port and refinery security and operational safety with the Department 
of Defense, Department of Energy, DHS, and several major transit 
systems including the Massachusetts Bay Transportation Authority and 
Metro. The airport community we believe is next.
3. Millimeter Wave Imaging
    Another innovative technology that we feel could be useful to the 
airport checkpoint area is millimeter wave cameras. This technology 
detects threat objects, such as explosives or weapons, by measuring 
millimeter wave energy. This nonionizing energy can penetrate clothing 
and many other concealing materials. An explosive strapped to the human 
body, for example, returns a different amount of energy to the camera 
than the body around it, therefore revealing the explosive. At the same 
time, the camera is unaffected by the presence of clothing because 
clothing is transparent at millimeter wave frequencies.
    Again, the technology is complicated, but the function is simple: A 
passenger would stand before the camera which would measure his body's 
natural radiation of energy in comparison to a controlled background. 
If the passenger is carrying an explosive or a weapon, these objects 
will stand out on the camera's image so that the screener can identify 
them. The image is processed to provide the passenger with privacy 
while still facilitating threat detection.
    Real-time people screening using millimeter-waves has many 
benefits:

  <bullet> Instant Detection of Threat Objects--When a person is imaged 
        using a real-time millimeter-wave camera, the operator receives 
        instantaneous feedback on the presence of any potential threat 
        items that may be concealed by the person's clothes. Concealed 
        objects appear as a lighter/darker contrast against the body 
        background. Because the information is provided as an image, 
        the operator can pinpoint the location of the suspect item and 
        follow-up with a directed search procedure to investigate the 
        object in question.

  <bullet> Safety--Millimeter-wave imaging uses a low energy, non-
        ionising region of the spectrum to gather information on 
        concealed threat objects. It is harmless in terms of human 
        safety--there is no health implication for either subject or 
        operator.

  <bullet> Identification of Multiple Material Types--In addition to 
        providing location information on possible threat items, 
        millimeter-wave imaging can also detect a wide range of 
        material types. This is a significant advance on present-day 
        checkpoints that only screen people for metal. Dangerous 
        weapons and materials such as ceramic knives and explosives 
        that would pass undetected through a magnetometer will be 
        identified using a millimeter-wave imager.

  <bullet> Rapid Throughput --The screening procedure using a real-time 
        millimeter-wave imager typically takes between 5 and 10 
        seconds. The instantaneous availability of information on the 
        person as they are being screened means the operator can make 
        an on the spot assessment to pass or further investigate an 
        individual. These features combine to ensure a rapid screening 
        procedure and a fast transit time for passengers at the 
        checkpoint.

    Millimeter wave imaging employs cutting-edge technology that has 
matured to the point where TSA and Smiths can once again begin a 
collaborative effort to implement this technology at various test 
airport passenger checkpoints throughout the United States. We envision 
a pilot project where the passenger enters a secure area where they are 
requested to place their luggage on the belt of an X-ray system. The 
passenger is also asked to remove all items from their clothing and to 
put these also through the X-ray system. The passenger is then screened 
by a mm-wave imaging system (with integrated metal detector) and if any 
bulk object is detected underneath the clothing, they are automatically 
asked to remove this and put it again on the X-ray. This procedure 
could be repeated twice until the passenger is cleared or, if not 
cleared, an operator is alerted.
    Under the above scenario, we believe that such an approach may 
reduce the number of operators required to run the checkpoint. A 
majority of the cost of operating a checkpoint is ``Operator Time,'' so 
the airport operator may achieve considerable savings for the total 
checkpoint running costs.
4. Document Scanners
    Another technology that is yet to be utilized fully although it has 
been deployed in limited circumstances is the document scanner. 
Document scanners allow detection and identification of traces of over 
40 different explosive substances in a rapid eight-second period by 
simply swiping passports or other travel documents over a sample disc, 
or using an optional swab sampler. With a flip of a switch, the sample 
disc is automatically brought into the detector for analysis. Screeners 
at airports would have the technology to trace explosives on documents, 
such as passports, visas, or airline tickets.
    Combined with the other ``layers'' of security, document scanners 
add yet another forward-looking approach to authenticating individuals, 
detecting explosives, and mitigating against security threats.
5. Explosives Detection Portals
    Finally, all aviation checkpoints should have an explosive 
detection portal. Although not necessarily new, such portals were 
developed in collaboration with the FAA, TSA, and the Sandia National 
Laboratory in response to the general interest in providing a full 
body, non-intrusive explosive screening method for use on personnel at 
checkpoints in high traffic volume environments. We believe such 
portals have proven to be an effective and efficient system that 
complements proven technologies with cutting-edge improvements to 
create an efficient and reliable detection system.
    Despite the complexity of the technology behind the device, it is 
fairly simple to describe and understand its operation. As you may 
know, the passenger steps into the portal for a period of only seconds. 
There are no true doors that must open or shut, it's more like walking 
into and stopping in a conventional metal detector. Once the passenger 
is in, the portal's gentle puffs of air dislodge any particles trapped 
on the body, hair, clothing and shoes. These particles are then 
directed into the instrument for analysis. The passenger then continues 
through the security process. The time in the portal takes only 
seconds--IONSCAN<SUP>'</SUP> technology combined with pre-concentration 
technology developed by Sandia National Laboratories allows for the 
high throughput of screening up to six people per minute. Trace amounts 
of up to 40 substances can be detected and identified in seconds. 
Results are displayed in an easy-to-understand fashion.
    We highlight the explosive detection portal not only because it 
uses a proven effective technology for contraband detection but also 
because of the collaborative effort between Smiths Detection the FAA/
TSA to implement its use. In our opinion, this effort reflects the 
proper function of TSA in turning to the private sector to solve a 
public problem. \1\
---------------------------------------------------------------------------
    \1\ It is worth noting, however, that this collaborative effort 
took nearly 10 years from its inception to deployment.
---------------------------------------------------------------------------
Conclusion
    Mr. Chairman, Smiths Detection is constantly working on new 
generation technologies that will greatly assist TSA and DHS in 
achieving its stated goal of improved aviation security. We would like 
to partner with this committee to provide more information on our 
reliable and cost-effective means to detect the presence of explosives 
and other contraband on passengers, in luggage, and in cargo. Tests 
have established that Smiths Detection's technologies improve passenger 
safety without disrupting passenger flow and we are continually working 
to ensure that passenger flow is as efficient as possible while 
maintaining an effective checkpoint process. Smiths Detection 
appreciates the opportunity to submit testimony before the Committee 
and looks forward to working with the Committee members in continuing 
to implement its technologies.
                                 ______
                                 
   Supplementary Information Submitted by Hon. Edmund ``Kip'' Hawley
    Mr. Chairman, with respect to the question from Senator Lautenberg 
regarding whether our Transportation Security Officers (TSOs) 
participate in the traditional fringe benefit programs, I would like to 
supplement my answer. All TSA employees under permanent appointments, 
including TSOs, are eligible for benefits including leave, retirement, 
and health and life insurance coverage. Part-time employees under 
permanent appointments, including TSOs, are eligible for benefits on a 
prorated basis. Our retention pilot program will offer part-time TSOs 
at certain airports fully subsidized benefits.
                                 ______
                                 
        Written Questions Submitted by Hon. Daniel K. Inouye to 
                      Hon. Edmund ``Kip'' Hawley *
---------------------------------------------------------------------------
    * Response to written questions referred to were not available at 
the time this hearing went to press.
---------------------------------------------------------------------------
Explosive Detection Systems (EDS)
    Question 1. It has been reported that at the nine airports where 
the TSA has issued Letters of Intent (LOIs) to begin moving EDS 
equipment ``in-line,'' that the TSA will recover its initial investment 
in in-line systems in just over a year and save $1.3 billion over 7 
years through reduced labor costs. Is it your belief that in-line EDS 
will save money while strengthening security at a number of airports 
that do not currently have it? Do you plan on more aggressively seeking 
funding for in-line EDS or do you believe the current stream of funding 
is appropriate?

    Question 2. At many airports where they believe the placement of 
in-line EDS is justified, including Honolulu International Airport 
(HNL), the airports themselves are already working to construct full or 
partial in-line EDS systems in their facilities. How is TSA assisting 
in this effort? Will funds be available to help pay for some of the 
costs for such airports that establish staff and costs savings through 
the implementation of EDS in-line?
Screener Workforce
    Question 3. Since the TSA was created, the issue of the proper 
levels of screeners needed at individual airports and nationally has 
been debated by all of the stakeholders involved. Has your Screener 
Allocation Model provided the necessary guidance for TSA to determine 
an absolute figure for the number of screeners you need nationally? 
Have Federal Security Directors been able to properly implement you 
recommendations? Are you comfortable with the current cap of 45,000 
full-time employees? Have you been able to meet your needs with the 
level of funding provided in Fiscal Year 2006? Is the use of 20 percent 
Part-Time Screeners in the SAM realistic? Do Part-Time screeners have a 
higher attrition rate?

    Question 4. The TSA has been using a National Screening Force to 
provide screening support to all airports in times of special need. How 
often does the National Screening Force get utilized? Under the new 
Screener Allocation Model will this National Screening Force still be 
necessary? How many FTEs are currently utilized by the National 
Screening Force? Have you ever performed a cost-benefit analysis of the 
National Screening Force?

    Question 5. The attrition rate for screeners has been noted as 
detrimental to the public's demand for a Federal, professional, career 
screener workforce following September 11, 2001. Do you believe that 
the exemption of TSOs from the labor law protections afforded other 
Federal workers deprives TSOs due process in the face of adverse 
personnel actions? Some have argued that it resulted in the ability of 
TSA to fire TSOs with relative ease for almost any alleged infraction, 
regardless of proof or fairness which has directly contributed to the 
current attrition rate. Do you believe that the lack of collective 
bargaining rights has led to lower morale among the screener workforce? 
For each year of the TSA's existence please provide the numbers of TSOs 
who were involuntarily terminated. Please provide the reason for the 
involuntary termination and airport.

    Question 6. Is it accurate that any discipline less than a 15-day 
suspension is handled within an airport with no outside or independent 
review? What efforts have TSA made to ensure that the discipline meted 
out at airports is consistent with TSA policy and the agency mission? 
What efforts have been made to ensure that discipline has not been 
arbitrary, capricious, and/or retaliatory? What training do airport 
management, e.g., Federal Security Directors, Assistant Federal 
Security Directors, Screening Managers, receive to ensure that they 
understand agency policy on discipline? What training does airport 
management receive to ensure that they understand the purpose and 
policy goals behind discipline?

    Question 7. Recently released Department of Labor statistics show 
that 29 percent of airport screeners were injured on the job in 2005, a 
rate higher than any of the other 600 jobs tracked by the agency and 
over six times higher than the injury rate for the rest of the Federal 
workforce. Do you believe this high injury rate has affected both the 
high attrition rate for TSOs, and the TSA's ability to adequately staff 
screening stations? What is the TSA policy for assignment of light duty 
either following the return of a TSO from a work-related injury, or 
otherwise upon the recommendation of the worker's physician? For each 
year since the creation of the TSA, how many TSOs have been terminated 
for reasons of being unable to perform the duties of a TSO following a 
work-related injury?

    Question 8. The Occupational Safety and Health Administration 
(OSHA) has investigated and reported on the workplace hazards faced by 
TSOs at various airports around the country. Yet when TSOs request a 
copy of these reports they have been told by OSHA that airport FSDs 
have declared the entire report as ``Sensitive Security Information'' 
and denied access. What oversight does TSA exercise regarding whether 
OSHA reports should be deemed ``Sensitive Security Information?''

    Question 9. It is my understanding that the TSA has failed to apply 
the veteran's preference in promotion and reduction-in-force decisions, 
and unlike other Federal agencies, has only applied the veteran's 
preference to those who retired from the military, denying the 
preference to the majority of veterans who leave active duty before 
retirement. TSO National Guard and Reserve personnel returning from 
service in Iraq, Afghanistan and other foreign posts have reported that 
they have been denied promotions in violation of the Uniformed Services 
Employment and Reemployment Act of 1994 (USERRA). What is the rationale 
for the TSA's seemingly restrictive definition and application of the 
veteran's preference? Are individual FSDs permitted to ignore USERRA as 
it applies to TSOs returning to their positions following active duty?
Next-Generation Technology
    Question 10. It seems various components of screening technology, 
while likely improving security, would also require a great deal more 
manpower to utilize. When the agency indicates new technology may be 
available in about 2 years, do you mean an integrated system for 
checkpoints or just the hardware? To date, how much progress has been 
made in developing an integrated checkpoint of the future as required 
by the Intelligence Reform and Terrorism Act of 2004 which passed 
Congress a little more than a year ago? Have you begun to consider the 
cost of such technology? Do you plan to aggressively seek funding for 
technological improvements?

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
